<html>
<title> - CBP AND ICE: DOES THE CURRENT ORGANIZATIONAL STRUCTURE BEST SERVE U.S. HOMELAND SECURITY INTERESTS?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                     CBP AND ICE: DOES THE CURRENT
                     ORGANIZATIONAL STRUCTURE BEST
                SERVE U.S. HOMELAND SECURITY INTERESTS?

=======================================================================

                                HEARING

                               before the

         SUBCOMMITTEE ON MANAGEMENT, INTEGRATION, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 9, 2005

                               __________

                            Serial No. 109-4

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
20-756                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania, Vice      Edward J. Markey, Massachusetts
Chairman                             Norman D. Dicks, Washington
Christopher Shays, Connecticut       Jane Harman, California
Peter T. King, New York              Peter A. Defazio, Oregon
John Linder, Georgia                 Nita M. Lowey, New York
Mark E. Souder, Indiana              Eleanor Holmes Norton, District of 
Tom Davis, Virginia                  Columbia
Daniel E. Lungren, California        Zoe Lofgren, California
Jim Gibbons, Nevada                  Sheila Jackson-Lee, Texas
Rob Simmons, Connecticut             Bill Pascrell, Jr., New Jersey
Mike Rogers, Alabama                 Donna M. Christensen, U.S. Virgin 
Stevan Pearce, New Mexico            Islands
Katherine Harris, Florida            Bob Etheridge, North Carolina
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Dave G. Reichert, Washington         Kendrick B. Meek, Florida
Michael McCaul, Texas
Charlie Dent, Pennsylvania

                                 ______

         Subcommittee on Management, Integration, and Oversight

                     Mike Rogers, Alabama, Chairman

Christopher Shays, Connecticut       Kendrick B. Meek, Florida
John Linder, Georgia                 Edward J. Markey, Massachusetts
Tom Davis, Virginia                  Zoe Lofgren, California
Katherine Harris, Florida            Sheila Jackson-Lee, Texas
Dave G. Reichert, Washington         Donna M. Christensen, U.S. Virgin 
Michael McCaul, Texas                Islands
Charlie Dent, Pennsylvania           Bennie G. Thompson, Mississippi Ex 
Christopher Cox, California Ex       Officio
Officio

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Management, 
  Integration, and Oversight
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable Kendrick B. Meek, a Representative in Congress From 
  the State of Florida, and Ranking Member, Subcommittee on 
  Management, Integration, and Oversight
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     6
The Honorable Donna Christensen, a Delegate from the U.S. Virgin 
  Islands........................................................    55
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania......................................    50
The Honorable Katherine Harris, a Representative in Congress From 
  the State of Florida...........................................    57
The Honorable Michael McCaul, a Representative in Congress From 
  the State of Texas.............................................    59
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the States of New Jersey..................................    52
The Honorable Dave G. Reichert, a Representative in Congress From 
  the State of Washington........................................    61
The Honorable Christopher Shays, a Representative in Congress 
  From the State of Connecticut..................................    53

                               WITNESSES

Mr. T.J. Bonner, President, National Border Patrol Council
  Oral Statement.................................................    30
  Prepared Statement.............................................    32
Mr. Randy Allen Callahan, Executive Vice president, American 
  Federation of Government Employees, AFL-CIO
  Oral Statement.................................................    25
  Prepared Statement.............................................    27
James Carafano, Ph.D., Senior Research Fellow, The Heritage 
  Foundation
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Mr. Michael Cutler, Former Senior Special Agent, U.S. Immigration 
  and Naturalization Service
  Oral Statement.................................................    34
  Prepared Statement.............................................    37
Mr. Kenneth C. Klug, Former Special Agent in Charge, U.S. 
  Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security
  Oral Statement.................................................    19
  Prepared Statement.............................................    22
Mr. David Venturella, Former Director, Office of Detention and 
  Removal Operations, U.S. Immigration and Customs Enforcement, 
  U.S. Department of Homeland Security
  Oral Statement.................................................    39
  Prepared Statement.............................................    40

                                APPENDIX
                   Material Submitted for the Record

The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas, Prepared Statement....................    86
Questiona and Responses for the Record of T.J. Bonner............    67
Questions and Responses for the Record of James Jay Carafano, PhD    68
Questions and Responses for the Record of Mr. Michael Cutler.....    72
Questions and Responses for the Record of Mr. Kenneth C. Klug....    81
Questions and Responses for the Record of Mr. David J. Venturella    84

 
                     CBP AND ICE: DOES THE CURRENT
 ORGANIZATIONAL STRUCTURE BEST SERVE U.S. HOMELAND SECURITY INTERESTS?

                              ----------                              


                        Wednesday, March 9, 2005

                          House of Representatives,
                                Subcommittee on Management,
                                Integration, and Oversight,
                            Committee on Homeland Security,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2212, Rayburn House Office Building, Hon. Mike Rogers 
[chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Shays, Harris, Reichert, 
McCaul, Dent, Cox (Ex Officio), Meek, Jackson-Lee, Pascrell, 
Christensen and Thompson (Ex Officio).
    Mr. Rogers. I want to welcome all of you to this the 
inaugural meeting of the Homeland Security Committee's 
Subcommittee on Management, Integration, and Oversight; And I 
would also like to welcome our Ranking Member, Kendrick Meek of 
Florida, and Mr. Thompson of Mississippi to this committee. I 
know we are going to have a lot on our plates. It is going to 
be an interesting committee, and I look forward to the 
challenges we face.
    It is going to be our responsibility to address the serious 
management challenges facing the Department of Homeland 
Security, and I must add that improving the management and 
operation of the Department is no small challenge, but we 
accept that challenge with a commitment to do what is best for 
our Nation.
    The purpose of today's hearing will focus on one of the 
most important management challenges facing the Department and 
involves one of the most important functions, protecting our 
borders and enforcing our immigration and customs laws.
    The Border and Transportation Security Directorate, or BTS, 
of the Department of Homeland Security is divided into two now 
separate bureaus, the U.S. Customs and Border Protection, or 
CBP, and the U.S. Immigration and Customs Enforcement, or ICE. 
In particular, we will explore whether the current Division of 
Border Security, within CBP, and Immigration and Customs 
investigations, within ICE, is the best way to structure these 
important functions or if the separation has caused more 
operational, administrative, and budgetary problems that 
negatively impact the Homeland Security missions of these 
agencies.
    I believe that we are best served today by attempting to 
gain an understanding of the challenges facing these agencies, 
whether the current organization is the best structure to face 
these challenges, and discussing possible solutions to the 
problems that we identify.
    Shortly before the Department of Homeland Security 
officially opened its doors, the Administration used the 
reorganization authority provided to the Secretary of DHS in 
the Homeland Security Act to split up the Customs Service and 
the Bureau of Border Security and reconfigure them into two new 
bureaus within the BTS directorate: Customs and Border 
Protection, CBP, and Immigration and Customs Enforcement, or 
ICE. Essentially, the reorganization merged Customs and 
Immigration enforcement at the border into one agency, while 
separating out Customs and Immigration investigations into 
another agency. It is important to note that this was not a 
simple border security versus interior enforcement split, since 
ICE agents often operate at or near the borders and Border 
Patrol agents are not limited geographically to the borders.
    As a result, CBP now consists of the Office of Border 
Patrol and the Office of Field Operations, the latter of which 
is staffed by INS inspectors, former Customs inspectors, and 
former Department of Agriculture inspectors. These CBP 
officers, as they are now called, are responsible for carrying 
out the duties and functions formerly carried out by these 
three separate agencies.
    ICE is comprised of former INS investigators and former 
U.S. Customs investigators, who are referred to as ICE agents, 
and are responsible for the enforcement of both immigration and 
customs laws. ICE also contains the Office of Detention and 
Removal, the Office of Intelligence, the Federal Protection 
Service, and the Federal Air Marshals.
    The issues at hand today--as with all reorganizations there 
will always be growing pains, but 2 years later the concerns 
with the current structure seem to be growing and not receding. 
Through the committee's oversight activities we have learned of 
several anecdotal examples of poor operational coordination 
between the Border Patrol and ICE's Office of Investigations 
that have or could have led to security or operational 
compromises.
    In addition, we have heard of concerns that inspectors are 
not receiving investigative support as readily as before the 
reorganization and that reorganization may have created 
bureaucratic walls that impede effective and efficient 
communication and information sharing.
    We have also learned of serious budgetary problems facing 
in particular ICE and the challenges that appear to be 
attributable to the inexact division of resources within INS 
when INS was divided in three separate parts: CPB, ICE, and the 
U.S. Citizenship and Immigration Service. ICE's budget 
shortfalls have forced ICE to impose hiring freezes and to 
release aliens that otherwise should be detained.
    Today, we will start a dialogue on the future of CBP and 
ICE by examining the effects of the Administration's 
reorganization, both pros and cons, 2 years after its 
implementation. As we undertake this review, we must examine 
this issue in the larger context of the BTS Directorate and its 
role with respect to ensuring coordination and achievement of 
the missions of ICE and CBP, and we will also examine how a 
proposed new DHS regional field structure would impact upon 
operational efficiencies and what the effect of the 
Department's new secretarial-level policy office will have upon 
the operations of these two bureaus.
    We hope our witnesses today can provide some insight, not 
only into the challenges and concerns that exist within the 
current organization of CBP and ICE, but also some potential 
solutions. I thank them all for providing us with their 
testimony today.
    At this time I would now recognize my friend and colleague 
from Florida, the Ranking Member, Mr. Meek, for any statements 
that he may have.
    Mr. Meek. Thank you very much, Mr. Chairman; and I think 
that you really framed the meaning for this meeting and also 
for the ongoing dialogue.
    Mr. Chairman, I want to congratulate you on our first 
meeting and also the whole committee on becoming a standing 
committee here in this Congress. As you know, many of us were 
on the oversight committee, the Select Committee last year, and 
I think this is a step in the right direction for the 
protection of the homeland.
    I also would like to thank those members of the Department 
of Homeland Security for all the hard work that they have been 
doing since the creation of the Department, and I can tell you 
that it was done in a way to get us to this point so that we 
can have a subcommittee like we are having now to review some 
of the functions of the Department.
    As you know, today's subject will pretty much focus on CBP 
and ICE and seeing how we could possibly make the functions 
work better, but I am definitely looking forward to many of our 
witnesses that are here today and hearing their comments and 
also their findings.
    Mr. Chairman, I just would pretty much like to just share 
some of the concerns that I have and would hopefully like to 
see some of the witnesses address or hear them address.
    What do they think, as it relates to the Department as it 
is moving now and these two agencies and the reason why they 
were integrated in the first place, on the positive, the reason 
why it was done?
    And, also, I think not necessarily negative, but how can we 
move towards a more creative functional agency if it was merged 
together? How would we deal with some of the issues of the 
upper echelon of the agency, in military talk, brass? How would 
that integrate itself together? And will it jeopardize the 
security of the homeland and the function of this enforcement 
arm of Department of Homeland Security?
    We have a number of members here, Mr. Chairman, that I know 
that are going to have some insightful questions for our panel. 
I know our panel is quite large, so I will reserve the rest of 
my comments and enter it for the record so that we can have it 
on record for future meetings.
    But I am honored to be here and pleased to be your ranking 
member on this committee. I know that we are going to do good 
work together, and I know that we are going to get out in the 
field, and we are going to see what these gentlemen are going 
to share with us this morning firsthand.
    [The information follows:]

Prepared Opening Statement of Mike Rogers, a Representative in Congress 
 From the State of Alabama, and Chairman, Subcommittee on Management, 
                       Integration and Oversight

    Today's hearing marks the inaugural hearing of the Subcommittee on 
Management, Integration and Oversight, which I am honored to chair. I 
want to thank Chairman Cox and Ranking Member Thompson for their 
leadership in establishing this Subcommittee, which will focus on 
improving the management and operations of the Department of Homeland 
Security--no small challenge. And I would also like to take this 
opportunity to welcome the Subcommittee Ranking Member, Mr. Meeks of 
Florida. I look forward to working with you and the other Members of 
this Committee in a bipartisan fashion to address the serious 
management challenges facing of one our Nation's most critical 
agencies.
    Today's hearing will focus on one of those important management 
challenges--whether the two now-separate bureaus within the Border and 
Transportation Security Directorate (BTS) of the Department of Homeland 
Security--U.S. Customs and Border Protection or ``CBP,'' and U.S. 
Immigration and Customs Enforcement or ``ICE''--should be reorganized 
to enhance the homeland security mission. In particular, we will 
explore whether the current division of border security, within CBP, 
and immigration and customs investigations within ICE, has caused 
operational, administrative, and budgetary problems negatively 
impacting upon the homeland security missions of these agencies.
    When Congress passed the Homeland Security Act of 2002 and created 
the Department of Homeland Security, it placed the responsibility for 
immigration inspections, investigations, detention, removal, and border 
patrol functions into one new Bureau of Border Security, within the 
Directorate of Border and Transportation Security, or BTS. Congress 
also transferred the functions of the Customs Service to DHS intact, as 
a stand-alone agency, into BTS. The Act also separated the immigration 
and alien services functions of the former INS from immigration 
enforcement, by creating a stand-alone agency within the Department 
called U.S. Citizenship and Immigration Services (USCIS).
    Shortly before the Department officially opened its doors, however, 
the Administration used the reorganization authority provided to the 
Secretary of DHS in the Homeland Security Act to split up the Customs 
Service and the Bureau of Border Security, and reconfigure them into 
two new bureaus in the BTS Directorate: CBP and ICE. Essentially, the 
reorganization merged customs and immigration enforcement at the border 
into one agency, while separating out customs and immigration 
investigations into another agency. But it is not a simple border 
security vs. interior enforcement split, since ICE agents often operate 
at or near the borders, and Border Patrol agents are not limited 
geographically to the borders.
    As a result, CBP now consists of the Office of Border Patrol and 
the Office of Field Operations--the latter of which is staffed by 
former INS inspectors, former Customs inspectors, and former Department 
of Agriculture inspectors. These ``CBP Officers,'' as they are now all 
called, are responsible for carrying out the duties and functions 
formerly carried out by these three separate agencies.
    ICE is comprised of former INS investigators and former U.S. 
Customs investigators, who are referred to as ICE agents, and are 
responsible for the enforcement of both immigration and customs laws. 
ICE also contains the Office of Detention and Removal, the Office of 
Intelligence, the Federal Protective Service and the Federal Air 
Marshals.
    As with all reorganizations, there will always be growing pains. 
But two years later, the concerns with the current structure seem to be 
growing, not receding. Through this Committee's oversight activities, 
we have learned of several anecdotal examples of poor operational 
coordination between the Border Patrol and ICE's Office of 
Investigations that have or could have compromised important 
operations. We have heard concerns that inspectors are not receiving 
investigative support as readily as before the reorganization, and that 
the reorganization may have created bureaucratic walls that impede 
effective and efficient communication and information sharing.
    We also have learned of serious budgetary problems facing ICE in 
particular, challenges that appear to be attributable to the inexact 
division of resources when INS was divided into three parts (CBP, ICE, 
and U.S. Citizenship and Immigration Services). ICE's budget shortfalls 
have forced ICE to impose hiring freezes and to release aliens that 
otherwise should be detained.
    In light of these reported problems, I was encouraged last week 
when incoming Homeland Security Secretary, Michael Chertoff, indicated 
that the Department will begin ``a comprehensive review'' of its 
organization, operations, and policies, and that ``. . . analysis of 
the threats and risks [posed to the United States by terrorists] will 
drive the structure, operations, policies and missions of the 
department, and not the other way around.''
    Such a review is, indeed, necessary, and this Subcommittee should 
not jump to any particular conclusion about the optimal structure for 
CBP and ICE. Instead, we will start a dialogue today on the future of 
CBP and ICE by examining the effects of the Administration's 
reorganization--both the pros and cons--two years after its 
implementation. As we undertake this review, we must examine this issue 
in the larger context of the BTS Directorate, and its role with respect 
to ensuring the coordination and achievement of ICE and CBP's missions. 
And we also must examine how a proposed new DHS regional field 
structure would impact upon operational efficiencies, and what the 
effect of the Department's new, Secretarial-level policy office will be 
upon the operations of these two bureaus.
    We hope our witnesses today can provide some insight not only into 
the challenges and concerns that exist with the current organization of 
CBP and ICE, but also as to some potential solutions. I thank them all 
for providing us with their testimony today.
    At this time, I will now recognize the Ranking Member, Mr. Meeks, 
for any opening statement he may wish to make.

Prepared Statement of The Honorable Kendrick Meek, a Representative in 
Congress from the State of Florida, and Ranking Member, Subcommittee on 
                 Management, Integration and Oversight

    Mr. Chairman, I would like to first congratulate you on being 
appointed chairman and I look forward to working with you throughout 
this term. I believe that the Management, Integration, and Oversight 
Subcommittee is one of the most important in that it oversees the 
Department of Homeland Security. On this, the first meeting of the 
subcommittee, I am eager to begin our work on ensuring that DHS is 
functioning at a level to best protect the American people.
    I would also like to extend a warm welcome to the panelists.
    Dr. Carafano--You and your colleague at the Center for Strategic & 
International Studies have written a very interesting report that 
helped move the current debate on DHS internal restructuring--
specifically Immigration and Customs Enforcement (ICE) and Customs and 
Border Protection (CBP). While many frontline officers and 
investigators have expressed concern about the current structure and 
the operational, communication and coordination problems between ICE 
and CBP, your paper has helped focus more Members of Congress on this 
issue. Thank you for that.
    Mr. Klug--I really look forward to your testimony especially given 
your experiences in New York before and after 9/11. I would very much 
like an ICE agent's view on how the Department is working--and where 
and how it can be more effective.
    Mr. Bonner--I welcome your testimony--I share a number of your 
concerns about the lack of sufficient funding for the Border Patrol.
    Mr. Venturella, Mr. Cutler, and Mr. Callahan--I look forward to 
hearing your testimony. Thank you for taking the time to be with us 
today.
    The mission of the Department of Homeland Security is vital--the 
difference between the success and failure of DHS are American lives. 
The reason we need DHS to succeed is just that simple. The mission of 
this particular subcommittee is to determine what problems prevent DHS 
from achieving its mission.
    This is why I am delighted that the first hearing before this 
Management and Oversight Subcommittee is on a topic critical to our 
homeland security--determining whether the current structure of CBP and 
ICE--agencies charged with key border security functions--facilitates 
coordination, communication and information sharing between key border 
agencies.
    Two years after its creation, we have an opportunity to evaluate 
whether the existing structure of Border and Transportation Security 
works. The DHS 2.0 report states that there may be too many layers of 
bureaucracy at DHS and recommends the merger of CBP and ICE. I am not 
convinced that creating an agency or moving boxes around on a chart 
alone secures America or our borders. A clear mission, the ability to 
coordinate operations and communicate effectively, sufficient staffing, 
access to relevant information and intelligence, access to needed 
technology--these will help our men and women secure our nation's 
borders.
    Additionally, I think that it is critical that we have some 
coordination of the immigration function within the DHS. Who in DHS is 
responsible for national immigration policy? We know that every 
immigration benefit is connected to an enforcement action at our ports 
of entry or overseas, or at one of our Citizenship and Immigration 
Service offices within the United States. While the Homeland Security 
Act abolished the Immigration and Nationality Service and separated it 
into enforcement and services bureaus, I am very concerned about the 
further separation of immigration enforcement into ICE and CBP. I hope 
that our panel will address that issue in their testimony.
    Additionally, as you provide testimony I hope that you'll keep four 
questions in mind.
(1) What do you think was the basis for the Administration decision to 
integrate functions of the U.S. Customs Service and Bureau of Border 
Security and form CBP and ICE?
(2) What are the problems that were created by the current structure of 
CBP and ICE?
(3) Is it possible to resolve existing problems within the current 
structure or is it necessary to make structural changes?
(4) If structural change is necessary then what type of restructuring 
do you recommend?
    I look forward to your testimony.

    Mr. Rogers. I agree. I do look forward to it, and we do 
intend to be a very active subcommittee and spend some time in 
the field. So we will be seeing a lot more of you folks in the 
future.
    Before I recognize our next member, I would ask everybody 
or remind everybody that the rules of the full committee are 
the rules here and that all cell phones should be turned off or 
turned to the vibrate position, please.
    With that, I now recognize the gentleman from Mississippi, 
the ranking member of the full committee, Mr. Thompson.
    Mr. Thompson. Thank you very much, Chairman Rogers and 
Ranking Member Meek. I would like to welcome the witnesses 
also.
    I think it is fair to say that all the Members of this 
committee want to hear what needs to be done to make America 
safer by improving enforcement and customs and immigration 
laws. That said, I am interested in finding out how we improve 
coordination between CBP officers, Border Patrol agents, and 
ICE special agents.
    In case anyone doubts the need for better coordination, let 
me offer a few examples of the problems that are occurring all 
too frequently because of conflicts and miscommunication among 
BTS organizations.
    ICE and the Border Patrol continue to fight over controlled 
deliveries. The lack of coordination has resulted in, at best, 
the jeopardizing of investigations and, at worst, danger to law 
enforcement personnel. At a northern point of entry, a Border 
Patrol agent stopped a vehicle, ran a computer check and 
discovered an active ICE investigation. The agent searched the 
vehicle, found automatic weapons and silencers and referred the 
case to DEA. The DEA, not the Border Patrol, subsequently 
notified ICE.
    I could give you some other examples of a lack of 
coordination, Mr. Chairman, but I am sure the testimony will 
highlight it. I think it is clear that this subcommittee 
hearing is timely. It is important for the safety of this 
country as well as the men and women in uniform, and I look 
forward to the testimony.
    Mr. Rogers. Thank you, Mr. Thompson.
    The Chair now recognizes the chairman of the full 
committee, our friend and colleague, Mr. Cox, from California.
    Mr. Cox. I want to thank you, Mr. Chairman; and let me 
begin by commending Chairman Rogers and Ranking Member Meek for 
your willingness to lead this critically important 
subcommittee.
    Thank you also for holding today's hearing to examine the 
potential merger of two operational components of the 
Department of Homeland Security: Customs and Border Protection, 
or CBP, and U.S. Immigration and Customs Enforcement, known as 
ICE. They are both responsible for immigration enforcement, but 
today they are doing that job separately.
    I would also like to welcome and thank each of our 
distinguished witnesses for appearing before the subcommittee 
to discuss this important issue with us.
    Our responsibility as Members of this committee requires us 
to conduct vigorous oversight and to regularly assess the 
direction and management of the Department of Homeland 
Security. Is the Department making acceptable progress towards 
integration of its operations? Is the Department optimally 
structured to achieve its core missions of preventing 
terrorism, protecting against terrorism, and being prepared to 
respond to acts of terrorism?
    This subcommittee will take the lead in examining these 
issues. I look forward to working with Chairman Rogers, Ranking 
Member Meek, and the other members of this subcommittee as we 
explore such questions.
    We created the Department of Homeland Security with the 
express purpose of enhancing the Nation's ability to prevent 
and to deal with terrorist acts. It was that overarching 
purpose that drove our decision to consolidate existing Federal 
agencies into a single new department. The main organizational 
task for the Department now is to realign the missions of those 
legacy agencies to more directly support our national Homeland 
Security efforts.
    Today, we are investigating whether the Immigration and 
Naturalization Service and the U.S. Customs Service, both of 
which were transferred to DHS, have been reorganized in a way 
that is optimal for improving our immigration security efforts. 
The good news is that these immigration control agencies are 
now within the same department, and they have a clear and 
critical new mission: to prevent foreign terrorists and their 
weapons from entering the United States and to prevent those 
terrorists from having free reign within our country.
    Abolishing the INS and moving its functions into this new 
department was meant to correct the fundamental problems that 
existed within the INS itself. The old INS had multiple and 
sometimes conflicting roles as provider of immigration services 
and enforcer of immigration laws. The Homeland Security Act 
abolished the INS and split immigration services from 
immigration enforcement.
    But the Congress did not have the last word on the 
organization of Customs and Immigration enforcement functions 
within DHS. Utilizing its reorganization authority under the 
Homeland Security Act, the administration acted in January, 
2003, to merge the Customs and Immigration border inspection 
and patrol functions, along with Agriculture inspection 
functions, into what is now CBP. In doing so, the 
Administration also created a new entity called ICE, which 
contains the Customs and Immigration enforcement agencies whose 
investigative responsibilities include crimes, as opposed to, 
for example, the inspection of cargo and people crossing the 
border.
    Two years later, questions remain about whether DHS has 
organized itself and is managing its immigration enforcement 
and border security resources in the most efficient, sensible, 
and effective manner. Anecdotal evidence suggests that the 
division of Customs and Immigration inspectors from their 
related investigative colleagues may be building administrative 
walls and hampering cooperation and information sharing between 
ICE and CBP in critical mission areas.
    Some observers also have suggested that the distinction 
between the so-called interior enforcement activities of ICE 
and the so-called border security functions of CBP are 
artificial constructs that contribute to needless 
administrative overlaps, programmatic turf battles, mission 
gaps, and sometimes dangerous operational conflicts.
    In addition, it appears that at least some of ICE's very 
troubling budget shortfalls over the last 2 fiscal years have 
been attributable to erroneous budget allocations that occurred 
upon division of CBP and ICE into two distinct components of 
the Border and Transportation Security Directorate.
    In light of these concerns, we must ask ourselves whether 
the organizational structure currently in place is contributing 
to these problems and whether a merger or reallocation of 
responsibility may help to resolve them.
    Ultimately, our goal is to see that immigration enforcement 
and border inspection activities operate within an 
organizational structure that provides for strong policy 
guidance and coordination, fair and efficient allocation of 
funding, and clearly-defined and seamless operational roles. It 
is also critical that we fully fund the authorized levels of 
both Border Patrol and Immigration Enforcement agents.
    As the committee moves toward the development of 
comprehensive reauthorization legislation for the Department, I 
anticipate that our findings in this hearing, and others to 
follow, will play an important role in determining the path 
ahead. I look forward to an honest exchange of ideas on this 
issue as we explore the best way to protect our Nation from 
those who would do us harm.

    Prepared Opening Statement of The Honorable Christopher Cox, a 
Representative in Congress From the State of California, and Chairman, 
                     Committee on Homeland Security

    Thank you, Mr. Chairman. Let me begin by commending Chairman Rogers 
and Ranking Member Meek for their willingness to lead this critically 
important Subcommittee. Thank you also for holding today's hearing to 
examine the potential merger of two operational components of the 
Department of Homeland Security. Customs and Border Protection, or CBP, 
and U.S. Immigration and Customs Enforcement, known as ICE, are both 
responsible for immigration enforcement. But today, they are doing that 
job separately. I'd also like to welcome and thank each of our 
distinguished witnesses for appearing before the Subcommittee to 
discuss this important issue with us.
    Our responsibility as Members of this Committee requires us to 
conduct vigorous oversight, and to regularly assess the direction and 
management of the Department of Homeland Security. Is the Department 
making acceptable progress toward integration of its operations? Is the 
Department optimally structured to achieve its core missions of 
preventing terrorism, protecting against terrorism, and being prepared 
to respond to acts of terrorism? This Subcommittee will take the lead 
in examining these issues. I look forward to working with Chairman 
Rogers, Ranking Member Meek, and the other Members of this Subcommittee 
as we explore such questions.
    We created the Department of Homeland Security with the express 
purpose of enhancing the Nation's ability to prevent and to deal with 
terrorist acts. It was that over-arching purpose that drove our 
decision to consolidate existing Federal agencies that drove our 
decisions to consolidate existing Federal agencies into a single new 
Department. The main organizational task for the Department now is to 
realign the missions of those legacy agencies to more directly support 
our national homeland security efforts.
    Today we're investigating whether the Immigration and 
Naturalization Service and the U.S. Customs Service-both of which were 
transferred to DHS-have been reorganized in a way that is optimal in 
order to improve our immigration security efforts. The good news is 
that these immigration control agencies are now within the same 
Department. And they have a clear and critical new mission-to prevent 
foreign terrorists and their weapons from entering the United States 
and to prevent terrorists from having free reign within our country.
    Abolishing the INS and moving its functions into this new 
department was meant to correct the fundamental problems that existed 
within the INS itself. The old INS had multiple and sometimes 
conflicting roles--as provider of immigration services, and enforcer of 
immigration laws. The Homeland Security Act abolished the INS and split 
immigration services from immigration enforcement.
    But the Congress did not have the last word on the organization of 
customs and immigration enforcement functions within DHS. Utilizing its 
re-organization authority under the Homeland Security Act, the 
Administration acted in January 2003 to merge the customs and 
immigration border inspection and patrol functions, along with 
agricultural inspections functions, into what is now CBP. In doing so, 
the Administration also created a new entity called ICE, which 
contained the customs and immigration enforcement agencies-whose 
investigate crimes as opposed to inspecting cargo and people crossing 
the border.
    Two years later, questions remain about whether DHS has organized 
itself and is managing its immigration enforcement and border security 
resources in the most efficient, sensible, and effective manner. 
Anecdotal evidence suggests that the division of customs and 
immigration inspectors from their related investigative colleagues may 
be building administrative walls, and hampering cooperation and 
information sharing, between ICE and CBP in critical mission areas. 
Some observers also have suggested that the distinction between the 
'interior enforcement' activities of ICE and the 'border security' 
functions of CBP are artificial constructs that contribute to needless 
administrative overlaps, programmatic turf battles, mission gaps, and 
sometimes dangerous operational conflicts. In addition, it appears that 
at least some of ICE's very troubling budget shortfalls over the last 
two fiscal years have been attributable to erroneous budget allocations 
that occurred upon the division of CBP and ICE into two discrete 
components of the Border and Transportation Security Directorate.
    In light of these concerns, we must ask ourselves whether the 
organizational structure currently in place is contributing to these 
problems, and whether a merger or reallocation of responsibility may 
help to resolve them. Ultimately, our goal is to see that immigration 
enforcement and border inspection activities operate within an 
organizational structure that provides for strong policy guidance and 
coordination, fair and efficient allocation of funding, and clearly 
defined and seamless operational roles. It also is critical that we 
fully fund the authorized levels of both Border Patrol and immigration 
enforcement agents.
    As the Committee moves toward the development of comprehensive 
reauthorization legislation for the Department, I anticipate that our 
findings in this hearing and others to follow, will play an important 
role in determining the path ahead. I look forward to an honest 
exchange of ideas on this issue, as we explore the best way to protect 
this Nation from those who would do us harm.
    Thank you, Mr. Chairman, and I yield back the balance of my time.

    Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. Thank you, and thank you for you comments.
    I would remind the other Members that they can provide 
opening statements for the record. When we have smaller panels, 
I will work with the Ranking Member to arrange for other 
members to give 1--or 2-minute opening statements, but today we 
have a very large panel, and we are going to be here for awhile 
just getting through their testimony. So we will refrain today.
    We are pleased to have with us a distinguished panel of 
witnesses before us on this important topic. Let me remind the 
witnesses that their entire written statements will appear in 
the record. Therefore, we ask that, due to the number of 
witnesses on the panel, that you strive to limit your oral 
testimony to 5 minutes.
    Mr. Rogers. At this time, the Chair recognizes Dr. James 
Carafano of The Heritage Foundation to testify.

 STATEMENT OF DR. JAMES CARAFANO, SENIOR RESEARCH FELLOW, THE 
                      HERITAGE FOUNDATION

    Mr. Carafano. Thank you, Mr. Chairman. I am a New Yorker. 
We talk pretty quick. So I can get through this in 5 minutes.
    The Heritage Foundation and the Center for Strategic 
International Studies issued a report called DHS 2.0. One of 
the recommendations was merger of the Customs and Border 
Protection and ICE agencies. This recommendation was made by 
about 30 individuals from academia, think tanks, some people 
from the Hill working together. It is a collaborative 
recommendation.
    The inspiration behind the overall report was simply 
recognition that, in Washington, bureaucracy can be created but 
never destroyed. But it can be reorganized. And when you are in 
a long-term conflict, you need organizations that are built and 
structured to be there for the long term.
    We took an object lesson from the creation of what became 
the Department of Defense in 1947, which had fundamental flaws 
which everyone recognized when the Department was created. Some 
of those were fixed in 1949 that actually enabled a secretariat 
that could actually have the capability to run the services 
underneath them. Some of them didn't get fixed until the 
Goldwater-Nichols Act of 1986, a mere 3 years before the end of 
the Cold War, almost 40 years.
    We think we can do a lot better. We think that the war on 
terrorism is going to be a long, protracted conflict; and so we 
need an organization that is structured for the long term and 
that fixing the things that will make it more efficient and 
effective are better done now regardless of the short-term pain 
because in the end it will make us all safer in the long term.
    Specifically on the CBP/ICE recommendation, the genesis of 
the recommendation was really two points. One is that, in doing 
the literature search and in interviewing individuals who had 
been involved in putting together the Homeland Security Act of 
2002, we simply could find no compelling argument for splitting 
the organizations to begin with.
    If you look, for example, in the Hart-Rudman Commission 
which made a recommendation about creating a Department of 
Homeland Security before 9/11, there is absolutely no 
discussion at all about a necessity to split internal 
enforcement or investigation from border security.
    The second thing is, in looking at the operation of the 
Department and recognizing all the problems of the 
reorganization and getting started and everything else, we 
simply couldn't determine any substantive benefit that had been 
made from splitting the Department, nor could we determine any 
substantive potential benefit of having them remain separate.
    But there is an argument that the Department has gone 
through an enormous amount of reorganization and turmoil, and 
there is a question there, is there pain in further 
organization. So I think it is worthwhile to ask the question, 
is the pain worth the gain and is the gain substantial enough 
to overcome the short-term problems of further disruption?
    So I would offer up three criteria that we should use to 
measure whether this is a good idea or not, and I would just 
like to run through those very briefly.
    The first one is, will it improve the overall management of 
the Department, which we think is the absolutely most crucially 
important thing. The only notion or the only idea worth 
creating this Department was that we were going to gain the 
benefits of integrating the activities of 22 agencies.
    One of the most compelling findings of our report is that 
the way we structured the four under secretary positions 
doesn't help that. What we have done is created four 
stovepipes, rather than using the under secretary positions for 
doing the cross-cutting integration of Department activities. 
We would much prefer restructuring the Department to have the 
under secretary positions be responsible for activities that 
integrate across the Department, rather than trying to command 
separate agencies. So, therefore, we would argue that the BTS 
under secretary would be better served doing something else and 
that we had a single border services agency.
    The second criteria that we would use to measure whether 
this is a good idea or not is will this create strong 
operational agencies? We think that the right model for this 
Department is to split activities between operating agencies 
and support activities. The operational agencies are 
responsible for going out and catching and stopping terrorists 
and doing the other statutory requirements of the Department, 
and then there are support activities that are responsible for 
supporting the Department overall and integrating them. We 
think when you separate that you have stronger core 
competencies and a more focused department.
    So one of the other recommendations we made in our report 
was to create the deputy as a chief operating officer and have 
the agencies report directly to him and just have strong 
operating agencies. If we want to do that, we have got to 
reduce the number of operating agencies in the Department to 
something that is manageable, that the deputy can actually 
handle; and right now there are too many operating agencies in 
the Department. So consolidating CBP and ICE would give the 
deputy, I think, a reasonable span of control.
    The third and I really think the most important criteria is 
what we call ``envision the future.'' One of the problems we 
had in debating the CBP and ICE merger is nobody could really 
articulate for us how we want to address the problem in 5 to 10 
years of--from the point of origin overseas of a bad thing or a 
bad person, through the border, to internal enforcement. How do 
you address that end-to-end problem? How do you decide where 
you get your biggest bang for the buck? Where do you want to be 
5 or 10 years from now in terms of securing the United States? 
And, lacking that, it was actually kind of difficult to answer 
these organizational questions.
    We said, if somebody can sit down and articulate to us, 
describe for me a vision of how you want to do border security 
in 5 or 10 years, then we could articulate for you the right 
organization to do that.
    I think that the only solutions are comprehensive solutions 
that really provide as much as possible the integration of 
activities from the point of foreign origin through internal 
enforcement. So I think what you really want is an operational 
agency with as broad jurisdiction as possible. So, for example, 
I would argue not only for the integration of CBP and ICE, for 
also for all the visa issuance and monitoring activities into 
one single agency. Because in law enforcement, law enforcement 
doesn't have separate jurisdictions because they like it, they 
have separate jurisdictions because they don't have any other 
choice. In a perfect world, they would have as broad as 
jurisdictions as they possibly could to do that activity.
    Then, finally, my last point is, is where do we go from 
here? And we argued for really a three-step process. Actually, 
we argued for something different, because we didn't have any 
confidence in the Congress in creating permanent Homeland 
Security committees, and then we were proved absolutely wrong. 
But now that we have permanent committees and we have a good 
partner with DHS to work on these problems, we would recommend 
a three-step process.
    Step one would be to fix management first, to key on the 
most critical management activities in DHS that can make it a 
more effective integrated Department. I think this primarily 
relates to integration at the under secretary level. And the 
Congress and DHS Secretary, fix those first, get the management 
issues the best. We think that eliminating the BTS under 
secretary would be part of that.
    The second one is we think there is a need for something 
equivalent to the QDR in DHS, a quadrennial security review in 
which the Department every 4 years sits down and maps out its 
resources, its requirements, its strategy, and provides a 
comprehensive assessment to the Congress of where it wants to 
go. Then we would see that QSR being done in the near term in 
DHS, and that that would then serve as a basis for further 
integration of the Department.
    Then the last thing we recommended was a one-time national 
security review, kind of an independent assessment to the 
Congress of the work of the QSR and, quite frankly, we think 
the work of the QDR as well to really say, does all this come 
together into one coherent package? And to really give the 
Congress something to chew on in looking at a way ahead in the 
future.
    With that, I look forward to your questions.
    Mr. Rogers. Thank you.
    [The statement of Mr. Carafano follows:]

 Prepared Statement of Dr. James Jay Carafano, Senior Research Fellow, 
                        The Heritage Foundation

    Mr. Chairman, I am honored to testify before the committee 
today.\1\ Thank you for the opportunity to discuss the proposal to 
merge the Department of Homeland Security's (DHS) Customs and Border 
Protection (CBP) and Immigration-Customs Enforcement (ICE) agencies. 
This was one of the key recommendations of the task force chaired by 
myself, on behalf of The Heritage Foundation, and David Heyman of The 
Center for Strategic and International Studies. The task force's 
report, DHS 2.0: Rethinking the Department of Homeland Security,\2\ 
evaluated the department's capacity to fulfill its mandate as set out 
in the Homeland Security Act of 2002.
---------------------------------------------------------------------------
    \1\ The Heritage Foundation is a public policy, research, and 
educational organization operating under Section 501(C)(3). It is 
privately supported, and receives no funds from any government at any 
level, nor does it perform any government or other contract work. The 
Heritage Foundation is the most broadly supported think tank in the 
United States. During 2003, it had more than 200,000 individual, 
foundation, and corporate supporters representing every state in the 
United States. Its 2003 income came from the following sources:

    Individuals--52%
    Foundations--19%
    Corporations--8%
    Investment Income--18%
    Publication Sales and Other--3%

    The top five corporate givers provided The Heritage Foundation with 
5 percent of its 2003 income. The Heritage Foundation's books are 
audited annually by the national accounting firm of Deloitte & Touche. 
A list of major donors is available from The Heritage Foundation upon 
request. Members of The Heritage Foundation staff testify as 
individuals discussing their own independent research. The views 
expressed are their own, and do not reflect an institutional position 
for The Heritage Foundation or its board of trustees.
    \2\ The task force co-chairmen and participants would like to 
acknowledge the helpful support provided by the Center for the Study of 
the Presidency and the use of its online Homeland Security Database and 
Information Exchange Site, which facilitated the task force's 
deliberations. The site is located at http://www.thepresidency.org/
hsdatabase.htm.
---------------------------------------------------------------------------
    In my testimony, I will address, 1) the report's proposal for 
merging CBP and ICE and how it was developed, 2) standards that could 
be used to evaluate the recommendation, and 3) possible next steps for 
the department and Congress.
    Before I discuss the recommendation to create a single border 
services agency, I would like to share with the committee our rationale 
for undertaking this study and why the task force feels it is 
imperative this issue receive prompt attention from Congress and the 
department's new leadership.
    We have learned much since 9/11. Americans have had time to dwell 
on the challenges of protecting the nation against foreign threats in 
the 21st century and to think about the kinds of institutions we need 
to address these dangers in the decades ahead. In particular, it is 
time to reconsider the role of the newly established Department of 
Homeland Security in this effort. Experience reminds us that it takes 
only a few years for bureaucracies to become entrenched. After that 
they are impossible to change. The creation of the Department of 
Defense is a case in point. During the debates over the 1947 National 
Security Act and again as president, Eisenhower lobbied for 
reorganizing the Pentagon to ensure the armed forces would work closely 
together. He failed to overcome the political opposition and the 
service parochialisms that blocked reforms. As a result, fundamental 
problems in joint operations went unaddressed until 1986 and the 
passage of the Goldwater-Nichols Act.\3\ The lesson is clear. Fix them 
at the beginning or live with the mistakes for a long time.
---------------------------------------------------------------------------
    \3\ James R. Locher III, Victory on the Potomac: The Goldwater-
Nichols Act Unifies the Pentagon (College Station: Texas A&M University 
Press, 2002), pp. 25-31.

The Recommendation to Merge CBP and ICE
    The proposal to consolidate CBP and ICE was developed by a task 
force with members from academia, research centers, the private sector, 
and Congress and chaired by homeland security experts at The Heritage 
Foundation and The Center for Strategic and International Studies. The 
task force examined the effectiveness of the new department in four 
areas: management, roles and missions, authorities, and resources.
    Based on analysis, conducted through seminars, an extensive 
literature search, and interviews, the task force developed 40 major 
recommendations for improving the oversight, organization, and 
operation of DHS. The findings and recommendations of the task force 
can be found on The Heritage Foundation's web site at http://
www.heritage.org/Research/HomelandDefense/sr02.cfm.
    Specifically regarding challenges related to border security the 
task force observed that before the creation of DHS, seven agencies, 
among others, were involved in securing our borders, enforcing our 
immigration laws, and protecting our transportation system. They were: 
(1) U.S. Customs; (2) the Immigration and Naturalization Service (INS); 
(3) the Executive Office of Immigration Review (EOIR); (4) the Bureau 
of Consular Affairs; (5) the U.S. Coast Guard; (6) the Transportation 
Security Administration (TSA); and (7) the Animal, Plant, Health 
Inspection Service (APHIS). Agency missions overlapped. It was 
difficult to resolve operational or policy conflict without resorting 
to a cumbersome, inefficient, and ineffective interagency process.
    The creation of the DHS was supposed to consolidate agencies with 
overlapping missions and to better integrate the national border 
security effort. And it has succeeded to some degree. The INS has been 
abolished. Immigration border inspectors and Border Patrol Agents have 
been merged with most of U.S. Customs and the border inspectors of 
APHIS to create CBP. Customs and Immigration Investigators and 
Detention and Removal Officers were combined into a new organization, 
ICE, responsible for ``internal enforcement.'' The two agencies were 
assigned to a Border and Transportation Security (BTS) directorate 
under the Undersecretary for Border and Transportation Security.
    In ``consolidating'' responsibility for border, immigration, and 
transportation security, DHS actually increased the number of involved 
agencies to eight and created more problems that now need solving. In 
addition, it has failed to clearly delineate the agencies' missions 
within DHS that also have border, immigration, or transportation 
security responsibilities.
    Additionally, the task force concluded that the split of 
responsibilities between CBP and ICE was done without a compelling 
reason. The task force was not able to find any convincing argument 
that there were unsolvable problems in the legacy agencies of having 
border agents and internal enforcement investigators working in the 
same organization. Indeed, in various interviews, not one person was 
able to coherently argue why CBP and ICE were created as separate 
operational agencies. In addition, the Hart-Rudman Commission, which 
recommended creating a national homeland security agency before the 9/
11 attacks, saw no need to split border and internal enforcement 
authority.\4\ Some have analogized the separation to deciding to break 
up the New York Police Department into two separate agencies--one 
housing the uniformed ``beat cops'' (analogous to CBP's uniformed 
officers), and the other housing the detectives (analogous to ICE's 
plain-clothes investigators).
---------------------------------------------------------------------------
    \4\ The United States Commission on National Security/21st Century, 
``Road Map for National Security: Imperative for Change,'' (February 
15, 2001), p. 12, www.au.af.mil/au/awc/awcgate/nssg/phaseIIIfr.pdf.
---------------------------------------------------------------------------
    The reorganization exchanged one seam in U.S. security for another. 
Before the creation of DHS, ``people'' and ``things'' entering the 
country were handled under separate systems. There were no common 
policies, programs, or standards. Dealing with dangers that involved 
both required coordination between two different agencies. Today, 
travelers and goods are handled by an integrated system, but border 
operations and interior enforcement are now bifurcated into two 
different organizations creating a new requirement for interagency 
coordination.
    Complicating the border security picture is the mission of TSA. 
While most Americans associate TSA with ground screeners at airports, 
the Aviation and Transportation Security Act creating TSA also charges 
TSA with responsibility ``for security in all modes of 
transportation,'' including ensuring the ``adequacy of security 
measures for the transportation of cargo.'' This has injected TSA into 
the realm of border security, and created friction with other DHS 
agencies historically in charge of securing the movement of cargo into 
the United States--CBP and Coast Guard. In addition, BTS has not been 
particularly effective in clearly delineating the relative 
responsibilities of CBP and TSA.
    Another complicating factor is that under the Homeland Security 
Act, responsibility for ensuring that terrorists do not obtain visas to 
enter the United States is shared between DHS and the State 
Department's (DOS') Bureau of Consular Affairs. Integration of their 
activities and supporting intelligence services represents a 
significant interagency challenge.\5\ For example, the process for 
negotiating a Memorandum of Understanding between DOS and DHS 
delineating their respective responsibilities took over a year.
---------------------------------------------------------------------------
    \5\ James Jay Carafano and Ha Nguyen, ``Better Intelligence Sharing 
for Visa Issuance and Monitoring: An Imperative for Homeland 
Security,'' October 27, 2003 (Backgrounder #1699), www.heritage.org/
Research/HomelandDefense/BG1699.cfm.
---------------------------------------------------------------------------
    DHS 2.0 proposed rationalizing border security and immigration 
enforcement by merging CBP and ICE and eliminating BTS. The directorate 
has neither the staff nor infrastructure to integrate the operations of 
CBP and ICE on a consistent basis. Nor does it have a policy operation 
with sufficient influence with the secretariat to resolve interagency 
conflicts. Merging CBP and ICE into a single border services agency 
will bring together all of the tools of effective border and 
immigration enforcement--Inspectors, Border Patrol Agents, Special 
Agents, Detention and Removal Officers, and Intelligence Analysts--and 
realize the objective of creating a single border services agency.
    With the merger of CBP and ICE into a single agency, there is no 
need for the BTS ``middle management'' layer. All operational agencies 
should have a direct reporting relationship to the Secretary via the 
Deputy. This will allow for a better, DHS-wide (including the Coast 
Guard) policy and operational strategic approach to border security 
matters.
    Additionally, splitting responsibility for visa issuance and 
management between DHS and DOS was a mistake. Operations could be 
managed more efficiently under one department and would place 
responsibility and accountability in one place. The choice is 
difficult. Arguably DOS is better positioned to consider the 
diplomatic, economic, and cultural issues at stake in issuing visas. On 
the other hand, if DHS were responsible it could seamlessly integrate 
visa management into a merged border services agency, thus overseeing 
the movement of people and goods from the foreign point of origin to 
the interior of the United States. Any consideration of a CBP/ICE 
merger should also rethink the management of activities for visa 
issuance and monitoring.

All the Right Moves?
    Perhaps the most valid criticism of the DHS 2.0 proposal to create 
a single border services agency is that it would heap more turmoil on 
organizations that have already seen substantial disruption. In short, 
critics argue the pain of further change is not worth the gain. Three 
measures could serve as a guide for determining whether further 
reorganization is warranted. Any proposed changes should:

        <bullet> Improve overall management of the department as a 
        first priority;
        <bullet> Divide department activities between operational 
        responsibilities and support functions under different chains 
        of command.
        <bullet> Implement a future vision of the department.

    The proposal to create a single border services agency should be 
judged against these standards. I would like to address each in turn.

Focusing on Management
    In a recent report the DHS Inspector General identified department-
wide management as a significant issue of concern. ``Integrating its 
many separate components into a single, effective, efficient, and 
economical department,'' the IG wrote, ``remains one of DHS'' biggest 
challenges.'' \6\ The weaknesses in DHS management are critical because 
they cut against the core rationale for passing the Homeland Security 
Act: gaining the synergy of having most of the key federal agencies 
with homeland security responsibilities grouped in one department.
---------------------------------------------------------------------------
    \6\ Office of the Inspector General, ``Major Management Challenges 
Facing the Department of Homeland Security,'' Department of Homeland 
Security, December 2004, p. 1.
---------------------------------------------------------------------------
    The creation of a single border services agency should only be 
undertaken if it will help address the most significant management 
challenges of DHS.
    The task force concluded that merging CBP and ICE provides an 
opportunity to substantially strengthen the DHS secretariat. Currently, 
the undersecretary positions in DHS are used to command subordinate 
agencies, rather than contributing to the cross-cutting integration of 
department activities and strengthening coordination with other federal 
agencies, state and local governments, the private sector, and foreign 
governments. Merging CBP and ICE into a single agency would eliminate 
the need for a BTS Undersecretary and allow the department to use that 
position to enhance the capacity of the secretariat to provide stronger 
leadership for the department overall.
    DHS 2.0 proposed to have the new border services agency report 
directly to the Deputy Secretary, who would act as the department's 
chief operating office (COO), as well assume the responsibilities of 
the Undersecretary for Management. This change would address one of the 
key concerns expressed in the DHS IG report on the major management 
challenges of the department--confusing and duplicative reporting 
chains. Currently, DHS employs a concept called ``dual 
accountability,'' where agency staff are asked to report both through 
their undersecretaries and chief officers in the secretariat.\7\ This 
dual reporting system has proven contentious and inefficient. 
Eliminating the ``middle management'' over operating agencies will 
create a single chain of command and allow the deputy to more 
effectively direct financial, information management, acquisition, and 
personnel initiatives that cut across the DHS.
---------------------------------------------------------------------------
    \7\ Office of the Inspector General, ``Major Management 
Challenges,'' p. 2.
---------------------------------------------------------------------------
    Consolidation is also important for making the deputy's duties 
manageable. If the deputy is to serve as an effective COO, his span of 
control needs to be reasonable. This would require consolidation of 
existing organizations within the DHS. The merger of ICE and CBP help 
reduce the scope of COO responsibilities.
    The need for a BTS directorate over ICE and CBP, can also be 
eliminated by moving oversight functions, such as policy, planning, and 
stakeholder outreach, into the secretariat where they more properly 
belong. To address this, our report also called for reconfiguring two 
undersecretary positions. First, DHS 2.0 proposed an Undersecretary for 
Policy and Planning, which would include an Assistant Secretary for 
International Affairs. Second, the report recommended eliminating the 
Undersecretary for Emergency Preparedness & Response (EP&R) and 
replacing this position with an Undersecretary for Protection and 
Preparedness who would oversee critical infrastructure protection, 
preparedness, and state and local governments/private sector 
coordination efforts. This would consolidate the following agencies: 
the Infrastructure Protection component of the Information Analysis and 
Infrastructure Protection Directorate; Office of State and Local 
Government Coordination and Preparedness (OSLGCP); the non-operational 
transportation infrastructure protection mission of TSA, the 
``preparedness'' piece of the EP&R Directorate; the Office of Private 
Sector Liaison, and; grant making authority for DHS.
    One consideration for the Congress and the department's new 
leadership is the potential of using the creation of a single border 
services agency as a catalyst for overall reforms in the department, 
improvements that would enhance the capacity of the secretariat to 
integrate and coordinate activities across DHS.

Operating Responsibilities and Support Functions
    A second measure that should be used to judge the value of creating 
a single agency is whether this initiative would sharpen the 
operational effectiveness of the department. Dividing functional 
responsibilities in the department between ``operational'' agencies and 
``support'' organizations is a sound management principle because it 
focuses agencies on critical missions. It also helps to develop strong 
institutional cultures. The Defense Department explicitly follows this 
model. Combatant commanders are charged with ``running the war.'' The 
services are responsible for ``raising, training, preparing, and 
sustaining'' the force. It is a model that works well because it 
encourages organizations to focus on their core competencies. A DHS 
analogy would be to establish robust operational agencies that 
concentrate on stopping terrorists and conducting the department's 
other statutory missions apart from the staffs and directorates 
responsible for conducting planning, coordination, policymaking, 
budgeting, and support activities for the department as a whole.
    A single border services organization responsible for visa issuance 
and monitoring, managing points of entry, patrolling the borders, and 
interior enforcement should only be established if it will create a 
stronger and more effective operating agency.
    In recent hearings before the Senate Homeland Security and 
Government Affairs Committee, Michael Wermuth, director of Homeland 
Security at RAND, was skeptical of the proposal to merge CBP and ICE 
concluding that ``a good argument can be made that the skills required 
for the performance of those separate tasks require different 
recruiting, retention, training performance evaluation, operational 
procedures, and other related activities.''\8\ Indeed, both agencies 
are currently struggling with the challenge of cross-training skills 
and building a common culture among agency personnel. Wermuth argued 
for a comprehensive assessment to determine whether a single 
organization could appropriately manage the plethora of skills and 
activities involved in overseeing the movement of goods, people, and 
services across America's borders.
---------------------------------------------------------------------------
    \8\ Michael A. Wermuth, Testimony before the Senate Homeland 
Security and Government Affairs Committee, January 26, 2005, p. 5, 
hsgac.senate.gov/--files/WermuthCT233.pdf.
---------------------------------------------------------------------------
    Concerns over the capacity of an integrated agency to train, 
manage, and retain personnel are worthwhile considerations. These, 
however, are not issues of organizational design, but challenges for 
human capital and information technology programs. Indeed, creating a 
single operating agency might enhance prospects for establishing more 
robust personnel programs, offering a wider range of career progression 
and professional development options, opportunities for both cross-
training and specialization, and an increased capacity to shift and 
surge resources. In addition, creating a single agency may offer 
advantages for integrating and consolidating information technology 
programs. Any consideration to merge CBP and ICE must be made in tandem 
with discussions over the scope and structure of the human capital and 
information technology initiatives that will be instituted to support 
consolidating the agencies.\9\
---------------------------------------------------------------------------
    \9\ James Jay Carafano, ``The Homeland Security Authorization Bill: 
Streamlining the Budget Process'' April 15, 2004 (Executive Memorandum 
#923), www.heritage.org/Research/HomelandDefense/em923.cfm. For 
example, one area where consolidation may contribute to improving 
operational performance is in the implementation of Chimera. The 
Enhanced Border Security and Visa Entry Reform Act of 2002 requires the 
integration of all data systems related to visa issuance and monitoring 
into Chimera, an interoperable, interagency computer-based data 
management system. The law assigns the DHS primary responsibility for 
developing an overarching information architecture to share immigration 
and intelligence data and calls for creating an eight-member commission 
to oversee Chimera. To date, little progress has been made in 
implementing the system.

Envisioning the Future
    A third way to evaluate the benefit of further organizational 
innovation is to measure how change will contribute to the long-term 
development of the department. One hotly debated issue relates to the 
division of roles and missions within the department. The creation of 
DHS was supposed to consolidate agencies with overlapping and 
complementary missions. Since its formation, DHS has made some positive 
efforts to group the right activities under the right organization. 
Moving the Office of Air and Maritime Interdiction under CBP and 
shifting the Federal Marshal Service to ICE are cases in point. 
However, a broader assessment needs to be made across the department. 
There is reluctance to undertake such a review based on the argument 
that the organizations have not yet absorbed all the change heaped upon 
them. Such thinking is shortsighted. The war against terrorism will be 
a protracted conflict and DHS needs to be structured and resourced for 
a long campaign.
    DHS needs to be organized not to accommodate the present, but to 
build toward the ideal organization of the future. Therefore, the 
department needs to articulate how it envisions conducting its missions 
five to ten years from now and let this vision drive the organizational 
design, particularly the structure of border security operations.
    The department's current organization reflects an outdated vision 
of how to protect America's borders. Visa issuance, border security, 
and internal enforcement are divided into three separate agencies, 
suggesting that threats and countermeasures can be neatly segmented in 
discrete activities. There are, however, no frontiers in 21st century 
national security, nor are all border security issues best handled at 
the border. Protecting the United States against terrorist threats and 
significantly reducing transnational crime (e.g. drug, arms, and human 
trafficking) and environmental dangers (such as contagious diseases and 
invasive species), as well as illegal entry and unlawful presence in 
the United States requires activities that address these challenges 
from the point of foreign origin through transiting the border, and 
within U.S. territory. Distinguishing clear lines of responsibility 
between foreign, border, and domestic security is a thing of the past. 
Nor can responsibilities for security, promoting economic growth, and 
protecting the liberties of American citizens (as well as visitors and 
international business partners) be considered in isolation.
    DHS' future vision must not only speak to how to integrate 
activities, but how to establish priorities and make trade-offs, 
focusing investments on where the nation can get the biggest ``bang'' 
for its security ``buck.'' At least three major issues should be 
addressed.
    First, the vision must make hard choices in deciding between 
investments in monitoring legal means of trade and travel and combating 
illegal entry into the United States. Improving the monitoring of legal 
means to enter the country, including improving physical infrastructure 
at points of entry and promoting programs like US-VISIT \10\ and the 
Smart Borders Initiative,\11\ should have the highest priority. Most 
goods, services, and people enter and exit the United States through 
legitimate networks. These networks are the lifeline of the U.S. 
economy and must be appropriately managed and protected. Likewise, 
virtually all known terrorists who have entered the United States came 
in through legal channels.\12\ In addition, as the United States 
improves its capacity to reduce entry into the country at places other 
than legal points of entry, illicit activities attempting to penetrate 
legal networks of trade and travel will likely increase. Effective 
border services must already be in place to meet this challenge, if the 
United States hopes to improve its overall security.
---------------------------------------------------------------------------
    \10\ The purpose of the United States Visitor and Immigrant Status 
Indicator Technology (US-VISIT) program is to establish a system that 
can collect, maintain, and share biometric and biographic data on 
foreign nationals for border and immigration enforcement. The goal of 
the system is to screen all foreign nationals from non-visa-waiver 
countries entering and exiting the United States. See James Jay 
Carafano, ``The Homeland Security Budget Request for FY 2005: 
Assessments and Proposals,'' Backgrounder #1731 March 5, 2004, 
www.heritage.org/Research/NationalSecurity/bg1731.cfm.
    \11\ The National Strategy for Homeland Security calls for the 
employment of technologies to establish ``smart borders'' that promote 
the efficient flow of people, goods, and conveyances while providing 
greater security. Office of the President, ``The National Strategy for 
Homeland,'' (July 2002), p. 22, www.whitehouse.gov/homeland/book/nat--
strat--hls.pdf. In December 2001, the ``United States and Canada agreed 
on a Smart Border Declaration and a 30 point action plan to implement 
smart borders. Office of the Press Secretary, ``US-Canada Smart Border/ 
30 Point Action Plan Update,'' (December 6, 2002), www.whitehouse.gov/
news/releases/2002/12/20021206-1.html. See also, Andre Belelieu, 
``Canada Alert: The Smart Border Process at Two: Losing Momentum'' 
Hemisphere Focus, Center for Strategic and International Studies, XI/31 
(December 10, 2003), pp. 1-8, www.csis.org/americas/pubs/hf--v11--
31.pdf.
    \12\ Carafano and Nguyen, ``Better Intelligence Sharing for Visa 
Issuance and Monitoring: An Imperative for Homeland Security.''
---------------------------------------------------------------------------
    Second, strategic choices need to be made on how to best affect the 
flow of illegal entry and unlawful presence in the United States, as 
well as transnational criminal activities and environmental threats. 
Too often the assumption is made that the best place to reduce illegal 
and illicit activity is by interdicting it at the border. In practice, 
internal enforcement policies and programs, followed by working with 
point of origin and transit countries, probably offer a greater return 
on investment. In the long term, for example, initiatives such as 
effective workplace enforcement (which discourages the employment of 
individuals who are unlawfully present in the United States), domestic 
counterterrorism investigations (including means to track down criminal 
aliens),\13\ and the Millennium Challenge Account \14\ (which promotes 
policies that advance economic growth, sound governance, and the rule 
of law in foreign countries) will have a greater impact on illegal 
entry and unlawful presence than hiring additional border guards.
---------------------------------------------------------------------------
    \13\ For example, terrorist investigations involving immigration 
violations are an area in which much could be done immediately to 
improve the role of state and local law enforcement. Domestic 
counterterrorism comprises law enforcement efforts primarily by the 
Federal Bureau of Investigation and ICE to identify, prevent, and 
prosecute terrorists. One improvement would be to form cooperative 
partnerships among federal, state, and local law enforcement agencies 
for immigration investigations related to terrorism. While using state 
and local law enforcement officers to enforce federal immigration laws 
has been controversial, such programs may be appropriate for some 
states and localities. In June 2002, the INS and the State of Florida 
created a pilot program that could serve as a model for enhanced and 
appropriate cooperation. The program trained selected state and local 
law officers to assist in domestic counterterrorism immigration 
investigations. The Florida officers were required to be members of the 
state counterterrorism task force and could engage in these activities 
only when taking part in counterterrorism operations supervised by the 
federal INS officers. When the INS became part of the DHS, the 
program's memorandum of understanding was renewed. The Florida pilot 
program represents an ideal model for the limited and appropriate use 
of state and local support in expanding the DHS' investigatory 
capacity. Congress should provide sufficient resources to allow the DHS 
to offer similar programs to other states and U.S. territories. See, 
James Jay Carafano, Paul Rosenzweig, and Alane Kochems, ``An Agenda for 
Increasing State and Local Government Efforts to Combat Terrorism,'' 
February 24, 2005 (Backgrounder #1826).
    \14\ In March 2002, President George W. Bush proposed the creation 
of the Millennium Challenge Account (MCA), a new foreign assistance 
program to low-income countries that demonstrate a strong commitment to 
``ruling justly,'' ``investing in people,'' and ``establishing economic 
freedom.'' Ana I. Eiras, ``Make the Rule of Law a Necessary Condition 
for the Millennium Challenge Account,'' March 7, 2003 (Backgrounder 
#1634), www.heritage.org/Research/TradeandForeignAid/BG1634.cfm.
---------------------------------------------------------------------------
    Third, addressing the challenge of illegal entry between the points 
of entry cannot be ignored, but clear priorities have to be 
established. Investments must be made in resources that create a 
system-of-systems approach to security. Rather than trying to control 
the entire border, the United States needs a system that direct the 
right capabilities to the right place at the right time to provide an 
appropriate response. Key investments include a combination of high 
speed and armed airborne assets and robust airborne sensor 
capabilities. These assets need to be linked to an intelligence and 
early warning network that provides knowledge of activities in the 
maritime domain and along the border, as well as to means to 
effectively analyze and share that knowledge. Modernizing CBP's air and 
marine interdiction capabilities in concert with increasing funding for 
the Coast Guard's Integrated Deepwater acquisition program, for 
example, ought to take precedence.\15\
---------------------------------------------------------------------------
    \15\ Robin F. Laird, et al, ``The Challenges to Developing a 
Effective Maritime Security Architecture,'' in James Jay Carafano and 
Alane Kochems, eds., Making the Seas Safer, Heritage Special Report No. 
3, (February 17, 2005), pp. 20-27, www.heritage.org/Research/
HomelandDefense/loader.cfm?url=/commonspot/security/
getfile.cfm&PageID=74871.
---------------------------------------------------------------------------
    To address these three issues, DHS must conduct a national 
assessment to determine the system-of-systems it requires. Any system 
will need to include all the ``layers of security'' that impact on 
securing the border. Congress and the administration should use this 
analysis to determine where their efforts should be directed and 
whether creating a single border services agency with jurisdiction over 
all activities related to the transiting of U.S. borders would improve 
the department's allocation of assets and effectiveness.

Next Steps
    DHS 2.0 called for the President and Congress to establish a non-
partisan commission to review the performance of the department and 
assess its capacity to fulfill the missions outlined in the Homeland 
Security Act and report back within six months. Without permanent 
oversight committees in the Senate and House, the task force felt 
Congress would be unable to effectively address the challenge of 
restructuring the DHS. Things have changed. The task force applauds the 
action taken in both chambers to create permanent committees. With 
Congressional oversight of the department's management now consolidated 
in appropriate committees, Congress could consider alternative paths 
for moving forward. One would have Congress legislate key management 
reforms and establish a routine authorization process. Then, Congress, 
jointly with the leadership of DHS, can address reorganization issues, 
such as merging CBP and ICE, in a more deliberative manner through a 
combination of reviews conduct by DHS and an independent panel 
answering to the Congress.\16\ This strategy might proceed as follows.
---------------------------------------------------------------------------
    \16\ James Jay Carafano, Baker Spring, and Jack Spencer ``National 
Security Requires a National Perspective--and Congressional Action,'' 
February 17, 2005 (Executive Memorandum #959), www.heritage.org/
Research/NationalSecurity/em959.cfm.

    Step #1: Legislate Undersecretaries for Policy and Protection and 
Preparedness and abolish the Undersecretaries for Emergency 
Preparedness and Response and Management. Establish Chief Operating 
---------------------------------------------------------------------------
Officer functions under the Deputy Secretary.

    Step #2: Implement an authorization process for DHS. An 
authorization bill for the DHS could serve as a critical statutory 
management tool providing the means to exercise stronger oversight of 
important DHS activities such as key personnel programs, performance of 
critical missions, major research programs, and information technology 
investments.

    Step# 3: Establish a requirement for periodic reviews. Congress 
should establish a requirement that DHS conduct quadrennial reviews of 
the department's strategies, force structure, resources, and 
appreciation of the threat. The Quadrennial Homeland Security-Review 
(QHSR) should be timed to coincide with the mid-point of the 
presidential term. The first QHSR should be specifically tasked to 
establish a future security vision. That vision will inform the 
decision over whether to merge CBP and ICE.

    Step #4: Create a one-time National Security Review Panel. In 
parallel with the first QHSR, the Congress should establish a non-
partisan National Security Review Panel (NSRP). The NSRP should be 
charged with providing an independent assessment of the QHSR as well as 
assessing the efforts of the DHS in the context of larger national 
security programs and strategies.
Conclusion
    The creation of the DHS was supposed to consolidate agencies with 
overlapping missions and to better integrate the national border 
security effort. Any proposal, including merging CBP and ICE should be 
evaluated against whether it will improve the overall management of 
DHS, whether it will further delineate department activities between 
operational and support functions with each under a separate chain of 
command, and whether the action implements a future strategic vision of 
the department.
    Once again, thank you, Mr. Chairman and the rest of the Committee 
for holding this hearing and for inviting me to participate. I look 
forward to answering any questions you might have.

    Mr. Rogers. The Chair now recognizes Mr. Klug, who is a 
former Special Agent in Charge of ICE.
    Mr. Klug. Former Associate Special Agent in Charge, but I 
appreciate the promotion. Thank you.
    Mr. Rogers. Thank you.
    Mr. Klug. I am a New Yorker, also, so I will speak quickly.

 STATEMENT OF KENNETH C. KLUG, FORMER SPECIAL AGENT IN CHARGE, 
 U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Klug. Good morning, Mr. Chairman and distinguished 
members of the subcommittee. It is an honor and a privilege to 
appear before you today to present testimony in furtherance of 
reuniting the enforcement and regulatory functions of what were 
the U.S. Customs Service and the Immigration and Naturalization 
Service.
    The majority of my 25-year career was spent with the United 
States Customs Service. The final 2 years was spent with 
Immigration and Customs Enforcement. The majority of my time in 
the last 4 years of my tenure was spent rebuilding the Special 
Agent in Charge New York office which had been destroyed during 
the terrorist attacks of September 11, 2001.
    When the inspectors and special agents were separated into 
Customs and Border Protection, CBP and ICE, their 
collaboration, cooperation, and teamwork immediately began to 
diminish. Since the separation of the two agencies, there has 
been a sharp decline in the traditional Customs/Border-related 
investigations, resulting in a drastic reduction in narcotics, 
illegal merchandise, munitions, and currency seizures.
    The decision to split Customs and Immigration into ICE and 
CBP seriously undermined rather than strengthened the new 
Department's law enforcement's critical mission. The decision 
to separate the two agencies reflects an absence of 
understanding in the matter of processes, relationships, and 
how the border environment and Federal law enforcement 
functions most optimally.
    Inspectors are first to see passengers and merchandise at 
the border crossings. Agents investigate violations emanating 
from cross-border movements. As such, the Nation has a vested 
interest in these two law enforcement forces being united in 
leadership, resources, strategy, method, and communications.
    Instead of streamlining the flow of information vital to 
our national security, the new structure places roadblocks in 
the way. The separation of inspectors and special agents caused 
a gap in the flow of information, detracting from border 
enforcement and port security. The creation of ICE was 
tantamount to building a house without a foundation. The 
administration failed to conduct a comprehensive review in the 
beginning relative to the complexity or feasibility of 
combining these two diverse agencies. No study, cursory or in 
depth, was requested to be produced in anticipation of the 
proposed separation, as far as I understand.
    I am certain that if an independent group such as the 
Government Accountability Office had conducting a study at that 
time, it would have undoubtedly led to an understanding of the 
symbiotic relationship and intermeshed roles of the agents and 
inspectors. Consequently, the separation of CBP and ICE would 
have never occurred.
    Furthermore, I believe that an understanding of the current 
flawed situation inevitably will lead to the conclusion that a 
merger would correct this irrational design that has hampered 
DHS's ability to progress in the arena of border enforcement.
    From the onset, we were told that ICE was created to 
protect the Nation's border foremost against terrorism. We in 
the New York field office that had firsthand witnessed the 
death and destruction on September 11 welcomed the opportunity 
to contribute to this effort. We were anxious to engage in the 
fight and looked forward to our role in this important mission. 
We awaited direction from the agency in the form of a mission 
statement. No such statement was forthcoming, and inexplicably 
to date no succinct mission statement regarding our role in the 
war on terrorism has been issued. Additionally, no specific 
enforcement priorities have been identified.
    Like many of my colleagues, I left the agency rather than 
stay and watch it helplessly while it declined. My 
understanding is that ICE currently has in excess of 800 
vacancies which have been caused by the mass exodus of 
disillusioned employees and a hiring freeze.
    CBP inherited Customs' cutting edge computer technology and 
administrative systems. ICE inherited the INS computer systems 
that were archaic at best. When we advised ICE's new management 
team that the systems were not adequate, they repeatedly told 
us that we didn't understand the systems and they were in fact 
superior. Of course, the contrary was true.
    As Congress has repeatedly stated in the past, the 
Immigration systems provided the user with no ability to track 
the use of funds or live within its allotted budget. Even 
today, the ICE administration systems fail to track the budget, 
procurement, property and travel and fail to support the 
agency. This has been repeatedly evidenced by the continuing 
need to have independent auditors from the private sector 
review the ICE funding levels and anticipated expenditures. 
After 2 years, this agency does not have accountability over 
the funds provided by this committee.
    A merger of ICE and CBP would greatly reduce the 
duplication of effort and costs associated with the current 
separations of information technology systems.
    I have yet to hear one individual within DHS articulate a 
single sound reason for the continued separation of Customs and 
Border Protection and the Immigration and Customs Enforcement. 
One very vague explanation is that CBP will handle border 
enforcement and ICE will be responsible for interior 
enforcement. This reasoning is fatally flawed. Border 
enforcement and interior enforcement cannot be separated. This 
is the same defective logic which created the agency in the 
first place; and, once again, this reasoning displays a 
complete lack of understanding of the agencies' roles and 
jurisdictional responsibilities.
    In a similar fashion to CBP, ICE's jurisdictional 
responsibilities relate to a must-have nexus to the border. 
ICE's jurisdictional responsibilities directly relate to cross-
border movement of people and merchandise. Illegal aliens cross 
our borders. Those involved in immigration fraud cross our 
borders. Narcotics cross our borders. Trademark-restricted 
merchandise crosses our borders. Illicit funds cross our 
borders. Munitions and high technology cross our borders. And 
terrorists cross our borders. ICE is responsible for pursuing 
criminal investigations into all of these critical areas. 
However, we have separated the agencies responsible for 
investigating these important violations, and that undermines 
our national security.
    The situation is analogous to separating the uniformed 
police officers from the detective force. By merging CBP and 
all of the entities involved in border and immigration 
enforcement, responsibilities would be brought together with a 
single mission and chain of command. We will not realize the 
objective of creating a single border enforcement agency until 
special agents, inspectors, border patrol agents, intelligence 
analysts, retention and removal officers are brought together 
under one roof. Under a unified command structure, a single 
border agency would be far more productive.
    There are a myriad of reasons why initial separation of 
these agencies never made sense and a number of additional 
justifications as to why combining CBP and ICE is best for this 
Nation and its war on terrorism. One thing is certain. Whatever 
the decision of Congress is regarding the merging of these two 
agencies, it should be done quickly. Should we continue on the 
current configuration, that would mean maintaining the 
duplicity of tasks, wasting tax dollars, and perpetuating the 
downward slide of its employees and morale. Simply stated, a 
house divided cannot stand.
    Mr. Rogers. Thank you, Mr. Klug.
    [The statement of Mr. Klug follows:]

                 Prepared Statement of Kenneth c. Klug

    Good morning Mr. Chairman and distinguished members of the 
subcommittee. It is an honor and a privilege to appear before you today 
to present testimony in furtherance of reuniting the enforcement and 
regulatory functions of what were the U.S. Customs Service and the 
Immigration and Naturalization Service. The majority of my twenty-five 
year law enforcement career was spent with the U.S. Customs Service. I 
held positions in several field offices on both the regulatory and 
enforcement sides of the Customs Service. I spent the final two years 
of my career with the Immigration and Customs Enforcement (ICE) before 
retiring in July 2004. Most of my efforts during the latter years of 
federal service were focused on rebuilding the Special Agent-in-Charge 
New York office, which had been destroyed as a result of the terrorist 
attacks on September 11th, 2001.
    For over two centuries, the U.S. Customs Service has facilitated 
the flow of our nation's commerce while protecting American's business 
and populous from contraband and more recently terrorist threats. U.S. 
Customs has always been at the forefront of protecting our nation's 
borders. A notable example is when a Customs Inspector in Port Angeles, 
Washington intercepted terrorist Ahmed Ressam who had driven off the 
ferry from Victoria, B.C., destined for Los Angeles airport with 135 
pounds of bomb making ingredients hidden in the trunk of his car. U.S. 
Customs personnel apprehended him after a foot chase through the 
streets of Port Angeles almost certainly averting a major disaster. The 
U.S. Customs Service garnered many similar front page headlines with 
numerous successful investigations and its many innovative impact 
programs.
    Legacy Customs was comprised of two disciplines, the regulatory 
side, which included the uniformed inspectional force that the 
traveling public is familiar with and the investigative function which 
included the offices of Intelligence, Air and Marine units. The two 
sides of the agency shared a symbiotic relationship that led to many 
successful investigations in the enforcement of numerous domestic and 
international laws. When the Inspectors and the Special Agents were 
separated into Customs and Border Protection (CBP) and ICE, their 
collaboration, cooperation and teamwork immediately began to diminish. 
The current ICE administration paints a favorable picture of the 
existing situation. It uses superfluous adjective and adverbs along 
with rhetoric to disguise its current problems. The reality is that ICE 
statistics are embarrassing compared to those numbers produced before 
the merger. Since the combining of the two new agencies there has been 
a sharp decline in the traditional ``Customs'' related investigations 
resulting in a drastic reduction in narcotics, illegal merchandise, 
munitions and currency seizures
    It is the belief of many of my colleagues in the Office of 
Investigations, that the concept of ICE and the subsequent division of 
the Customs Service was fatally flawed from its inception. Frankly, the 
creation of ICE was tantamount to building a house without a 
foundation. Many in the law enforcement community found it quizzical as 
to why all other agencies that were incorporated into DHS, such as 
Secret Service, FEMA, Coast Guard, etc. maintained their identity in 
the transition. The logic behind the concept of ICE became even more 
arcane when the Federal Protective Service (F.P.S.), an agency 
responsible for guarding government buildings, was taken from under the 
General Services Administration and placed within ICE. To date, not a 
single individual I have spoken with in the federal government can 
supply any reason for incorporating F.P.S. into this border protection 
agency. Furthermore, the administration did not conduct a comprehensive 
review or issue a written report relative to the complexity or 
feasibility of combining these diverse agencies. Apparently no study, 
cursory or in depth, was requested or produced in anticipation of the 
proposed separation. I am certain that if a study had been conducted by 
an independent group such as the G.A.O., the separation would have 
never been recommended and consequently not have occurred. Many of my 
coworkers believed then and continue to feel that the proposed division 
of Customs and INS was a result of the lack of specific knowledge on 
the part of those individuals in the administration who proposed it. 
They certainly had to be unaware of the precise missions of the two 
agencies. The months following the creation of ICE proved to 
substantiate that belief. All of our trepidations over the ill 
conceived creation of ICE quickly began to be realized during the first 
few months of the new agency's history.
    From the onset we were told that ICE was created to protect the 
nation's borders, foremost against terrorism. We in the New York field 
office who had witnessed firsthand the death and destruction on 
September 11th, welcomed the opportunity to contribute to this effort. 
We were anxious to engage in the fight and looked forward to our role 
in this important mission. We anticipated ICE's development and 
communication of our new mission. We awaited a statement that clearly 
outlined our long and short-term goals. We believed that 
organizationally, the structure of ICE would be changed to reflect our 
new mission. We looked forward to the publication of objectives in 
furtherance of achieving our mission. We believed that the new policies 
would be distributed to all employees. Two years after the creation of 
ICE, none of these necessary precursors have been identified let alone 
accomplished. The best ICE has been able to do thus far is produce a 
nebulous statement as to what the agency purpose has become. 
Inexplicably, to date no succinct mission statement has been issued and 
no specific priorities have been identified.
    Customs was always on the cutting edge of computer technology and 
administrative systems. ICE inherited the INS computer systems that 
were archaic at best. When we voiced our comments on the need to 
improve or change these systems to ICE's new management team, we were 
repeatedly told by ICE management that we didn't understand the new 
systems. In fact ICE management informed us that they were superior to 
the Customs systems. Of course the contrary was true, as Congress had 
repeatedly said in the past, the Immigration systems provided the user 
with no ability to track the use of funds or to live within their 
allotted budget. Even today the ICE administrative systems that track 
budget, procurement, property, travel and even time and attendance fail 
to support the efficiencies of the service or promote accountability. 
This has repeatedly been evidenced by the continuing need to have 
independent auditors from the private sector review the ICE funding 
levels and anticipated expenditures. After two years this agency does 
not have accountability over the funds provided by this Committee. To 
further exacerbate the situation the agency has failed to identify a 
clear mission, establish measures of effectiveness and identify the 
funding level required to pursue its mission. In effect, there is no 
accountability for the proper expenditure of appropriated funds.
    Instead of engaging in the war on terrorism we found ourselves 
fighting with ICE management to upgrade computer systems and update its 
programs. We were not requesting anything more than to bring us back to 
a level of technology that had successfully supported our mission in 
the past. It became apparent at this point in time that the 
organization was unable or unwilling to entertain suggestions to 
improve antiquated technology and flawed policies. Consequently I 
decide along with many of my contemporaries to retire from the agency, 
rather than stay and watch helplessly as it deteriorated. This loss of 
experience and talent has further undermined the agency's ability to 
succeed. Every current Customs employee I speak with today express 
their desire to leave ICE, either by retiring when eligible or 
transferring to another agency. ICE currently has in excess of 800 
vacancies which have been caused by the mass exodus and a hiring 
freeze. If CBP were successful in forming an investigative arm, all of 
the former Customs Criminal Investigators I have spoken with would 
readily apply for transfer.
    In the interim, morale continues to fall rapidly within ICE. 
Contributing to this downward trend is the discontinuance of some 
positive employee initiatives. The Tuition Assistance Program which 
helps subsidizes education costs, has been ceased. The small monetary 
recognitions which were distributed to deserving employees in the 
Customs Service during award ceremonies have disappeared under the new 
regime. While other divisions within DHS enjoy adequate budgets and 
recognize their employees for their efforts, ICE employees have 
difficulty securing sufficient funding to pursue operational objectives 
and receive no recognition for their often times exemplary performance. 
The impression, whether true or not, is that the ICE hierarchy has 
mismanaged the budget. When the ICE hierarchy was informed of the low 
morale caused by the absence of these programs, they were either non 
responsive or dismissive of our concerns. From speaking to many people 
who remain with the agency, ICE continues to flounder.
    A merger would reverse this disturbing situation and makes sense on 
a number of different planes. The over riding reason is an improvement 
in the efficiencies and effectiveness of government while eliminating 
duplication of effort. Considerable cost savings of tax dollars could 
also be realized. Some examples of how a merger will benefit 
productivity while reducing costs are as follows:

        1. It would be beneficial to have one air and marine unit under 
        a single command to support the Immigration/Customs enforcement 
        function.
        2. Duplicated intelligence organizations would be melded into a 
        single cohesive unit producing a more efficient and 
        comprehensive intelligence product for the new agency.
        3. The separate Internal Affairs units would join together 
        bolstering the efficiency and integrity of the new agency.
        4. The forfeiture fund process would be more effective under a 
        single management and result in a more lucrative source that 
        would augment the new agency's budget.
        5. Human Resource functions will be integrated into one unit, 
        unifying hiring and recruitment of core area positions.
        6. Training staff and regiments would be integrated, resulting 
        in a cost savings and a more effective program.
        7. A single Information and Technology division would upgrade 
        all systems databases and make them interoperable creating a 
        more powerful and cost efficient tool.
        8. Foreign posts could be filled by one individual representing 
        all Homeland Security interests instead of one for CBP and one 
        for ICE.
        9. A single border agency would provide a central point of 
        contact for intelligence and communication on all Immigration 
        and Customs matters with other federal, state and local 
        agencies thus eliminating the current confusion.
        10. The business and trade communities would have their issues 
        and concerns better served by the unification of the regulatory 
        and investigative functions.
        11. The merger would eliminate the cumbersome necessity of 
        complying with the Third Agency Rule for the exchange of 
        information that is critical to the protection of our borders.
        12. The exodus of talent from the agency would stop and the 
        agency would be able to attract highly qualified candidates

    I have yet to hear from any individual within DHS articulate a 
single sound reason for the continued separation of Customs and Border 
Protection from Immigration and Customs Enforcement. One very vague 
explanation is that CBP will handle ``border enforcement'' and ICE will 
be responsible for ``interior enforcement''. This reasoning is fatally 
flawed. ``Border enforcement'' and ``interior enforcement'' cannot be 
separated. This is the same defective logic which created the agency 
and once again this reasoning displays a complete lack of understanding 
of the agencies roles and jurisdictional responsibilities. In a similar 
fashion to CBP, ICE's jurisdictional responsibilities relate to, or 
must have a nexus to, the border.
    ICE's jurisdictional responsibilities directly relate to the cross 
border movement of people and merchandise. Illegal aliens cross our 
borders, those involved in immigration fraud cross our borders, 
narcotics cross our borders, trade mark restricted merchandise crosses 
our borders, illicit funds cross our borders, munitions and high 
technology cross our borders and terrorists cross our borders. ICE is 
responsible for pursuing criminal investigations in all of these 
critical areas. However, we have separated the agency responsible for 
investigating these important violations that undermine our national 
security from those actually standing on the border. This situation is 
analogous to separating the uniformed officers from the detectives. A 
recent decision by CBP to not allow ICE to have immediate access to 
passenger manifests on aircraft arriving from foreign countries 
illustrates the types of difficulties encountered as a result of the 
current structure. Although ICE has a critical need for information on 
the arrival of foreign passengers to identify criminal violators, 
smugglers, fugitives and even terrorists, ICE is treated as a ``third 
agency'' and must submit a formal written request for the information, 
a time consuming process that could cost lives
    By merging CBP and ICE all of the entities involved in border and 
immigration enforcement responsibilities will be brought together with 
a single mission and chain of command. We will not realize the 
objective of creating a single border enforcement agency until Special 
Agents, Inspectors, Border Patrol Agents, Intelligence Analyst and 
Detention and Removal Officers are brought together.
    There are a myriad of other reasons why the initial separation of 
these agencies never made sense and a number of additional 
justifications as to why combining CBP and ICE is best for this nation 
and its war on terrorism. I find it hard to believe that anyone can 
propose a counter argument, with as much cause, to maintain these 
agencies as separate entities. One thing is certain, whatever the 
decision of congress is regarding the merging of the two agencies, it 
should be done quickly. Should we continue with the current 
configuration it would mean maintaining the duplicity of tasks, wasting 
tax dollars and perpetuating the downward slide of ICE and its 
employee's morale. Simply stated, a house divided against itself cannot 
stand.

    Mr. Rogers. The Chair now recognizes Mr. Randy Callahan, 
Executive Vice President of the American Federation of 
Government Employees, AFL/CIO, and a current ICE investigator. 
Mr. Callahan.

               STATEMENT OF RANDY ALLEN CALLAHAN

    Mr. Callahan. Thank you, Mr. Chairman. I am actually an 
immigration enforcement agent. It is a little bit different 
than a criminal investigator, and I can go into more detail on 
that if you need that.
    I am here today as the Executive Vice President of Council 
117 of the American Federation of Government Employees. It is 
also known as the National Homeland Security Council Number 
117. And my background, I started in 1996 as an immigration 
inspector and a year later became a detention enforcement 
officer, which was reclassified in August of 2003 as 
immigration enforcement agent.
    The Council that I represent represents approximately 
15,000 employees of the former Immigration and Naturalization 
Service, which, as we have discussed, is split into three 
separate bureaus: Customs and Border Protection, ICE, 
Immigration and Customs Enforcement, and U.S. Citizenship and 
Immigration Services.
    In our view, there are both advantages and disadvantages 
with each proposed organizational structure, the current one 
and the proposed merger, and I will try to go into that. Those 
proposing to combine ICE and CBP argue that two-bureau 
structure is overly duplicative and bureaucratic. Proponents 
view ICE and CBP as mutually responsible for the enforcement of 
our Nation's immigration and customs laws and their workforces 
should be combined. Certainly a review of the many occupational 
positions within the two bureaus assigned to enforce these laws 
would suggest this.
    CBP officers, formerly known as immigration customs and 
agriculture inspectors, are the first line of defense at all 
air, land and seaports of entry into the United States. Border 
Patrol agents are assigned to CBP and are responsible for the 
areas along the border between U.S. ports of entry. Deportation 
officers are assigned to ICE in the Detention and Removal 
Operations Division, and they are responsible for maintaining 
dockets of the removal cases and immigration proceedings. They 
are also responsible for fugitive operations, finding people 
that have been released from custody on the condition that they 
show up to their removal proceeding and failing to do so.
    Immigration enforcement agents are assigned to ICE in 
either the Investigations or the Office of Detention and 
Removal Operations Divisions. They are a combination of two 
positions that were part of the Immigration and Naturalization 
Service, detention enforcement officer and immigration agent; 
and they have a wide range of duties that include holding 
people in custody until their removal proceedings, removing 
them from the country once an order of removal has been issued. 
They participate in fugitive operations, and they assist other 
Immigration officers.
    Why are there so many different types of positions to 
enforce the same set of laws? Wouldn't it make more sense to 
have an all-encompassing position that is trained to enforce 
the law? In some ways, the answer is yes. Having one position 
or having one organizational structure would allow for greater 
flexibility in deploying the force, could provide a career 
progression ladder and could provide pay parity or parity for 
pay and benefits.
    This last reason may well be the reason why the positions 
haven't been combined as of yet. CBP officers are not provided 
the law enforcement retirement benefits or law enforcement 
salary rates. In fact, the Immigration enforcement agents are 
the lowest paid on the GS scale. Then it goes up from there. 
The Border Patrol agents are paid less than deportation 
officers, et cetera.
    Combining ICE and CBP could potentially eliminate several 
levels of management and combine budget control offices. 
Potential savings of salary and benefits by eliminating these 
management level positions is fairly significant.
    Combining ICE and CBP may also result in greater 
cooperation among the divisions. As it is right now, we have 
the problem of a serious lack of cooperation between legacy and 
components. People are still holding on to that: I am a Customs 
employee or I am an Immigration employee. So until that 
environment is changed, you are going to continue to have those 
internal struggles.
    For this reason, if it is decided to combine the two 
bureaus into one, we would recommend that whoever is picked to 
lead that bureau has a background in both divisions. That way 
they understand the importance of both ICE, Immigration and 
Customs Enforcement.
    Now, supporting the status quo. Why was the INS split up in 
the first place? After the attacks of September 11th, the 
country demanded to know how the terrorists were able to enter 
the country. Investigation into the 9/11 attacks determined 
that there were several missteps by the Immigration and 
Naturalization Service that allowed the terrorists to plan and 
execute their plot. Couple that with the approval of student 
visas of the terrorists subsequent to the attacks and you can 
understand why there was a call for dismantling the INS.
    One of the reasons why the division was done the way it was 
done was because, in the old INS, there was regular shifting of 
funds between the divisions and what would happen is, as an 
example, it would depend on the office.
    In my office in San Diego, for example, there were a lot of 
times where detention removal resources and funds were used to 
support the inspections on border operations. Our western 
region director had a background in the Border Patrol and would 
use those resources to help Border Patrol operations. As a 
result, interior enforcement or fugitive operations were 
greatly diminished. We weren't going out and finding fugitives 
to the scale that we needed to. For this reason, it seems that 
it makes sense to separate those chains of command and have 
them concentrate on specific jurisdictions.
    The problem still exists. We have mentioned or it has been 
mentioned before about the ICE budget problems. As I understand 
it, there is approximately $300 million of ICE funds that were 
used by both CBP and CIS. How that all happened, I don't know. 
I haven't seen the audit report yet. But if the organizations 
were combined, how much more of that money would have been used 
to support border operations or the Immigration Services 
Division? That, I don't know, and I really would rather not 
think about it.
    How do employees look at the merger? It is a mixed bag. You 
have got some that are for it and some that are opposed to it. 
We definitely need to look more into it to find out what the 
best structure is. But the bottom line is, no matter what the 
organizational structure, we need good leaders to focus on the 
mission, and we need adequate staffing and resources to get the 
mission accomplished.
    Thank you.
    Mr. Rogers. Thank you very much, Mr. Callahan.
    [The statement of Mr. Callahan follows:]

                  Prepared Statement by Randy Callahan

    Mr. Chairman, Honorable Members of the Subcommittee:
    My name is Randy Callahan. I am currently an Immigration 
Enforcement Agent with the Department of Homeland Security's Bureau of 
Immigration and Customs Enforcement, Office of Detention and Removal 
Operations. I began my career in 1996, when I was hired by the 
Immigration & Naturalization Service as an Immigration Inspector. In 
1997, I became an Immigration Detention Enforcement Officer. In August 
of 2003, the Detention Enforcement Officer was reclassified into my 
current position.
    I am here today as the Executive Vice--President of Council 117 of 
the American Federation of Government Employees, also known as the 
National Homeland Security Council. The Council represents 
approximately fifteen thousand employees of the former Immigration and 
Naturalization Service, which, as you know, was split into three 
separate Bureaus: Customs and Border Protection (C.B.P), Immigration 
and Customs Enforcement (I.C.E) and Citizenship and Immigration 
Services (C.I.S) in March of 2003. On behalf of the bargaining unit 
members of these Bureaus, I thank you for inviting me to present NHSC's 
views on the current organizational structure of C.B.P and I.C.E and 
whether or not it best serves the homeland security interests of U.S. 
citizens.
    In our view, there are both advantages and disadvantages with each 
proposed organizational model. I shall attempt to present the pros and 
cons of each.

Arguments in Support of an I.C.E/C.B.P Merger:
    Those proposing to combine I.C.E and C.B.P argue that the two 
Bureau structure is overly duplicative and bureaucratic. Proponents 
view I.C.E and C.B.P as mutually responsible for the enforcement of our 
nation's immigration and customs laws and their work forces should 
therefore be combined. Certainly, a review of the many occupational 
positions within the two Bureaus assigned to enforce immigration and 
customs law would suggest this.
    C.B.P Officers, formerly known as Immigration or Customs 
Inspectors, are the first line of defense at all air, land, and sea 
ports of entry into the United States. They facilitate the legal entry 
of imported goods, as well as bona fide immigrants and non-immigrants, 
while identifying persons attempting to enter the country illegally 
using fraudulent methods. In addition, C.B.P Officers gather 
intelligence on smugglers, seize vehicles used by drug and alien 
smugglers, and prepare prosecution cases for the U.S. Attorney's 
office.
    Border Patrol Agents are assigned to C.B.P and are responsible for 
the areas along the border between U.S. ports of entry. Their job is to 
prevent illegal border crossings, and to intercept drugs and people 
being smuggled into the country. I.C.E Criminal Investigators work in 
the Office of Investigations (OI) and are responsible for breaking up 
human and drug smuggling organizations, as well as identifying, 
locating, and arresting terrorists and terrorist organizations working 
within the country.
    Deportation Officers are assigned to I.C.E in the Detention and 
Removal Operations (DRO) division. They are responsible for locating 
and apprehending fugitive aliens, preparing travel documents for aliens 
that have been ordered removed from the country, and maintaining file 
dockets of removal proceedings.
    Immigration Enforcement Agents (IEA) are assigned to I.C.E in 
either the office of Investigations or the Office Detention and Removal 
Operations. They are a combination of two positions that were part of 
the Immigration & Naturalization Service: Detention Enforcement 
Officers and Immigration Agents. They are largely responsible for 
holding in custody people arrested by other Immigration Officers and 
who are facing removal proceedings. Immigration Enforcement Agents 
assist Deportation Officers with fugitive operations, escorting aliens 
ordered removed from the country to their country, and basically serve 
at the will of C.B.P.
    C.B.P uses Immigration Enforcement Agents as prisoner transport 
officers at both Border Patrol Sectors and ports of entry. Soon, the 
office of Detention and Removal will take over the Alien Criminal 
Apprehension Program (ACAP) from I.C.E's Office of Investigations. ACAP 
is a program where Criminal Investigators or Immigration Enforcement 
Agents assigned to the Office of Investigations identify aliens in 
violation of immigration laws at state and local prisons, or jails. 
Once state or local authorities have completed their review, illegal 
aliens are transferred to I.C.E, where they are placed into removal 
proceedings.
    Why are there so many different types of positions to enforce the 
same set of laws? Would it not make more sense to have one `all-
encompassing' position that is trained to enforce the law? In some 
ways, the answer is yes. Having one position would allow for greater 
flexibility in deploying the work force, would provide a career 
progression ladder, and would provide parity for pay and benefits. This 
last reason may well be why the positions have not been combined to 
date. C.B.P Officers are not provided law enforcement retirement 
benefits or the law enforcement salary rate. In fact, Immigration 
Enforcement Agents are paid at the lowest full performance GS level; 
Border Patrol Agents are paid less than Deportation Officers, who are 
paid less than Criminal Investigators. It is likely more cost effective 
for the government to keep the positions separate, though it is not 
necessarily best for the mission of the Bureaus or the Department.
    Combining I.C.E and C.B.P could potentially eliminate several 
levels of management and combine budget control offices. Instead of 
having two Bureau heads, two directors of operations, two budget 
directors, two offices of labor relations, etc., it would be possible 
to consolidate these offices into one. The potential savings in salary 
and benefits by eliminating these management level positions is fairly 
significant.
    Combining I.C.E and C.B.P may also result in greater cooperation 
between divisions. Indeed, as it stands right now, there is a serious 
lack of cooperation between legacy components (INS and Customs) of the 
two Bureaus. The leadership of the former INS and Customs Service are, 
as we speak, locked in a heated battle for control of the purse 
strings. As President Bush acknowledged when discussing the position of 
Intelligence Czar, the larger the budget one controls in Washington, 
the more influence one has. The combined budget of I.C.E and C.B.P will 
give a great deal of additional power to the individual chosen to lead 
the merged Bureau. For this reason, I recommend that this person have a 
strong background in both immigration law enforcement and customs law 
enforcement. Only will such an individual have the ability to ensure 
that both sets of laws enforcement priorities.

Arguments in Support of Maintaining the Status Quo:
    I have already given you the current organizational structure and a 
few reasons why I believe that combining the two Bureaus might make 
sense. Now, I will offer you some arguments in support of the status 
quo, arguments that have advantages in terms of mission effectiveness.
    In looking at this issue, the question must be asked: Why was the 
INS split up in the first place? After the attacks of 9/11/01, the 
country demanded to know how the terrorists were able to enter the 
country. The investigation into the 9/11 attacks determined that there 
were several missteps by the Immigration and Nationalization Service 
that allowed the terrorists to plan and execute their plot. Couple that 
with the approval of student visas for a few of the terrorists 
subsequent to the attacks and you can understand why there was a call 
for dismantling the INS.
    When the Department of Homeland Security was being created, a 
review of the functions of the different agencies was conducted to 
determine where each one belonged in the new structure. Because of 
longstanding problems with INS management, it was judged that there was 
a need to divide the agency's responsibilities. It was also determined 
that the INS had failed to put sufficient emphasis on the enforcement 
of immigration laws in the interior parts of the U.S.
    I know of countless situations in which the INS would shift funds 
and resources to focus on the favored projects of certain INS managers. 
For example, the former INS District Director in San Diego frequently 
used funds and resources from the Detention and Removal branch and the 
Investigations branch to support inspections operations at the San 
Diego Ports of Entry. In addition, the former INS Western Regional 
Director used the same resources to support Border Patrol operations in 
Arizona. These reallocations of funds meant that there was less money 
available for fugitive operations. It was In an attempt to prevent 
these types of problems in the future, that the office of Detention and 
Removal Operations and Investigations were separated from the Border 
Patrol and Inspections in the new Department. Clearly, the designers of 
the Department of Homeland Security were correct when they decided to 
separate these components of I.C.E and C.B.P.
    Yet the problems still exist. As things now stand, C.B.P and 
Citizenship and Immigration Services (C.I.S) have expropriated over 
$300M of I.C.E's funds under the current organizational structure. How 
much more money would C.B.P successfully siphon out of Detention and 
Removal and Investigation Operations if I.C.E and C.B.P were merged is 
a question I and my colleagues at I.C.E feel compelled to raise.
    One of the main reasons it appears that I.C.E is failing is because 
it is being starved of necessary resources. It may be that this hearing 
would not be necessary if I.C.E had all of the funds appropriated by 
Congress. I already alluded to a $300 million shortfall in I.C.E's 
budget, because funds were transferred to C.B.P and C.I.S. I now hear 
that the Border and Transportation Security Directorate (BTS) took 
funds from all BTS components in order to support certain BTS 
activities. If that is the case, and Congress did not approve this 
reallocation of funds, then I hope you will address the issue with BTS. 
The problem may lie less with the organizational structure, and more 
with the people filling key leadership positions.

How Do Employees View the Merger:
    I've laid out arguments both in favor of, and against the existing 
organizational structure, and I believe that a merger can work. But 
what do the employees in the field want? Frankly, it's a mixed bag. 
C.B.P managers strongly support a merger. They want access to the I.C.E 
dollars and the power that comes with them. They believe that in a 
merger of the two Bureaus, C.B.P will emerge as the lead agency. The 
primary concern of C.B.P employees is that there be someone to pick up 
their detainees and transport them to a detention facility or wherever 
they need to go.
    Criminal Investigators that were Customs employees prior to the 
creation of I.C.E also generally support a merger. I have heard that 
they believe they will have a larger share of the budget pie under 
C.B.P than they currently have with I.C.E. I hear also that there is an 
attitude among former Customs CI's that immigration enforcement is 
somehow beneath them. It may be that because immigration law is so 
complex and their training in it so limited, they have no desire to 
conduct investigations of immigration violations. Or, it may be that 
they simply want nothing to do with immigration matters. However, since 
all of the terrorists on 9/11 were immigrants, this is a dangerous 
situation that must be rectified.
    Legacy Immigration Criminal Investigators largely want to remain in 
I.C.E. While they were recently taken out of the collective bargaining 
unit, and I am no longer able to represent them, I still field calls 
from Criminal Investigators who are frustrated with the way they are 
treated now that they can not be part of the union, but who feel they 
definitely have it better in I.C.E than they would in C.B.P.
    Deportation Officers and Immigration Enforcement Agents also want 
to remain in I.C.E. They fear that the progress they have made in 
security funding for fugitive operations will be for naught, if C.B.P 
is allowed to divert DRO resources to support C.B.P initiatives. As one 
of my colleagues put it, ``The border is, has been, and always will be, 
the squeaky wheel. Businesses and illegal immigrant rights activists 
don't cry when someone doesn't show up for their removal hearing, but 
man do they ever scream when the border wait is longer than forty-five 
minutes.'' The squeaky wheel will always get the grease, and the grease 
will be taken from Detention and Removal if C.B.P management can 
arrange it.

Conclusion:
    The employees of I.C.E and C.B.P will work within whatever 
organizational structure is determined by Congress and the Secretary of 
Homeland Security. We strongly believe that, no matter what the 
structure, the mission of DHS is doomed to fail if management continues 
to cling to its respective legacy components (INS, Customs) and battles 
for overall control of the Bureaus is allowed to continue. Whatever is 
decided on this issue, it is essential that Congress also ensures that 
I.C.E components receive the funds appropriated for them and not allow 
these funds to be continually diverted for other purposes.
    Mr. Chairman, on a final, unrelated note, my ability to testify at 
this hearing stems from my right to be part of a union. It is an honor 
for me to be here and I hope to be able to speak on behalf of I.C.E 
employees for a long time to come. My colleagues in the I.C.E Office of 
Investigations, the Federal Air Marshal Service, the TSA, and other 
agencies that make up the Department of Homeland Security do not have 
the same right. Please correct this injustice by allowing them to join 
a union and by strengthening whistle blower protections. Employees 
should not have to suffer silently as they watch fraud, waste and abuse 
occurring in front of them. Thank you again for the opportunity to 
provide this testimony.

    Mr. Rogers. Our next witness is Mr. T.J. Bonner, President 
of the National Border Patrol Council. Mr. Bonner.

  STATEMENT OF T.J. BONNER, PRESIDENT, NATIONAL BORDER PATROL 
                            COUNCIL

    Mr. Bonner. Thank you, Chairman Rogers, Ranking Member 
Meek, other distinguished members of the subcommittee.
    I have been a Border Patrol agent for the past 27 years and 
am proud of that. The Department of Homeland Security is very 
fortunate to have inherited tens of thousands of dedicated, 
talented employees. Unfortunately, many of these people are 
leaving as soon as they are able to retire, and many of them 
have their resumes out there looking for other jobs. They are 
stifled by the current organizational structure which does not 
allow them to do their jobs.
    Organizations in and of themselves are incapable of 
accomplishing the mission. It is always the employees who carry 
out the mission. An organizational structure can either 
facilitate the accomplishment of the mission or impede the 
accomplishment of the mission. In this case, the dual 
enforcement structure of CBP and ICE has proven to be a major 
barrier to the accomplishment of the extremely vital mission of 
the Department of Homeland Security, stopping terrorists from 
entering our country and carrying out their dastardly deeds.
    A long time ago, before Homeland Security was even 
contemplated, before the Department of Homeland Security was 
contemplated, there was talk about merging or rather splitting 
up the enforcement and service functions of the Immigration and 
Naturalization Service. The National Border Patrol Council 
supported that idea. It made perfect sense. That concept was 
carried over in the Homeland Security Act, and we supported it 
then, also.
    We did not, however, support the further administrative 
bifurcation of interior and border security because it simply 
made no sense. Everything is integrated. All of the crime that 
our agents deal with, whether it be Border Patrol agents, 
inspectors, special agents, it all emanates outside of this 
country, or if it is emanating within this country, it is 
importing people or goods illegally into the country.
    There needs to be coordination and cooperation between all 
of these agencies. Unfortunately, that does not exist today. It 
has worsened since the merger of the 22 agencies into the 
Department of Homeland Security, especially because of the 
artificial bifurcation of the two enforcement bureaus.
    We support merging Customs and ICE--I am sorry, CBP and ICE 
and believe that this can be done in a manner that would 
benefit the country. It has to be done, however, thoughtfully 
and carefully. It has to be done in such a manner that it 
encourages people to cooperate and that it is structured in 
such a manner that that happens as a natural consequence, not 
because of the will of some managers or employees fighting 
against the current of the river, swimming upstream as it were. 
It has to be something that naturally flows from that.
    For example, right now there are no defined career paths 
within either of the bureaus that leads to an intermingling of 
the various occupations. Amazingly, the criminal investigators 
in ICE are selected, by and large, from people straight out of 
college or right off the street. They are not drawn from the 
ranks of Border Patrol agents, CBP inspectors or Immigration 
enforcement agencies. That would make perfect sense, but it 
doesn't happen.
    I can't think of a single major metropolitan police 
department where this happens, where they don't go to the ranks 
of their uniformed officers looking for their detectives. This 
would yield a better product because you would have 
knowledgeable, skilled employees filling these ranks. Also, it 
would cut down on the attrition problems that we have within 
these ranks, Border Patrol agents, CBP inspectors. Because, 
right now, your reward for putting in 10, 15 years on the 
border is to watch someone straight out of college get a higher 
paying, more challenging job than your job. So what is the 
incentive for these people to stick around?
    I would also like to touch on the need for specialization. 
One face at the border, while it sounds--it has a lot of facial 
appeal, the concept has simply not worked. Expecting one class 
of employees to be knowledgeable in immigration, customs, and 
agricultural law is asking too much of a single human being. So 
what we have ended up with is a generation of generalists 
rather than specialists. This is going to be disastrous a few 
years down the road.
    Right now, we still have people who were trained very well 
in these specialized disciplines, so we haven't seen the full 
effects of one face at the border. But when we end up with a 
bunch of generalists, we are going to see a lot of things 
slipping by these inspectors at the border that should not be 
slipping by them; and having specialists in the secondary areas 
will not cure that defect because the people on the primary 
inspection lines are the ones who have to be able to recognize 
that something is wrong in order to send it over to the 
secondary inspection line.
    Finally, no discussion of this problem would be complete 
without at least touching upon the fact that the new personnel 
regulations that have been forced upon these employees will 
have the effect of driving away the best and the brightest. As 
I mentioned earlier, it is the employees who will make or break 
this agency. To the extent that these personnel regulations 
push people away from this agency and make service in the 
Federal Government less attractive, the Department will not be 
able to meet its mandate to protect this country.
    In summary, the National Border Patrol Council fully 
supports the idea of merging ICE and CBP but urges that it be 
done carefully, listening very carefully to the people at all 
levels of the organization, those on the front lines, those 
mid-level managers and upper-level managers, figuring out what 
makes sense and proceeding along those lines but ensuring that 
the structure facilitates cooperation and coordination and that 
it allows for specialization within the various occupations. 
Because, bear in mind, we still have to enforce all of the laws 
that are out there on the books: the immigration laws, the 
custom laws, the agricultural laws, the maritime laws. All of 
the laws of those 22 agencies that were merged into the 
Department of Homeland Security still need to be enforced by 
someone.
    Thank you very much for your time, and I look forward to 
your questions.
    Mr. Rogers. Thank you, Mr. Bonner.
    [The statement of Mr. Bonner follows:]

    Prepared Statement of the National Border Patrol Council of the 
American Federation of Government Employees AFL-CIO, Presented by T.J. 
                       Bonner, National President

    The National Border Patrol Council, which represents approximately 
10,000 front-line Border Patrol employees, appreciates the opportunity 
to share its views and concerns regarding the organizational structure 
of the Department of Homeland Security.
    The Homeland Security Act of 2002 merged 22 diverse agencies within 
the Executive Branch of the Federal Government with the goal of 
fostering better coordination and cooperation among them in order to 
better protect the United States against the threat of terrorism. Three 
years later, it is appropriate to evaluate the effectiveness of one the 
more controversial after-the-fact organizational changes--the creation 
of two separate enforcement bureaus within the Directorate of Border 
and Transportation Security instead of a single bureau as originally 
called for in Section 442 of the Act. As contemplated therein, the 
Bureau of Border Security would have been responsible for coordinating 
and carrying out all of the functions of the Customs Service and the 
Transportation Security Administration, the law enforcement functions 
of the Immigration and Naturalization Service and the General Services 
Administration, and certain agricultural inspection functions of the 
Department of Agriculture. For reasons that were more political than 
practical, two bureaus were created in its place: the Bureau of Customs 
and Border Protection (CBP) and the Bureau of Immigration and Customs 
Enforcement (ICE). The legacy Customs Service management structure took 
control of CBP, and the legacy Immigration and Naturalization Service 
(I&NS) management structure took control of ICE. Although the stated 
rationale for the bifurcation of the enforcement functions was to allow 
CBP to primarily focus on enforcement at the borders and ICE to 
primarily focus on enforcement in the interior, it is obvious to even 
the most casual observer that this distinction is almost completely 
artificial. In order to effectively carry out their statutory missions, 
both of these bureaus need to be able to seamlessly operate without 
regard to artificially-imposed boundaries. It is now apparent that the 
dual structure was mainly created to allow the existing Customs and 
I&NS bureaucracies to survive largely intact. The survival of an 
existing bureaucracy in a consolidation can be either productive or 
counter-productive, depending upon whether or not it is compatible with 
the new mission and contributes to its accomplishment. In the current 
structure, unfortunately, the new bureaucracies have impeded the 
accomplishment of the Department's anti- terrorism and other law 
enforcement missions. These important objectives require a high level 
of coordination and cooperation among all of the Department's 
employees. The current bifurcated structure places needless barriers 
between these employees and provides major disincentives for them to 
coordinate their efforts and cooperate with each other. In fact, the 
level of coordination and cooperation has decreased significantly since 
the consolidation.
    Long before the Department of Homeland Security was even 
contemplated, there was a great deal of concern in Congress about the 
ability of the I&NS to effectively discharge its dual enforcement and 
service missions under a unified structure with a single chain of 
command. The National Border Patrol Council supported splitting the 
service and enforcement programs in order to enable both of them to 
operate at peak efficiency while at the same time facilitating 
coordination and cooperation between the two branches. The Council also 
supported the same goal under the Homeland Security Act, but did not 
endorse the dual split of the enforcement bureaus. It maintains that 
such a move was a mistake from the beginning, and should be rectified 
as soon as possible. Of course, merely merging these two bureaus will 
not cure the ills that plague them. A fundamental restructuring of 
every key aspect of the organization must also occur if meaningful 
improvements are expected.
    The new consolidated structure must be fully integrated at all 
levels of the organization. It must not only eliminate impediments to 
coordination and cooperation, but must also facilitate the achievement 
of these goals. Such critical matters should not be dependent on the 
will and strength of a few high-level leaders, but must be the natural 
result of a well-planned organizational structure. In order to ensure 
the success of the new structure, it must be carefully constructed, 
paying close attention to the input of employees at all levels and 
components of the existing bureaus. To be successful, this new 
structure and culture must first be embraced by the leaders at the top 
of all of the integrated programs, and then be filtered down to 
employees at all levels of the organization. The only way that this 
will happen is if the changes make sense to all employees and truly 
represent a significant improvement.
    Weak links in the organizational chain should not be allowed to 
frustrate the accomplishment of the overall mission. For example, the 
current structure places all of the funding and responsibility for the 
detention of illegal aliens into a single bureau, even though all of 
the programs in both bureaus are dependent upon this resource. Allowing 
mismanagement and under-funding in one program to disrupt the entire 
operation is untenable. A proper organizational structure would ensure 
that all aspects of the operation are carefully planned and integrated, 
and that all of the resources are properly distributed to ensure that 
such disparities rarely, if ever, occur. Unanticipated shortfalls in 
one or more key areas would be compensated for by shifting funds and 
resources from other areas.
    The chains of command and lines of authority in the new 
organization must be structured horizontally as well as vertically in 
order to ensure that all of the components seamlessly interface with 
each other as well as to facilitate cooperation. Currently, all of the 
Department's criminal investigators belong to one bureau, while all of 
the front-line personnel who enforce the laws pertaining to the legal 
and illegal entry of people and goods entering the United States belong 
to a different one. Under this system, there is absolutely no incentive 
for these employees to coordinate their investigations or to cooperate 
with each other. To the contrary, it actually encourages competition 
and isolationism.
    Another factor that discourages coordination and cooperation among 
the Department's employees is the absence of defined career paths 
within the various organizational components that would allow for the 
easy interchange of experience and skills between them. For example, in 
a properly-constructed organization, criminal investigator positions 
and other higher-graded occupations should be selected from the ranks 
of entry-level occupations such as Border Patrol agents, CBP 
inspectors, and Immigration Enforcement agents. This would not only 
provide the Bureau with experienced employees who would require minimal 
training to perform well in these complex assignments, but would also 
boost morale and slow attrition among the ranks of the other 
occupations. Amazingly, the Department hires almost all of its criminal 
investigators straight out of college. This has no parallel in any 
other law enforcement agency in the country. Every single major police 
department hires its detectives from the ranks of its uniformed 
officers.
    It would be a serious mistake to assume that the employees in the 
various occupations within the consolidated bureau are interchangeable 
and that some of these occupations should therefore be merged. 
Occupational distinctions should be based upon operational requirements 
and realistic employee expectations, not on uniformity for uniformity's 
sake. In addition to its over-arching mission of anti-terrorism, the 
Department continues to be responsible for enforcing immigration, 
customs, maritime, and agricultural laws. All of these laws are 
complicated and arcane, and it is unrealistic to expect one employee to 
be an expert in more than one discipline. While it is helpful for all 
employees to be familiar with those laws that they might encounter 
during the normal course of their duties, it is unwise to attempt to 
create a workforce of generalists rather than specialists.
    The best example of this theory going awry is the ``One Face at the 
Border'' initiative undertaken by CBP shortly after its creation. While 
the phrase has a certain facial appeal, its underlying premise is 
fundamentally flawed. The complexities of the three major types flaws 
and regulations that are enforced at the border virtually guarantee 
that no individual can become an expert in all of these areas. Efforts 
to homogenize the inspectors at our Nation's ports of entry will 
ultimately result in a workforce composed of ``jacks of all trades, but 
masters of none.'' The plan to place specialists in the secondary 
referral areas as an adjunct to these generalists in the primary 
inspection areas will also prove ineffective. If the primary inspectors 
have insufficient knowledge of the applicable laws, they will be 
incapable of identifying suspicious people and cargo for referral to 
the secondary areas. For similar reasons, the current attempt to force 
all criminal investigators to handle cases involving all of the various 
laws within the Department's jurisdiction is also doomed to failure. 
Specialization must be embraced and encouraged at all levels of the 
organization.
    Finally, it must be recognized that organizational structures in 
and of themselves are wholly incapable of carrying out an agency's 
mission - they merely facilitate the accomplishment of the mission by 
the agency's employees. The more skilled and dedicated the employees 
are, the more effectively the mission will be accomplished. 
Unfortunately, the Department of Homeland Security is in the process of 
implementing a new personnel system that will make it very difficult to 
recruit and retain the best and the brightest employees. Although the 
new rules purport to be progressive measures that will reward and 
encourage superior performance and hold all employees accountable, they 
are in fact throwbacks to the corrupt, cronyism-based nineteenth 
century civil service system that nearly ruined public service in this 
country. All employees want to be paid and treated fairly, and to have 
a say in the decisions that affect their working conditions. Because 
this new personnel system does not meet those basic needs, it will 
discourage highly-skilled and dedicated employees from serving their 
country in this vital agency.
    In summary, the National Border Patrol Council strongly supports 
the merger of the Department of Homeland Security's two enforcement 
bureaus, but cautions that such a consolidation must be undertaken 
thoughtfully. Otherwise, it will not correct the problems that exist in 
the current bifurcated structure, and could actually worsen the 
situation. In order to be effective, the new structure must foster the 
coordination and cooperation that are so essential to the 
accomplishment of the Department's anti-terrorism and other law 
enforcement missions. It must also facilitate specialization in the 
various laws that the Department is charged with enforcing in order to 
maximize the odds that terrorists and weapons of mass destruction will 
be intercepted. Finally, it must ensure that employees are treated 
fairly and that their input is heeded so that the Department is able to 
continue its tradition of attracting the best and brightest to protect 
America against the threat of terrorism.

    Mr. Rogers. The Chair now recognizes Mr. Michael Cutler, 
former Senior Special Agent, U.S. Immigration and 
Naturalization Service.

                  STATEMENT OF MICHAEL CUTLER

    Mr. Cutler. Thank you for having me. Good morning. As a New 
Yorker, I will also try to speak quickly for you.
    Mr. Rogers. We are going to have to get some southerners on 
this panel.
    Mr. Cutler. I think so. We are kind of taking over today.
    Chairman Rogers, Ranking Member Meek, distinguished members 
of the Congress, members of the panel, ladies and gentlemen, I 
welcome this opportunity to provide testimony today on the 
critical issue of determining if the current organizational 
structure of ICE and CBP best serves U.S. Homeland Security 
interests.
    This issue is of great concern to me on two levels. First 
of all, I am an American; and, second of all, I am a former INS 
Senior Special Agent, having worked for the agency in New York 
for some 30 years.
    We all know the significance of September 11, 2001, but how 
many Americans remember February 26, 1993? I believe that few 
Americans would readily remember that second date perhaps 
because we have a short memory as a Nation, perhaps because the 
events of that date were so drastically and horrifically 
eclipsed by September 11, 2001. We recently marked the 12th 
anniversary of the first attack on the World Trade Center, 
which in fact occurred on February 26, 1993. Six people lost 
their lives on that day simply by going to work. At least a 
thousand people were injured, and it has been estimated that 
the damage to the World Trade Center complex was an estimated 
half billion dollars. Our Nation did little to protect itself 
after that attack, and the terrorists essentially of their own 
volition waited more than 8 years before they attacked this 
country again at that very same location. Therefore, we should 
take very little comfort that there have been no attacks 
committed within our country's borders since September 11, 
2001. Indeed, we are continually warned about the potential for 
future attacks on our Nation that might involve weapons of mass 
destruction. I fear a future attack might serve to eclipse the 
attacks of 9/11.
    The fact that the issue of reorganizing the agencies which 
bear the responsibility of securing our Nation's borders is the 
focus of this hearing encourages me that this subcommittee is 
intent on making the protection of our borders and the 
enforcement of the immigration laws the priorities, as well 
they should be. But I would implore you and your colleagues who 
represent us in both Houses of Congress to act swiftly and 
resolutely to secure our Nation's borders which at present are 
anything but secure. The clock is ticking, and the time is on 
the side of our Nation's enemies.
    To quote the first two sentences of the preface of a report 
entitled, ``9/11 Terrorist Travel, a staff report of the 
National Commission on Terrorist Attacks Upon the United 
States,'' and I quote: ```It is perhaps obvious to state that 
terrorists cannot plan and carry out attacks on the United 
States if they are unable to enter our country. Yet, prior to 
September 11, while there were efforts to enhance border 
security, no agency of the U.S. government thought of border 
security as a tool in the counterterrorism arsenal.
    The failure of our Nation to impose even a modicum of 
control over who is able to enter our Nation even now is a 
clear indication of the inability of the United States to 
protect its citizens from the potential of another terrorist 
attack.
    And it is not only terrorists who threaten our well-being. 
It is estimated that some 30 percent of the Federal inmate 
population is comprised of aliens.
    When I worked at the former INS, I became an advocate for 
the concept of what I have come to refer to as the 
``immigration law enforcement tripod.'' Under this concept, the 
Border Patrol enforces the law between ports of entry, the 
inspectors enforce the laws at ports of entry, and the special 
agents comprising the interior enforcement component of 
immigration law enforcement, along with deportation officers, 
back up the other two divisions of what was the Immigration 
Service. I had recommended that the service side of the INS 
should be spun off as a separate entity that would rely on 
special agents to conduct field investigations when 
appropriate, to seek to uncover immigration benefit fraud, a 
critical issue that has all been ignored and neglected.
    As we know, since the formation of DHS, the immigration 
benefits program has been indeed placed under a separate 
bureau; and, in addition, enforcement elements of the former 
INS have been merged with U.S. Customs Service to form the 
Bureau of Immigration and Customs Enforcement. Additionally, 
other agencies have been added to the DHS, among them the 
Secret Service, the Transportation Service Safety 
Administration, and the GSA Police.
    To further complicate matters, the current structure 
divides interior enforcement of the immigration laws from the 
enforcement of the immigration laws along the border and at 
ports of entry. The inspectors and Border Patrol agents are now 
part of CBP, and we need to fortify our Nation's exterior 
borders but not create bureaucratic borders between these two 
law enforcement agencies that share responsibilities for a 
common mission.
    It is my opinion and the opinion of many of my former 
colleagues at the former INS that this management structure is 
unwieldy and ineffective. The enforcement of the immigration 
laws is critical and shares little with the other agencies 
which have been combined with the former INS. The mission of 
each of these agencies is critical but unique.
    The mission of the former U.S. Customs Service bears little 
in common with the work and priorities and orientation of the 
former INS. In fact, prior to the merger, Customs was a 
division of the Treasury Department and the INS was a division 
of the Department of Justice. Its primary responsibility was to 
prevent contraband from entering the United States and to 
collect tariffs and duties. Customs is responsible for the 
movement of goods and currency across our Nation's borders. The 
INS was concerned with the movement of people across our 
Nation's borders and has been involved with issues that more 
closely paralleled what the employees of State Department, the 
Labor Department, and the FBI are involved with.
    To reinforce this point, I would point out that, while it 
was relatively rare for INS agents, at least in New York, to 
work with their Customs counterparts, it was relatively common 
for us to work with agents of the other agencies that I just 
mentioned. The primary similarity between Customs and the INS 
was the border, and once you remove the border from the 
equation, the differences became obvious and profound.
    Since the merger of INS into ICE, the new special agents 
who are now being trained are no longer even receiving Spanish 
language training. It is estimated that some 80 percent of the 
illegal alien population of the United States is Spanish 
speaking. This language training was an integral part of the 
curriculum for all new law enforcement officers at the old INS.
    Mr. Cutler. You cannot investigate people that you cannot 
communicate with. It is worth noting that most of the special 
agents in charge of ICE offices came from the U.S. Customs 
Service, further eroding the immigration mission. I have come 
to think of the current situation, quite frankly, as the 
Customization of immigration and law enforcement. I have been 
told that few employers of illegal aliens are found under the 
auspices of the Employer Sanctions Program in the United States 
last year.
    Additionally, the investigation of immigration benefit 
fraud has been relegated, from what I have been told, to being 
pursued by very few field agents and some computer systems. We 
are currently engaged in a war on terror where control of our 
Nation's borders is critical to the outcome of this battle 
where the stakes are so high.
    In order for the borders to be secured, we need to have a 
coordinated enforcement program that creates a seamless effort 
from the borders to the interior. This can best be done, in my 
estimation, by putting the CBP and ICE under one roof. It is 
also essential that separate chains of command be established 
with the Immigration and Enforcement Program with specific 
training and funding and accountability. This is the era of the 
specialist; one size does not fit all.
    It is critical that our Nation gains control of its borders 
and the entire immigration bureaucracy if we are to protect our 
Nation from illegal immigration. Illegal immigration has a 
profound impact on more aspects of this Nation has does any 
other issue. It impacts on everything from education, the 
environment, health care, and it also involves criminal justice 
and national security. It is vital, in my view, that this 
mission be effectively dealt with. The current structure does 
not provide the framework or leadership to enable this to 
happen.
    Morale among the former INS personnel is at an all-time 
low. Clearly this situation needs to be remedied, and a 
reorganization such as I have outlined, I believe, would 
represent a major step in the right direction.
    Thank you for your time. I look forward to your questions.
    Mr. Rogers. Thank you very much for your comments, 
Mr.Cutler.
    [The information follows:]

                Prepared Statement of Michael W. Cutler

    Chairman Rogers, Ranking Member Meek, distinguished members of 
Congress, members of the panel, ladies and gentlemen. I welcome this 
opportunity to provide testimony today on the critical issue of 
determining if the current organizational structure of ICE and CBP best 
serves U.S. homeland security interests.
    This issue is of great concern to me on two levels. First of all I 
am a citizen of the United States. Secondly, I am a former INS senior 
special agent, having worked for that agency for some 30 years.
    We all know the significance of September 11, 2001, but how many 
Americans remember February 26, 1993? I believe that few Americans 
would readily remember that second date. Perhaps it is because we have 
a short memory as a nation. Perhaps it is because the events of that 
date were so drastically and horrifically eclipsed by September 11, 
2001. We recently marked the 12th anniversary of the first attack on 
the World Trade Center which occurred on February 26, 1993. Six people 
lost their lives on that date by simply going to work. At least a 
thousand other people were injured and some estimates pegged the damage 
to the World Trade Center complex at being in excess of one half of a 
billion dollars. Our nation did little to defend itself after that 
attack and the terrorists, essentially of their own volition, waited 
for more than 8 years before attacking our nation at that location 
again. Therefore we should take little comfort that there have been no 
attacks committed within our country's borders since September 11, 
2001. Indeed, we are continually warned about the potential for future 
attacks on our nation that may make use of Weapons of Mass Destruction. 
I fear a future attack might serve to eclipse the horrific attacks of 
9/11.
    The fact that the issue of re-organizing the agencies which bear 
the responsibility of securing our nation's borders is the focus of 
this hearing encourages me that this subcommittee is intent on making 
the protection of our borders and the enforcement of the immigration 
laws the priorities as well they should be. But I would implore you and 
your colleagues who represent us in both houses of congress to act 
swiftly and resolutely to secure our nation's borders which at present 
are anything but secure. The clock is ticking and time is on the side 
of our nation's enemies. To quote the first two sentences of the 
preface of a report entitled, ``9/11 and Terrorist Travel, A Staff 
Report of the National Commission on Terrorist Attacks Upon the United 
States,''
    ``It is perhaps obvious to state that terrorists cannot plan and 
carry out attacks in the United States if they are unable to enter the 
country. Yet prior to September 11, while there were efforts to enhance 
border security, no agency of the U.S. government thought of border 
security as a tool in the counterterrorism arsenal.''
    The failure of our nation to impose even a modicum of control over 
who is able to enter our nation, even now, is a clear indication of the 
inability of the United States to protect its citizens from the 
potential of another terrorist attack. And it is not only terrorists 
who threaten our well-being. It has been estimated that 30% of the 
federal inmate population is comprised of aliens.
    When I worked at the former INS, I became an advocate for the 
concept of what I have come to refer to as the ``Immigration Law 
Enforcement Tripod. Under this concept the Border Patrol enforces the 
laws between ports of entry, the inspectors enforce the laws at ports 
of entry and the special agents, comprising the interior enforcement 
component of immigration law enforcement along with the deportation 
officers back up the inspectors and Border Patrol agents. I had 
recommended that the service side of the INS should be spun off as a 
separate entity that would rely on the special agents to conduct field 
investigations, when appropriate, to seek to uncover immigration 
benefit fraud, a critical issue that is all but ignored and neglected.
    As we know, since the formation of the Department of Homeland 
Security the immigration benefits program has, indeed, been placed in a 
separate bureau and in addition, enforcement elements of the former INS 
have been merged with the U.S. Customs Service to form the Bureau of 
Immigration and Customs Enforcement. Additionally, other agencies have 
been added to the DHS; the Secret Service, the Transportation Safety 
Administration and the GSA Police. To further complicate matters, the 
current structure divides interior enforcement of the immigration laws, 
from the enforcement of the immigration laws along the border and at 
ports of entry. The inspectors and Border Patrol agents are now part of 
CBP or Customs and Border Protection. We need to fortify our nation's 
exterior borders but not create bureaucratic borders between these two 
law enforcement agencies that share responsibilities for a common 
mission.
    It is my opinion, and the opinion of many of my former colleagues 
at the former INS, that this management structure is unwieldy and 
ineffective. The enforcement of the immigration laws is critical and 
shares little with the other agencies which have been combined with the 
former INS. The mission of each of these agencies is critical, but also 
unique. The mission of the former U.S. Customs Service bears little in 
common with the work and priorities and orientation of the former INS. 
In fact, prior to the merger, Customs was a division of the Treasury 
Department and the INS was a division of the Department of Justice. Its 
primary responsibility was to prevent contraband from entering the 
United States and to collect tariffs and duties. Customs is responsible 
for the movement of goods and currency across our nation's borders.
    The INS was concerned with the movement of people across our 
nation's borders and has been involved with issues that more closely 
paralleled what the employees of State Department, the Labor 
Department, and the FBI are involved with. To re-enforce this point, I 
would point out that while it was relatively rare for INS agents to 
work with their Customs counterparts it was relatively common for us to 
work with agents of the other agencies I have just mentioned. The 
primary similarity between Customs and the INS was the border. Once you 
remove the border from the equation the differences become obvious and 
profound.
    Since the merger of INS into ICE the new special agents who are now 
being trained are no longer even receiving Spanish language training. 
It is estimated that some 80% of the illegal alien population is 
Spanish speaking. This language training was an integral part of the 
curriculum for all new enforcement officers at the old INS. You cannot 
investigate people you cannot communicate with. It is worth noting that 
most of the Special Agents-in-Charge of the ICE offices came from the 
U.S. Customs Service further eroding the immigration mission. I have 
come to think of the current situation as the ``Customization of 
immigration law enforcement.'' I have been told that few, if any 
employers of illegal aliens were fined under the auspices of the 
employer sanctions program in the United States last year. 
Additionally, the investigation of immigration benefit fraud has been 
relegated, from what I have been told, to being pursued by very few 
field agents and computer systems.
    We are currently engaged in a war on terror where control of our 
nation's borders is critical to the outcome of this battle where the 
stakes are so high. In order for the borders to be secured we need to 
have a coordinated enforcement program that creates a seamless effort 
from the borders to the interior. This can best be done, in my 
estimation, by putting the CBP and ICE under one roof. It is also 
essential that separate chains of command be established for the 
immigration enforcement program with specific training and funding and 
accountability. This is the era of the specialist. One size does not 
fit all. It is critical that our nation gains control of its borders 
and the entire immigration bureaucracy if we are to protect our nation 
from illegal immigration. Illegal immigration has a profound impact on 
more other aspects of this nation than does any other issue. It impacts 
on everything from education, the environment, health-care and the 
economy to criminal justice and national security. It is vital, in my 
view, that this mission be effectively dealt with. The current 
structure does not provide the framework or leadership to enable this 
to happen. Morale among the former INS personnel is at an all-time low. 
Clearly this situation needs to be remedied. A reorganization such as I 
outlined would represent a major step in the right direction.
    I look forward to your questions.

    Mr. Rogers. Our next witness is Mr. David Venturella, 
former Director of the Office of Retention and Removal 
Operations, and we look forward to your comments.

                 STATEMENT OF DAVID VENTURELLA

    Mr. Venturella. Thank you. For the record, I am from 
Chicago, so I may need an extra 30 seconds.
    Mr. Rogers. We will work with you.
    Mr. Venturella. Mr. Chairman and honorable committee 
members, I would like to thank you for the opportunity to 
testify today, an honor to appear before you to discuss the 
matter at hand.
    In an 18-year career in law enforcement, I have worked as 
an entry-level deportation officer with the former Immigration 
and Naturalization Service to overseeing the detention and 
removal operations of criminal and illegal aliens as the Acting 
Director of Detention and Removal Operations within U.S. 
Immigration and Customs Enforcement.
    The creation of Homeland Security was one of the greatest 
and most significant realignment efforts in the Federal 
Government in over 40 years. The goal of the established 
Department to break through the layers of bureaucratic red tape 
and turf wars that existed between various law enforcement 
agencies and focus the mission of government on protecting our 
Nation and its people will be achieved by asking the questions 
such as the ones presented here today. The question of this 
hearing should be should we possibly merge ICE and CBP, and is 
there a benefit to doing so?
    While I applaud this committee and others for recognizing 
that ICE and CBP are not functioning at their optimum level and 
looking at options to fix that situation, it is my humble 
opinion that an option to merge the two organizations is not 
necessary at this time and may well cause the Department to 
move backwards.
    The creation of DHS provided an opportunity to take a fresh 
look at how the former Customs Service and Immigration and 
Naturalization Service could maximize their effectiveness by 
aligning all of the right pieces to carry out its important 
missions. Unfortunately, that has not occurred. In particular, 
the potential envisioned by the creation of an enforcement 
agency has not been fully realized. Instead, I would recommend 
a thorough examination of the components of each bureau and 
redistributing programs to provide a logical alignment of 
operations, assets, as well as the integration of appropriate 
resources.
    In that vein, I would suggest strongly placing customs and 
agriculture and port assets under our Customs Bureau, and 
immigration and enforcement assets under an immigration bureau. 
The Federal Protective Service and the Federal Air Marshals 
should be moved elsewhere in the Department. They don't fit. It 
doesn't make sense. The experiment of forcing square pegs into 
round holes and joining numerous programs under one roof has 
served merely to diminish the Department's focus on 
enforcement.
    While the leadership at ICE had the most difficult job in 
the three immigration bureaus in addressing the critical 
infrastructure issues, which are hampering its ability to 
execute just basic functions, the fact remains that neither ICE 
nor CBP have plans to complement one another, nor are they 
capable of successfully moving forward. It is vital to 
recognize that the two bureaus barely interact. When they do, 
they argue over budget, operation and jurisdiction.
    This is not to say that there have not been successes at 
integration. The Arizona Border Control Initiative, the 
expansion of expedited removal between ports of entry, and the 
publication of joint detention priorities are a few of the 
areas where the two bureaus working with the Border and 
Transportation Security Directorate have been able to work 
together to increase the effectiveness and inefficiency of 
operations. However, all too often BTS, which has insufficient 
resources to properly integrate the agencies, has been forced 
to waste their scarce resources and staff mediating disputes 
between these agencies instead of developing strategy and 
integrating operations to fulfill the Department's mission.
    Whether the decision is ultimately made to merge ICE and 
CBP or not, real issues will remain unless the underlying 
vision and mission occur in a unifying manner. If ICE and other 
Homeland Security agencies do not have the proper strategic 
planning, mission focus and strong leadership, their goals will 
remain unreachable, and our country will remain vulnerable.
    Aside from the organizational issues that are being 
contemplated today, this committee must look at major policy 
issues. Throughout my 18 years of service in the former 
Immigration and Naturalization Service and Immigration and 
Customs Enforcement Bureau, this country has lacked a clear 
policy in immigration matters.
    Congress and the administration must send DHS a clear 
signal on immigration policy. This lack of direction has made 
the missions of the current agencies responsible for enforcing 
these statutes more confusing and complicated. Unfortunately 
for the Department, there are many dedicated individuals who 
often, without the appropriate resources, clear mission and 
strategy, continue to perform the impossible day in and day 
out. Within that same breadth, the Department, and in 
particular ICE, has lost many talented individuals who can no 
longer wake up each day to face those trying circumstances.
    Now it is time to reexamine not just organizational issues, 
but again the larger issues, policy, strategy and mission.
    Again, thank you for the opportunity to testify. I welcome 
the opportunity to answer any questions you may have.
    Mr. Rogers. Thank you for that statement.
    [The information follows:]

 Prepared Statement of David Venturella, Former acting Director of the 
               Office of Detention and Removal Operations

    Mr. Chairman and honorable Congressional Members, I would like to 
thank you for the opportunity to testify today and I am honored to 
appear before you to discuss the matter at hand.
    In an eighteen year career in law enforcement, I have worked as an 
entry-level deportation officer with the former Immigration and 
Naturalization Service, to overseeing the detention and removal efforts 
of criminal and illegal aliens in the United States as the acting 
Director of Detention and Removal Operations within U.S. Immigration 
and Customs Enforcement, or ICE.
    The creation of the Department of Homeland Security was one of the 
greatest and most significant re-alignment efforts in the federal 
government in over 40 years. The goal of the established Department to 
break through the layers of bureaucratic red tape, end the turf wars 
that existed between various law enforcement agencies and focus the 
mission of government on protecting our nation and its people will be 
achieved by asking questions such as the one presented here today.
    The question of this hearing is. . .should we possibly merge ICE 
and CBP and is there a benefit to doing so? While I applaud this 
committee and others for recognizing that ICE and CBP are not 
functioning at their optimum level and are looking at options to fix 
that situation, it is my humble opinion that an option to merge the two 
organizations is not necessary at this time and may well cause the 
department to move backwards. The creation of DHS provided an 
opportunity to take a fresh look at how the former Customs Service and 
Immigration and Naturalization Service could maximize their 
effectiveness by aligning all of the right pieces to carry out its 
important missions; unfortunately that has not occurred. In particular, 
the potential envisioned by the creation of an enforcement agency has 
not been fully realized. Instead, I would recommend a thorough 
examination of the components of each bureau and redistributing 
programs to provide a logical alignment of operations, assets as well 
as the integration of appropriate resources. In that vein, I would 
suggest that you strongly consider placing customs and agriculture 
assets under CBP and immigration enforcement assets under ICE. The 
Federal Protective Service and the Federal Air Marshals Service should 
be moved elsewhere in the department. The experiment of forcing square 
pegs into round holes and jumbling numerous programs under one roof has 
served merely to diminish ICE's focus on enforcement.
    The leadership at ICE had the most difficult job of the three 
immigration bureaus in addressing the critical infrastructure issues 
which are hampering the ability to execute basic functions. The fact 
remains that neither ICE nor CBP do not have plans that compliment one 
another nor are they capable of successfully moving forward. It is 
vital to recognize that the two bureaus barely interact and when they 
do, they argue over budget, operations and jurisdiction.
    That is not to say that there have not been successes in 
integration. The Arizona Border Control Initiative, the expansion of 
expedited removal between ports of entry, and the publication of joint 
detention priorities are a few of the areas where the two bureaus, 
working with the Border and Transportation Security (BTS) Directorate 
have been able to work together to increase the effectiveness and 
efficiency of operations. However, all to often, BTS, which has had 
insufficient resources to properly integrate the agencies has been 
forced to waste its scarce staff and resources mediating disputes 
between the bureaus instead of developing strategy and integrating 
operations to fulfill the Department's mission. Whether the decision is 
ultimately made to merge ICE and CBP or not- the real issues will 
remain unless the underlying mission, vision and planning occur in a 
unified manner.
    If ICE, CBP and other Homeland agencies do not have the proper 
strategic planning, mission focus and strong leadership, their goals 
will remain unreachable and our country will remain vulnerable.
    Fortunately for the Department, there are many dedicated 
individuals, who, often without the appropriate resources, clear 
mission and strategy, continue to perform the impossible. Within that 
same breath, the Department, and in particular, ICE has lost many 
talented individuals who could no longer wake up each day to face those 
same trying circumstances.
    It is time to re-examine not just organizational issues, but the 
larger issues of policy, strategy and mission.
    Again, thank you for the opportunity to testify regarding this 
important issue. I welcome the opportunity to answer any questions that 
you may have.

    Mr. Rogers. I thank all of you for what I think are very 
thoughtful statements and helpful, very diverse.
    I would like to start off the questioning and would remind 
everybody that we are going to try to stick to the 5-minute 
rule on the committee with our questions as well, and I will 
try to set the pace for that.
    In listening to the statement, I thought about an article 
that I read recently by Asa Hutchinson just as he was about to 
leave his post. The Under secretary was urging that we not undo 
2 years of productive growth and development. He considered 
this period, while painful and flawed, part of a developmental 
process that we needed to stick--to adhere to.
    I would like to know from you, Mr. Venturella, would you 
agree with that? Are we in the right path? Is this just growing 
pains that we are experiencing?
    Mr. Venturella. We are certainly feeling growing pains, 
sir. When I was in the Department, we were feeling growing 
pains. Are we on the right path? I just don't know what that 
path is, and I think that is the problem, where are we going 
and how are we getting there. Spell it out to us.
    Again, there are great individuals working in all of these 
bureaus who, if they had the proper direction, the proper 
focus, would carry out and execute perfectly. But that doesn't 
exist. You know, I don't want to blame any individuals, it is 
just, again, some of these--the misalignment of bureaus and 
operations and functions has taken the focus away from the 
Department on what is our strategy, what are we going to do the 
next 3 to 5 year out, and focus on these start-up issues.
    Mr. Rogers. Okay. Mr. Carafano, in your remarks, I think it 
would be fair to say you disagree with former Secretary 
Hutchinson. Would you tell us why he is wrong, and those just 
aren't growing pains that we are living with?
    Mr. Carafano. Yes. I have great respect for what Under 
Secretary Hutchinson did as the Under Secretary for DHS. But he 
was very much focusing on standing up the organization that he 
was handed. I mean, he didn't get a vote on what it should look 
like.
    I think the most salient comment was made by David. I mean, 
we don't--there is no vision of where we are going. Therefore, 
it is kind of a circular debate as is this growing pains or not 
because we really don't know where we are going.
    In my statement I tried to articulate four or five pieces 
of what I thought envisioning the future ought to look like and 
that would serve the basis for reorganization. The top three 
is--one is first you have to focus on the legal means of entry 
in the United States. Those are our vital lifelines. They have 
to be protected. Virtually every known terrorist that entered 
the United States has come in through a legal means, so those 
legal means and infrastructure that support them at the border, 
I think, ought to be our number one priority.
    Internal enforcement and point of origin and point of 
transit, because the worst place to stop this is at the border. 
It is better to keep the flow from the border to begin with, 
and internal enforcement and external pressure, I think, will 
provide much more bang for the buck.
    The third point I try to make is on the border, I think, 
where we really need to put our priority is between the points 
of entry. Therefore, I think what is really required is a 
systems-to-systems approach is what gets the right assets to 
the right place at the right time to interdict threats. And 
what I argued before, there is, I think, a lot of that going to 
be airborne, whether it is the air and maritime interdiction 
capabilities, which is now in CBP, or in pumping up the Coast 
Guard's domain, awareness and capabilities to react.
    But I think we need that kind of document on the table from 
the Department, because otherwise we are really just--everybody 
can make a great compelling case based on what they are 
particularly concerned about, but what is most important is how 
do we reduce illegal entry and unlawful presence overall, and 
how do we keep terrorists and other bad things out of the 
country.
    Mr. Rogers. Excellent.
    Finally, I would like a quick answer of Mr. Klug. You 
talked about how we needed to merge in order to enhance our 
border security specifically. What is our biggest 
vulnerability, in your opinion, without the merger?
    Mr. Klug. I believe it is the flow of intelligence that 
surrounds port security that is our greatest vulnerability.
    Mr. Rogers. Okay. Thank you.
    I now would like to recognize my Ranking Member, my friend 
Mr. Meek from Florida, for questions.
    Mr. Meek. Thank you, Mr. Chairman. I want to thank the 
Members for speaking from their heart today about the direction 
that we are going in, direction that we may take in the future. 
I can tell you that I was sitting here and I was waiting for 
the real what we should do. I am hearing both sides.
    Mr. Chairman, I think we put together a very good panel 
here, because we are going to have some insightful questions 
from members of this committee that will hopefully get us to 
some sort of conclusion, and that conclusion doesn't have to be 
today. I think it is an ongoing discussion and action.
    But I can tell you what I do fear. It is a very difficult 
task that we are talking about here, the enforcement of 
protecting the homeland and also at our airports and seaports. 
I mean, this is a big job. This is not small. So if anyone may 
hear your statements and say, why aren't they coming to hard 
conclusions, I think you have said it best if we are heading in 
the direction that we are heading.
    I don't know quite what direction we should go into now, 
but I can tell you there are two reasons why we are here today. 
One is the GAO report that was produced, and also the 
Department of Homeland Security 2.0, and looking at the 
conclusions of both of those reports, I can tell you that it is 
not something that the Department, from what I can see,
    Mr. Chairman, has embraced, or even having a serious 
discussion about looking at how we can deliver.
    But, Doctor, I want to just ask you a quick question, and I 
know that you have had a lot to say here today, and I can see 
that you spent quite a bit of time on it.
    Originally we started out looking at this with four 
principles, four guiding principles, of putting these--in 
having these two agencies separate, and the creation of the 
Department of Homeland Security. One was delivery, control of 
delivery; and also prevention of alien smuggling; and, three, 
detention and removal; and guidance of communications. I want 
to just--I want you to elaborate, and anyone else can elaborate 
with the time that is left, on the end of the fourth point, not 
necessarily in that order, the guidance of communications.
    I think being a past creature of law enforcement myself, I 
know, when we talk about those stovepipes, is very hard, they 
are steel, they are galvanized, they are tribunal, almost. You 
have to either be a part of that agency to receive information. 
As we talk about protecting the homeland, communication and 
information is important.
    So, in your report, in your 2.0 report, did you have any 
findings, or did you come about to any conclusions on how 
communications will be improved if we were to change our 
present structure right now?
    Mr. Carafano. Most of the input was anecdotal, but 
basically it was a lot of stories of coordination that simply 
wasn't required before, because now people are in separate 
buildings. People don't have TDY to go and talk to other 
people. People have to talk to a boss to coordinate, when they 
didn't have to before.
    The other common thing that we heard a lot of was that in 
the old CBP, it was often the investigators that really had the 
big picture and really could work with the border people in 
terms of providing them the context of how what they are doing 
fit in the overall picture, and that made much more better 
internal enforcement investigations.
    Mr. Meek. Anyone else care to elaborate on that?
    Mr. Klug. I would like to echo what the Doctor said, quite 
true, that intelligence and that expertise that was inherent in 
the Customs Service relative to port security, much of that 
expertise was lost when the two agencies were split. And that 
symbiotic relationship I spoke about in my testimony weren't 
flowery words, it was the passionate truth.
    We are collocated. On a formal and informal basis we 
exchange intelligence information, and that led to many 
successful seizures of narcotics. We could have continued to 
take that expertise if we are combined or continue to be 
combined and focused on the war on terrorism. We lost that when 
the two agencies were split, and we are continuing to increase 
that schism as the days go on.
    Mr. Meek. Yes, sir.
    Mr. Cutler. Well, before I became a special agent, I was an 
inspector at Kennedy Airport. The nice thing was that I 
maintained that special relationship with the inspectors. They 
were a great resource for me as an agent, when I made the 
transition to becoming a special agent.
    But I speak to my colleagues today who are agents assigned 
to ICE. There has been literally a barrier that has now gone 
up. They will tell me of instances of law violations are being 
discovered by inspectors who are calling the FBI before they 
are calling ICE. They are saying, why aren't we notified if we 
are supposed to be part of the same organization? There is a 
sense of organization, there is a sense of we are us, and you 
are you, and this didn't happen before. That is why I was 
saying before that we need to build up the exterior borders of 
the United States to protect ourselves from those who would 
come here and harm us. But on the other hand, we need to remove 
all of these barriers that we have erected within the 
Immigration and Customs law enforcement community, because it 
is a community, and we do have to rely on each other.
    But I think the other part of the problem is, though, that 
we just don't have the resources to do an effective job. I just 
want to make one fast point about that. Once again, I have to 
tell you that I am a New Yorker for a reason. New York has 
claimed to be the safest big city in the United States. We have 
8 million people confined to a small area, but we have a police 
force of nearly 40,000 police officers. We have about 2,000 
agents dedicated to enforcing the immigration laws for the 
entire country, where we have an illegal alien population that 
might be twice as great as the number of people who live in the 
city of New York.
    Without the resources, without the detention space, without 
a clear mission, without the political will--and this has been 
a problem from before the merger, we got into this mess--the 
folks who are here illegally in the United States didn't come 
here last Thursday. This problem was building for a very long 
time, so that what we need to understand is historically no one 
has wanted to deal with immigration. People called Social 
Security the third rail. I think if there is a third rail, it 
has been immigration. So I think we really need to come to 
grips with resources as well as management and structure.
    Mr. Rogers. Thank you.
    Mr. Meek. Thank you, Mr. Chairman.
    Mr. Venturella. I do have one final point.
    Mr. Rogers. Go ahead.
    Mr. Venturella. Those barriers have been created, but once 
again it is because of the leadership that has allowed those 
barriers to be created. They have forced a schism between the 
bureaus. On paper, yes, these are our bureaus, but it takes 
leadership to break those down. That hasn't occurred. Again, we 
have lost focus on what the goal and the mission is for the 
Department of Homeland Security.
    Mr. Rogers. The Chair recognizes the gentleman from 
Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman. Let me 
compliment the witnesses on their testimony and let me make 
some suggestions for you, Mr. Chairman. It just appears at some 
point we ought to bring some people from the administration--
    Mr. Rogers. I agree.
    Mr. Thompson.--in and let hear see the other side.
    Mr. Rogers. Exactly. It was on purpose that we brought 
folks from the outside first to get their perspective before we 
had the folks from the inside. But we do intend to do just 
that. I agree with you.
    Mr. Thompson. Because there are some things that are very 
troubling for me. What I hear from people in the field is that 
they want it to work, but the mechanics for that to happen just 
don't happen to exist at this point.
    One of the things I would like to assure Mr. Klug is that 
we need to see the audit of ICE, and we hope to get that audit 
report at some point and review it, because those things help 
us.
    Mr. Chairman, I think we also need to get someone in here 
from ICE to explain that audit to the committee, since we are 
an oversight committee, and we should examine some very glaring 
issues raised in this audit from an oversight and management 
standpoint.
    Mr. Rogers. I agree.
    Mr. Thompson. I guess the last thing is what I got from 
everyone at the table is that you think, given the right 
direction, the merger is good. But unless you get it right, it 
is suspect. Why don't we start with the good doctor and give me 
a personal observation on that.
    Mr. Carafano. I think that is correct. I mean, I think a 
reorganization without a comprehensive vision that tackles 
tough political issues like illegal entry and unlawful presence 
in the United States is not helpful.
    I would certainly agree with the argument that it is a 
resourcing question as well as an organizational question, and 
I think that is part of the study is you never are going to 
have all the money you want. The question is do you have an 
organization that is designed to put the resources where you 
are going to get the biggest bang for the buck to address the 
problem? Any time you ask that decision among multiple agencies 
and the Department, it is just more complex, because you are 
worried about making your agency healthy as well as getting the 
mission done.
    So when you create an operational agency, which has a core 
competency of addressing the problems from end to end--and I 
actually include visa issuance in this--from visa issuance to 
internal enforcement, then hopefully you have somebody at the 
top who can look at the problem strategically and not only say, 
how can I best put my organizational piece to do that, but how 
can I best apply the resources to do that.
    I don't think ICE is ever going to, ever, ever going to 
have the capacity to do internal enforcement, so I truly 
believe it is the one thing we really, really have to do if the 
Federal Government wants to make a substantive contribution to 
this problem. It is never going to happen as an independent, 
tiny little agency sitting by itself, hanging out at the end of 
DHS. It is never going to have the pull, the politics, the 
cover that it needs to do its job.
    Mr. Klug. I am here today at my own expense. I came in from 
New York. I don't represent a foundation, I don't represent a 
union. I come here, I am no longer an employee, so unlike the 
committee, I cannot be promoted to another position.
    I am here out of concern for what I thought was a very 
broken agency, or had become a broken agency. I am here for 
concern of the general American public. I have no other agenda 
other than to speak to the distinguished members of this 
committee to say that what has occurred would have separated 
these two agencies was a flawed idea, and that I am hoping that 
the agency and I am hoping--and I am not so presumptuous enough 
to think that I have the whole picture. I realize that I have 
an opinion predicated upon a relatively short career of 25 
years, but that opinion I am passionate about.
    That is why I am here today, and I think that the best 
thing for the American public is to merge these two agencies 
back together, because that merger would be much more conducive 
to what I think the intent of Congress was when it formed the 
Department of Homeland Security, and that was to protect our 
borders.
    Mr. Rogers. Time has expired on this line of questioning. I 
would like to recognize the chairman of the full committee, Mr. 
Cox of California,
    Mr. Cox. Thank you, Mr. Chairman, and once again thank you 
to each of our witnesses. Like the Ranking Member of the full 
committee, the gentleman from Mississippi, I look forward to 
hearing from the Department of Homeland Security and 
administration witnesses on this topic.
    But I want to thank each of you, because what we have found 
both in this committee, and in our other work in the Congress, 
is that when people leave their service and the Administration, 
when they leave the government and get a chance to reflect on 
their duties, they are oftentimes more candid with us, and we 
are trying to solicit views both from within the government and 
out of the government. We put a lot of weight on not only what 
the government says in defense of its own structures, but also 
what others who spend full time examining these issue think and 
what they have concluded. Therefore, the views of academics, of 
think tanks, of professional associations and so forth are of 
very significant importance to this committee. ?
    And as has been just pointed out, some of you are traveling 
here at your own expense, and we very much appreciate this. 
Make no mistake, we will be hearing from and having very 
serious discussions with, in formal hearings and other fora, 
the Administration on these topics.
    What got us here, of course, is that after Congress passed 
the Homeland Security Act, there was a DHS-initiated 
reorganization plan. So the Homeland Security Act didn't lay it 
out this way. This is not what Congress did, but there was a 
subsequent decision after 2002 the Homeland Security Act 
passed. 2003 was the date of the reorganization plan. There was 
a subsequent decision to do something that may have very 
profound long-term consequences, and that is to separate before 
what had not been separated, immigration enforcement at the 
border from immigration enforcement throughout the rest of the 
country.
    Now, we are all familiar with the problem that we have in 
our Federal system of the bank robber who flees the 
jurisdiction, runs across county lines, and, you know, 
different county sheriffs to go after them across the State 
lines, and different State jurisdictions have to go after them; 
and some of those different turf rivalries in different 
situations of the State, and not too dissimilar with 
experiences we have had between the Federal Government and 
State and local authorities. Some of those things can get in 
the way of doing the job.
    What we found post-9/11 in the 9/11 Commission report, and 
with everything else that has been brought to the table to 
analyze these questions, is that information-sharing and 
accountability and responsibility at the highest levels are 
vitally important if we are going to stop the terrorists from 
exploiting these holes in our system.
    What we are here today to find out is whether or not we 
have such holes in our system; whether or not, as someone flees 
across the border and gets beyond a certain distance so that 
they are no longer within the purview of what we have 
artificially called the border piece, they fall into another's 
jurisdiction. Even though it is all the same Department, the 
hand-off isn't working.
    So I want to put the question to you in that very stark 
way. Are we missing people who could be picked up because of 
the lack of hand-off between CBP and ICE? I will put that 
question to anybody who wants to leap at it.
    Mr. Cutler.
    Mr. Cutler. Yes, I think we are. We have to look at the 
fact that there are so many competing interests, because things 
are driven by interests, as we all know.
    There is a Visa Waiver Program in effect right now, just to 
give you an idea, where people from 27 countries plus Canada 
don't even need to get visas in order to enter the United 
States. It is bad for two reasons. Number one, we don't get the 
right opportunity to make use of biometrics and other methods 
to properly vet people applying for entry in the U.S., 
notwithstanding US-VISIT and so forth. The other thing is 
Congress passed legislation a few years ago that made a crime 
of visa fraud punishable, if it is involving narcotics 
trafficking, by 20 years in jail; 25 years in jail for visa 
fraud if someone is a terrorist. But if you have a visa waiver 
program, those folks are able to come to our country--a guy 
like Richard Reid, the shoe bomber, would have been eligible to 
enter this country without a visa. So if you look at the way 
the various agencies work in fragmented ways that are often 
contradictory, and competing methods, that is one problem.
    The other problem that we deal with is immigration benefits 
fraud. What we saw the terrorists do--and they are very 
sophisticated and very adept at this--is they want to come to 
our country and hide in plain sight. The easiest way to hide in 
plain sight is to get lawful status in the United States. If 
you can get a green card, or especially if you can get a U.S. 
passport, that gives you free access not only to our borders, 
but to virtually all the borders of the countries throughout 
the world.
    The 9/11 Commission found that the ability to travel freely 
and frequently was vital for those characters to prepare to 
attack us.
    Mr. Cox. Mr. Bonner, do you remember not too long ago that 
in the San Diego sector there was an edict issued that the 
Border Patrol officers would go so far and no further and it 
was then publicly reversed? What is the situation now in 
California, and is there an informal point beyond which the 
Border Patrol can't go?
    Mr. Bonner. Yes, there is. And that remains in effect, and 
basically that point is the immediate border vicinity places--
    Mr. Cox. Defined as what?
    Mr. Bonner. It is not strictly defined, but probably 25 to 
50 miles is about the strength of our jurisdiction.
    Mr. Cox. Well, that is a big fudge factor, 25 miles. Now, 
what happens, let us say we are out 25 miles, and then we have 
got the next band of 25 to 50. What is going on in there? Who 
is working that area? Is that ICE, is that CBP, is it both; 
and, if so, are they seamlessly working together?
    Mr. Bonner. No, they are not seamlessly working together. 
There is very little cooperation between the two agencies. The 
current detention fiasco where we have a policy when we catch 
Central Americans, people from countries other than Mexico, we 
do not have bed space to hold those people, so we release them 
into the United States. Then CBP points the finger at ICE and 
says, your end of the boat is sinking.
    This is everybody's problem, yet this bifurcated structure 
pretends that it is just isolated to that one area, when, in 
fact, we all depend on those resources in order to accomplish 
the mission of the agency.
    Similarly, on the interior enforcement, we are told as 
Border Patrol agents, the ICE agents will handle this. Well, we 
know that there are less than 2,000 ICE agents to cover the 
entire country, and we know they are not handling that problem. 
We say, we have the resources, why can't we go there and work 
citizen capabilities and the intelligence that we have? And we 
are told that it is not your job. Well, whose job is it? There 
is just no coordination, no hand-off here.
    Mr. Cox. Apparently no one.
    Yes, Mr. Carafano.
    Mr. Carafano. Just a very quick example, because it is also 
an example of efficiencies. Sea Hawk, which is the operation in 
Charleston, South Carolina, single best port security operation 
I have ever seen. Everybody comes to the table; Federal, State 
and local share assets, share information, absolutely fabulous.
    At the meeting every morning there is a CBP agent, there is 
a ICE agent there. Why? Because there are two separate 
agencies, because--one guy actually in terms of allocating 
resources for what needs to be done and allocating and sharing 
tasks and intelligence can do that very well.
    So we have doubled the force requirement at this center 
simply because we have two agencies there. There is a lot of 
that, I think, inefficiency at many administrative levels when 
you only need one representative to handle this array of tasks.
    Chairman Cox. Mr. Carafano, could you help us understand 
what precisely is the counterterrorism aspect of this problem? 
What is the cost? What are the consequences of this cumbersome 
hand-off right now between what we are artificially calling 
border and interior?
    Mr. Carafano. Well, I think the single greatest one is the 
vast majority of bad things and bad people come in through 
illegal points of entry. What you want to do--those have got to 
be as robust as possible. What you want to do is you want to 
take as many people who are not coming through the legal ports 
and convince them--them that they need to come through the 
legal--so you want to get as many people going through the 
legitimate gates as possible. That is where we are really 
simply failing.
    We are doing a fair job, there is a lot better we can do, 
about increasing the infrastructure at the ports of entry, 
increasing the procedures, making things flow, but still--
surveying things; but we are doing a very, very awful job about 
convincing people that they need to go that route rather than 
the black route. Because we get the people--we get the majority 
of people going through the legal ports of entry. The few bits 
and services that are not coming through are the really bad 
people we want to go after, and then we can use our targeted 
assets to go after them much more efficiently.
    But we have got to do a better job of not just 
strengthening the legal points, but getting the illegal flow 
down, diverting it through the legal mechanism. We are never 
going to do that unless we increase internal enforcement. And 
the lack of cooperation between the border and internal 
enforcement is part of the problem, and the lack of resources 
for internal enforcement is a big part of the problem.
    Mr. Cox. Would any other part of the panel wish to comment 
on that question on the counterterrorism aspect of this 
discussion?
    Mr. Venturella. We miss opportunities every day in the area 
of counterterrorism, because of the lack of intelligence that 
we gather from these activities, the lack of intelligence that 
is passed on to the appropriate agencies. We are missing that 
opportunity to gather that intelligence and determine the right 
strategies and right initiatives to tackle these problems.
    We miss that opportunity every day, from the Border Patrol 
who arrests an individual, finds out there is no detention 
space, and lets that person go. We have lost that individual. 
We have lost that opportunity to gain whatever intelligence we 
could on this on the way, the manner these individuals came to 
the United States to help law enforcement and to secure that 
border.
    Mr. Cox. Thank you.
    Is the green light stuck on?
    Mr. Rogers. That is what I was going to tell you, the 
lights aren't working out here.
    Mr. Cox. I yield back, in that case, Mr. Chairman.
    Mr. Rogers. I will at the 5-minute point tap the gavel so 
you know time is up, and if you will wrap up your point so we 
can move back to the next Member.
    I guess we are back in order. I recognize the gentleman 
from Pennsylvania Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman, and thanks to all of you 
for your very thoughtful testimony here today. I am tempted to 
ask you who is enforcing the border between ICE and CBP, but I 
won't do that. My question though deals with this.
    Mr. Cutler, when you were talking about these bureaucratic 
borders that you have experienced, and you have cited one 
example a few moments ago with the FBI and I guess it was ICE, 
would you give us some more specific examples of these 
bureaucratic examples that you have been experiencing as a 
professional all these years?
    Mr. Cutler. Well, I left the agency before the merger, so I 
am relying on folks that are there. But basically the way it 
stands is that a wall has truly been erected between the people 
at CBP and the people at ICE. It used to be that as an 
immigration agent we were part of INS, and it included the 
inspectors, it included the special agents. We all worked for 
the same district Director, so we were all part of the same 
office.
    They have separate chains of command at this point, so 
everyone now has a sense of competition, this is my territory, 
you are in my domain, and I control this; and people tend to be 
very territorial. The result of that is it that becomes that 
kind of a competition for resources, for intelligence, to take 
the credit for having made the accomplishments, and we can't 
afford that if we are fighting a war on terror or if we are 
fighting a war on drugs.
    People have to cross our borders to get to the interior. It 
is a continuing flow. They don't materialize in the middle of 
the United States. If they land at an airport, they are going 
to see an inspector. If they run the border, then they have 
managed to evade the Border Patrol, or because of a lack of 
resources, the Border Patrol did what T.J. referred to, this 
catch and release program where they are so overwhelmed by the 
numbers of illegal aliens that they have to permit them to 
travel onward with the orders that they are to appear for a 
hearing. What is the rate that shows up, 10, 12 percent, if 
that many? So what we wind up doing is overburdening the 
interior because we can't deal with it at the border.
    We need to understand that this is a whole system. You 
can't address it piecemeal. It is kind of putting a watch 
together. It is great if you have all of these great 
components, but if you don't fit them into that watch case and 
screw them together so that everything measures, that watch 
isn't going to run. We have never put all of these components 
together in a unified program to make certain that the program 
works either.
    Mr. Dent. Mr. Bonner or Mr. Callahan, do either of you have 
specific examples you might like to share with us in this 
committee?
    Mr. Bonner. Sure. The Border Patrol used to have criminal 
investigators within its ranks that reported up through its 
chain of command. We would work very closely with these 
criminal investigators to take down smuggling operations at the 
highest levels, and there was a tremendous amount of 
cooperation. The agents at the field level knew what was going 
on in these investigations and very highly coordinated.
    After the merger those agents were taken and put into ICE, 
and the cooperation--it was as if a wall was erected from that 
point forward; unless you knew people in the organization and 
would go around the walls and make clandestine phone calls to 
try and share information, there was simply no information 
being shared. Now we are not cooperating and coordinating our 
operations, and it is a shame, because a lot is still going on 
at the border in the way of smuggling, but we are not being 
nearly as effective as we used to be in stopping that.
    Mr. Dent. Thank you, Mr. Callahan.
    Mr. Callahan. While there are territorial aspects of it, 
while it is not just within the bureau, you have a fight for 
control within each bureau between the legacy components, the 
INS components and the Customs components. They are fighting 
for control of the budget, they are fighting for control of the 
bureau, and, depending on which office you go to, the focus is 
primarily what that person's background is. In some offices it 
is Immigration, but in a majority it is Customs, and the 
immigration falls to the wayside. You really need to look at 
the leadership and bring in leaders that are going to focus 
equally on both aspects and on the antiterrorism aspects of the 
enforcement.
    Mr. Dent. My final question deals with the Canadian 
situation, Canadian border. Mr. Cutler, you pointed out the 
2,000 Border Patrol for the whole Nation.
    Mr. Bonner. Two thousand special agents.
    Mr. Dent. Two thousand special agents, I am sorry, on the 
border of Canada, more than 2,000 miles long. I guess the 
question I have, it is probably directed more to Mr. Bonner and 
Mr. Callahan, do you believe the consolidation of ICE and CBP 
would enhance the resources along the northern border, 
especially given the--well, specifically given known terrorist 
cells up there. Do you think this merger would help us in the 
northern border?
    I need you to give a quick answer because time has expired.
    Mr. Bonner. Sure, it certainly would help. I would point 
out that the northern border is 4,000 miles long between the 
continental U.S. and Canada. Currently we have currently fewer 
than one--well, we have approximately 1,000 Border Patrol 
agents to patrol that entire area 24 hours a day, 7 days a 
week. We need more resources. I believe that a more cohesive 
structure would allow the Bureau to focus its resources where 
they are needed.
    Mr. Dent. Thank you.
    Mr. Rogers. The Chair now recognizes the gentleman from New 
Jersey, Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman. You know,
    Mr. Chairman, what I have heard this morning is not very 
comforting.
    Mr. Rogers. I agree.
    Mr. Pascrell. Number two, the 9/11 Commission called for an 
addition of 2,000 Border Patrol agents. The President's budget 
called for an addition of 200. So we keep on sliding back here 
and failing to come to grips with the major issue of personnel.
    I want to ask two questions, if I may, Mr. Chairman, two 
areas. Number one, what is the relationship, if any, between--
and I know we are dealing with enforcement agencies--between 
Citizenship and Immigration Services, and what we are talking 
about today, ICE and the Customs and Border Protection? Are 
there any discussions between the two groups? Because if you 
are trying to get people into the legal process of becoming 
citizens, you are doing a lot--not you, personally--you are 
doing a lousy job, and it would seem to me that we would want 
to strengthen that relationship between enforcement and those 
folks who have had the responsibility all the time of trying to 
get people into the legal process, which we want, which makes 
jobs easier for enforcement.
    What am I missing? Mr. Callahan?
    Mr. Callahan. Actually CIS is a missing cog in this whole 
equation. The adjudicators, asylum officers and information 
officers identify criminal aliens and that quite frequently, 
and they actually issue out notices to appear in removal 
proceedings, and what is supposed to happen is they are 
supposed to call up the enforcement branch, usually 
investigations--it could be the detention removal office--to 
have that person come down and actually take them into custody. 
How frequently does that happen? I can't really say. I don't 
think it is happening as often as it needs to. But the short 
answer, we could do a better job at it.
    Mr. Pascrell. Yes.
    Mr. Cutler. Well, you know, there was a program called 
Citizenship USA under the prior administration that wound up 
where tens of thousands of criminals got to be U.S. citizens.
    The reality is we need integrity to the benefits program. 
The GAO did a study 3 years ago that found fraud to be rampant 
and pervasive. Without resources, without people knocking on 
doors to make certain that there is any kind of validity to an 
application, whether it is residency based on a marriage, 
residency based on a job, or application for citizenship where 
the person uses multiple identities, you have people involved 
making claims of political asylum who aren't entitled, who make 
false statements. The only way you are able to determine the 
validity of statements made or the validity of an application 
is to have enough people to knock on the doors and burn shoe 
leather and make field investigations.
    Most people think of interior enforcement to be purely 
reactive, to go out and arrest people who shouldn't be here 
legally. The fraud component is huge. And to go back to what I 
said originally, the ideal situation for a U.S. terrorist is to 
be a U.S. citizen. Someone said that a spy is someone who 
couldn't attract the attention of a waitress in a greasy spoon 
diner. The same thing is true as of a terrorist. They want to 
be able to hide in plain sight. The easiest way to do it is to 
get U.S. citizenship or residency, and if that program lacks 
integrity--and right now I understand there are 6 million 
applications for benefits pending at CIS. How could you 
possibly have integrity? These folks are adept at using the 
system to accomplish their goals. That is why you need the 
resources, and you need a coordinated effort.
    One last thing about the coordination between CIS and 
investigations, I have been told that when they need their help 
to provide them with documents for an undercover operation or 
whatever, they are not getting CIS to cooperate with ICE 
either. So that is another area of vulnerability that hurts the 
operational end of things and makes us again vulnerable to 
terrorists.
    Mr. Pascrell. Thank you, Mr. Chairman. I hope we will heed 
what is being said here.
    I just have one other question, if I may. The Federal 
Protection Services, the primary mission is one of protection, 
community policing, crime prevention, as I understand it, much 
like a traditional uniformed police department. ICE, on the 
other hand, is charged primarily with investigations and 
prosecutions and alien removal.
    Now, I would like to hear your thoughts on whether there is 
more efficient placement of the Federal Protection Services 
within the Department that exist now, and, for example, given 
that the FPS protects infrastructure and doesn't assist State 
and local police with information-sharing, wouldn't placement 
within--on this interesting chart--with the Information 
Analysis and Infrastructure Protection Directorate seem more 
logical? Would anyone care to respond to that?
    Mr. Rogers. A quick answer, time has expired.
    Mr. Venturella. Very quickly. In my statement, I propose 
that FPS should be moved out of ICE. I think there needs to be 
serious consideration whether it actually fits into the 
Department. It is a very hard placement in looking at the 
various functions of responsibilities in Homeland Security. So 
I would raise the question, maybe it should be moved out of the 
Department.
    Mr. Pascrell. Altogether.
    Mr. Venturella. Altogether.
    Mr. Pascrell. Wow. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    The gentleman from Connecticut Mr. Shays is recognized.
    Mr. Shays. Thank you very much.
    When we passed the Department of Homeland Security, it just 
seemed illogical to us on the face of it to separate Customs 
and INS, just to address that issue, I mean, because then other 
things happened afterwards. Was there logic in bringing them 
both together? Shaking the head without speaking is not 
helpful.
    Mr. Cutler. No. As I said during my testimony, Congressman, 
I think it was a mistake.
    Mr. Shays. Okay. I want to know--I am trying to sort out 
who thinks what. Do others disagree with that view?
    Mr. Carafano. Yes. Yes, I disagree. You can--there are 
many, many skill sets and activities within the whole border 
services activity. If you parse them all out into their own 
little tidy area, you would have an infinite number of 
agencies.
    I think, again, it goes back to envisioning the future. If 
the future, again, is to have as broad jurisdiction as 
possible, to have as many integrated activities as possible, 
then that argues for a larger thing. I actually disagree--I 
agree with one criticism at the border. I think one face at the 
border is not what we are looking for in terms of one superman 
who can do everything. What we want, however, I do think, is an 
integrated and coordinated handling of people and things with 
standards in the program.
    Mr. Shays. That is what I want. That is what I want. Tell 
me again why that just doesn't happen. Is it a cultural 
problem?
    Mr. Cutler. I think it is a cultural problem. It is also a 
very different type of investigation. If you are worried about 
people coming across the border, and you are worried about 
processing applications and dealing with visas and that whole 
complex area, that is very different from the movement of goods 
and currency.
    Yes, there is going to be overlap. I mean, goodness, 
everything overlaps into something else eventually, but that is 
why, again, going back to what I said is that Treasury used to 
be the parent organization of Customs, and INS had been under 
DOJ. It is a very different perspective.
    Mr. Shays. I will just say to you on the surface, and we 
will get into this, and hopefully will resolve it, thank God we 
now have a committee that can do it, can resolve it.
    Mr. Cutler. Yes.
    Mr. Shays. It does seem to me this is more of a cultural 
battle, and it does seem to me it is a budgetary issue. I mean, 
we screwed up in who got money and who didn't get money, and 
that is part of the challenge as well. I am struck by the fact 
that investigations just in one group, both enforce--correct? 
ICE and both enforce--not a nod of your head.
    Mr. Cutler. Yes.
    Mr. Shays. But we have put the investigation on one side. 
Should investigation again be on both sides--nodding the heads. 
Anybody disagree with that?
    Mr. Klug. No. Look, again, I am a proponent of the merger 
of CBP and ICE, so I am looking at one investigative unit of 
the two agencies combined.
    Mr. Shays. You would put them all together, wouldn't you?
    Mr. Klug. Yes, I would.
    Mr. Shays. How many of you would put them all together? I 
mean, who wouldn't again? Who would not put--okay, you are the 
lone wolf here. Is this an employee issue?
    Mr. Cutler. I am no longer an employee, as is the case of 
Mr. Klug. I am a former agent here on my own expense. I am here 
because I want to see the mission accomplished, and I don't see 
it being accomplished under the same situation. Now, perhaps 
they could be under the same umbrella, but I really believe you 
need separate chains of command with budget and accountability 
and training that is specific to each of the two tasks.
    Mr. Shays. In my world I would like people to have skills 
that could do both sides of it. I would like it to not be just, 
you know--yes, sir.
    Mr. Cox. I am sorry, would you yield for a second?
    Mr. Shays. Yes.
    Mr. Cox. I want to understand the witness's answer. What 
you want to keep separate with separate chains of command is 
Customs on one hand--
    Mr. Cutler. That is immigration.
    Mr. Cox.--and Immigration Enforcement on the other hand. 
But what you are not saying is you want to keep the border 
interior separated.
    Mr. Cutler. No, no, no. I want those integrated, 
absolutely. We should not be drawing that distinction, 
absolutely not.
    Mr. Cox. Thank you, Chris.
    Mr. Carafano. Just very quickly, I just want to point to 
something that is in my prepared testimony. I think this is an 
issue not of organizational design, but an issue of human 
capital development. I think that we have to separate those 
out, because I think a lot of the points that he has raised, 
and a lot of the points that you have raised, can be addressed 
through career patterns, the career progressions and the 
operational assignments that you can give somebody. But that 
can all take place within the rubric of one unified agency.
    What I would hate to see is--which is the point the 
Department tried to argue--this is too complicated to fit in. 
Well, that is like saying the Army couldn't fit everything in. 
It is not true.
    Mr. Shays. I hear you. I am sorry, I missed your opening 
statement, so I didn't hear that. Yes, sir.
    Mr. Callahan. Yes, sir. The investigations and the 
inspections program both, what they have done is created a 
jack-of-all-trades and a master of none. You need to have some 
specialization. I think breaking off or splitting up--at least 
the management levels of it, I am sorry, splitting off the line 
employee part of it, where you have line employees that are 
working on investigations that Customs traditionally handled 
and investigations that Immigration traditionally did, is a 
good idea and integrating the management aspects of it. The 
same with inspections.
    Mr. Shays. Just very quickly, does anyone here believe that 
establishing the Department of Homeland Security was a mistake?
    Mr. Venturella. No.
    Mr. Shays. I am going to assume that all of you think it 
made sense, so now we have to make it work. I am seeing nodding 
of the heads.
    With that, I would yield back.
    Mr. Rogers. Thank you. The gentleman's time has expired. 
The gentlelady from the Virgin Islands, Mrs. Christensen is 
recognized.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I can see that this subcommittee is going to be very busy, 
because the issue we are discussing today goes beyond CBP and 
ICE. It is an issue of whether what we did in the legislation 
or the Department as implemented is effective or not, and it 
goes to the heart of the matter.
    I am going to try to get through three questions real 
quickly. I would appreciate as abbreviated answers as possible. 
I hope we have more than one round.
    Dr. Carafano, in reading--I am going to ask you about 
someone else's testimony. Mr. Venturella said merging now, if I 
understand you correctly, would set us back instead of moving 
us forward; it would lose valuable time.
    Recognizing the need for effective border and INS control 
now, does the need to fix it quickly override the 
recommendation to merge, or do you disagree that merging now 
would impede improving the operations that we need today?
    Mr. Carafano. Yes. I would go back to my testimony. I think 
we have got to answer the three basic questions, will it help 
improve the overall management of the Department, will it 
create a strong operating agency, will it take us towards the 
ultimate organization that we want to do this in the future. If 
the answer is yes, then I would say do that as quickly as 
possible.
    I do think the pain is worth the gain, because this is a 
long-term problem. The pain we feel--you know, took 5 years to 
plan 9/11, 3 years to plan Madrid. The next problem may not 
happen. If this was a 1-year problem, I would say let us live 
with it, but this is a generational issue.
    Mrs. Christensen. I am clear where you are in the merger. I 
wanted to ask Mr. Klug and maybe Callahan and Bonner if they 
could answer quickly. As I read your testimony, it causes me to 
wonder whether the issue is whether there are two separate 
agencies operating without coordinating, or is the main issue 
the structuring within each agency, having--having this FPS and 
ICE, unequal infrastructure, unequal funding, unequal pay? What 
is the core of the issue for you? I will ask Klug first then.
    Mr. Klug. I believe that you created two new agencies. I 
believe those agencies--an actual byproduct of the agency is 
parochialism. That is predicated upon two agencies now fighting 
for resources and budget resources.
    Mrs. Christensen. So could it be fixed by just evening out 
the resources, lowering salaries? That was--
    Mr. Klug. They will always be competitive, they will always 
believe that the measurement of success will predicate the 
amount of money and resources they will get. That is where the 
parochial comes in. If we supply this information and the other 
agency gets the headlines, they are going to be seen by 
Congress as more prominent and more noteworthy, and they will 
get the resources in budget.
    Mrs. Christensen. So the problem is that it needs to be 
merged, not that there is an inequality. Does anybody disagree? 
Mr. Venturella.
    Mr. Venturella. Again, I disagree with the notion that the 
merger is the cure-all for all of this. Again, I look at 
leadership of those two bureaus and within the Department. Why 
is this pettiness allowed to occur? Why has it festered for 2 
years, and why haven't you done something about it? We can 
better organize the Department. There is no question about 
that; make it more efficient, accomplish the mission.
    But, again, it is going to take strong leadership to make 
that happen, and I don't see that. And it is a shame, because 
there are individuals here that currently work for those 
bureaus who day in and day out struggle with the pettiness with 
the division that has been created.
    Mrs. Christensen. Well, won't the merger fix that?
    Mr. Venturella. I don't think so. Again, I think you need 
strong leadership, you need somebody who is visionary, and you 
need to have a plan. If you ask any of these individuals what 
is the mission, what is the plan, you will get different 
answers. There should be one statement coming from these 
individuals.
    Mrs. Christensen. Let me try to get to my third question. 
When we are concerned--this is to Mr. Klug. We are concerned 
that ICE and CBP were created from Customs and legacy and INS 
components of Customs, and ICE inspectors lost their best 
source of intelligence and law enforcement information. Given 
that Customs inspectors are charged with assessing the risk of 
cargo containers and working with industry to secure these 
supply chains, I worry that CBP programs will not achieve their 
full potential because of the disconnect between ICE and their 
inspectors.
    So what was the relationship before, between inspectors and 
investigators, and what is it now? Are there any benefits to 
the current structure, and what has the impact been on the 
cargo security mission of CBP?
    Mr. Klug. I believe I mentioned in my testimony earlier 
that the symbioism that existed between the two agencies, there 
is a rift occurring, and that is basically that--and some of 
the gentlemen alluded to it before--that when there is a 
discovery, when there is intelligence and there is some 
information, it is passed to other agencies as opposed to ICE. 
For example, narcotics issues, we have heard instance of where 
the Drug Enforcement Administration was called rather than ICE. 
We have heard the FBI being called with information.
    Mrs. Christensen. Specifically I asked about the cargo 
security.
    Mr. Klug. The cargo security. Again, the intelligence and 
information that is guarded on both sides of the house remains 
separated, rather than combined, so the intelligence that is 
gathered by the ICE agents, by the ICE intelligence analysts, 
is separate, in a separate component, in a separate database. 
That is the intelligence gathered by CBP and their intelligence 
analysts. So two separate analytical groups, both gathering 
intelligence, and then exchanging it freely, or certainly as 
freely as it was when it was one intelligence unit.
    Mr. Rogers. All right. The gentlelady's time has expired.
    The Chair recognizes the gentlelady from Florida.
    Ms. Harris.
    Ms. Harris. Thank you, Mr. Chairman.
    I am going to ask Mr. Klug, with reference to your last 
question, you said it has to do more with leadership or vision 
problem between the two agencies. Could that be fixed if 
questions of leadership and vision were clarified?
    Mr. Klug. I believe that a stronger mission statement would 
be helpful. In ICE currently, I believe, it is a very vague 
mission statement that we had. Leadership comes and goes; 
institutions remain.
    Ms. Harris. Right.
    Mr. Klug. So trying to find strong leaders and predicate 
your hopes of the success of an agency on the next successor.
    Ms. Harris. Do you think the old INS and Customs worked 
more efficiently than this does today?
    Mr. Klug. Yes, absolutely.
    Ms. Harris. Do you basically think that it was just ill 
conceived, and how it was set up that they are trying to do 
their missions, but it was both ill conceived?
    Mr. Klug. Which I believe it was ill conceived, yes.
    Ms. Harris. Let me go to Mr. Cutler, back to some of your 
questions, some of your statements. Do you think we could 
better reconcile the policies and practices of these two 
agencies so they were cooperating instead of competing? Or, 
again, do you think it is just ill-conceived from the outset?
    Mr. Cutler. Are you referring to the CBP and ICE?
    Ms. Harris. Yes.
    Mr. Cutler. Yeah, I think that you could put ICE and CBP 
together because it is a continuum. People are trying to move 
from the border to the interior. I mean, that is the goal. 
Which is, by the way, why when Border Patrol is forced to do 
catch and release, that is so troubling; because the goal that 
the aliens had in the first place when they ran the border was 
to get to the interior.
    Ms. Harris. Given more time, do you think these two could 
work these issues out to be able to have a continuum, or do you 
think on the face of it it just isn't going to work that way?
    Mr. Cutler. No. I think by compartmentalizing the way they 
have, it is not working. And I don't think that the passage of 
time is the issue. I think it is a matter of recognizing that 
everyone has to feel that they are on the same team. The only 
reason I wanted to divide the immigration chain off is to make 
sure that people get the specific training, because it is a 
very arcane set of laws. It is a big body of law, and it is on 
both sides. But as far as the border and interior, we should 
not be drawing that distinction because it is a continuous 
process.
    Ms. Harris. This may be a question better asked of the 
administration. But in your time there right now, presently I 
understand there is a 300 million shortfall in ICE, and there 
is that same amount of surplus over at CBP. Is there anything 
you can tell me about that, or anything anyone else can?
    Mr. Cutler. All I can say is this goes back to the idea 
that if they were able to have the funding available, with the 
understanding that it is a continuous process from the border 
to the interior, I think you would eliminate some of those 
problems.
    Ms. Harris. Thank you, Mr. Cutler.
    Mr. Carafano. I just--there is a resource issue, and I do 
think combining the organizations will help solve that. And I 
will give you one very small example. The 287(g) program is a 
provision of the INA code which allows for State and local 
enforcement agents to work under an ICE investigator. It is a 
terrific problem. Florida has one of the two pilot programs. It 
has been great. It is dying on the vine because ICE simply 
doesn't have money to train a new set of investigators because 
they have moved on. I mean, so those things are just dying 
because you have an agency which is fighting for its little 
piece of the pie rather than being considered as part of this 
comprehensive problem of an end-to-end thing, and then somebody 
at the top saying, you know, where can we put the investment to 
get the biggest bang for the buck.
    Ms. Harris. Let me ask you, we have spent millions of 
dollars branding, promoting, marking, just making the 
delineations and the communications and the IT. Obviously, you 
feel it is worth the millions to go back or to reorganize 
again. And do you think that the short term and the time that 
we won't be as effective is worth the long-term gains? Do you 
think there are savings in management?
    Mr. Carafano. I think there is definitely savings in 
management. But I think the difficult real political things 
will never get done in the current organization. I will give 
you another example, which is Shamira, requiring the Homeland 
Security Act of 2002, a single integrated IT system that would 
start from visa issuance all the way through internal 
enforcement. Zero progress has been made to doing this, and 
zero progress will be made because it is too complex a program 
coming across too many different departments and agencies to 
ever get anywhere. If you had one guy or one woman who was 
responsible for--if you had emergency BP in ICE, and if you had 
emergency BP in ICE with visa enforcement in it, and you had 
one person who had 85 percent of that responsibility for that 
program, then you might actually see something happen.
    Ms. Harris. One last question. Mr. Venturella, you said 
that the staff had never been kind of more discouraged. And I 
am really concerned about that, particularly when we read that 
we are having record seizures of drugs and interception of 
smugglers and money. What is it; what is not working? I mean, I 
know the accomplishments are there.
    Mr. Venturella. To answer very simply, again, the creation 
of Homeland Security was an opportunity to do things better, to 
accomplish a unified mission, protecting this homeland. 
Everything that--and any one of us can stand up and say, day in 
and day out this is why I get up and go to work, because I have 
a mission I can stand behind. And I just don't see that coming 
to fruition. Again, 2 years have been wasted for an opportunity 
that we had to make things better.
    Ms. Harris. Do you have FBI or State Department 
interference? Do you think there is a better continuum?
    Mr. Venturella. I don't look at that as interference. I 
look at that as an opportunity to work with law enforcement and 
to work with the diplomatic community to accomplish the 
mission. And--I would leave it at that.
    Ms. Harris. Thank you.
    Mr. Rogers. Thank you. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Texas, Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    And thank you, distinguished panelists, for being here 
today. It has been insightful. And I can't say it is the first 
time I have heard these responses.
    When I go back to my district, and I am in a border State, 
the number one issue is border security. I believe the Federal 
Government has failed us in this mission. And it is no longer 
just a question of immigration; it has become a question of 
national security in the post-9/11 world.
    Oftentimes in my prior job I worked with Federal law 
enforcement on the border, and I heard two things that I heard 
from the panelists today; and that is, not enough agents, not 
enough space to lock out the people that we apprehend on the 
border.
    It is astonishing to think there are 40,000 New York police 
officers, and yet we only have 2,000 Border Patrol special 
agents on the border. The catch and release program, Mr. 
Cutler, that you referred to, which, as you know, when you are 
at Kennedy Airport, Ramzi Yousef slipped through our system 
with that catch and release program.
    These are issues that I am concerned about. I know the 
intel bill authorized these additional agents and bed space. I 
have sent a letter to appropriations for the funding for these 
issues. I see these two issues as probably the most two 
important to facing border security.
    But what I would like to hear, because we are here on the 
topic of merger, is whether this merger would in fact expedite 
the processing and deportation of illegal aliens. Would it 
essentially tear down the stovepipes and the walls, or are we 
just moving boxes around?
    Mr. Cutler. Well, I believe it would help. And there are 
two reasons why it would help. Number one, again, I don't think 
that these folks should be thinking, well, I work for this 
little group and he works for that group over there. We need to 
understand we are under the same roof, doing the same job.
    But also please understand, you can't control the border 
purely at the border. Nobody would break into an amusement park 
if they couldn't go on the rides. Once people get past the 
Border Patrol or they get past that inspector at the airport, 
they know that there is virtually no chance that anyone is 
going to look to stop them from doing whatever they want to do 
in the United States. There are no employer sanctions, there 
are no real fraud investigations being conducted. So if you can 
get into the interior, you get involved in a marriage fraud, 
you get whatever you want to do, and you are here. And under 
those situations, the pressure on the border is tremendous.
    I know that Mr. Bonner testified last week about the lack 
of Border Patrol agents, that 2,000 were authorized, 210 are 
going to be hired, according to what the President wants. 
Tomorrow I will be testifying before that same subcommittee, 
the Immigration Subcommittee, about 143 new special agents to 
be hired versus the 800. I thought the 800 was anemic; 143, I 
don't want to tell you what I think that constitutes. It won't 
even cover attrition.
    So we need the resources, but we need to coordinate the 
resources to take the pressure off the border also. This is a 
closed system, Okay? If you tighten the border to the point 
where nobody can get across the border, the people that want to 
come here aren't going to throw their hands up and say, let us 
go to New Zealand. They will land at an airport, they will sky-
dive. They are going to do whatever it takes to get them here. 
And we similarly have to look at this as an overall system and 
have a systemic approach to solving the problem. And we can't 
do it by fractionalizing components that are responsible for 
the same mission.
    Mr. McCaul. Mr. Bonner, do you have any comments on that?
    Mr. Bonner. I agree wholeheartedly. I think that if you are 
looking for a solution to these problems, you have to look at 
it globally. You can't just focus all of the resources on the 
border. You have to understand why people are coming here. 
Ninety-eight percent of the people coming to this country do so 
because they are looking to improve their economic life. As 
long as we allow employers to continue to hire people, they 
will continue to come, and we are just shoveling sand against 
the tide. That law has to be toughened up. Make it simple for 
an employer to figure out who has a right to work in this 
country. And if they choose to hire people who have no right to 
work in this country, take out a big hammer and smack them real 
hard with it, and then everyone else will sit up and take 
notice, and a lot of the problems that we have on our borders, 
people coming across illegally, will be solved.
    Mr. McCaul. I agree. And I think there has been a lack of 
will to enforce or support these laws. We have an estimated 10 
to 15 million illegal aliens in this country in the interior, 
and I see little movement in the area.
    Mr. Callahan. If I can add, moving the boxes around isn't 
enough. You have to ensure that the budgets or the 
appropriations language that comes out specifically goes into 
more detail on how much is going to be spent, and where; and 
don't allow them to move funds from interior enforcement, 
detention removal program, and investigations over to the 
border just because, as we know, the squeaky wheel gets the 
grease. And the border is the squeaky wheel. And that is what 
happens more often than not. So mergingSec.  and merging these 
people together or these organizations together will give 
whoever leads it the chance to move funds over to that squeaky 
wheel.
    Mr. Rogers. The gentleman's time has expired.
    Mr. McCaul. And would it enhance communication as well?
    Mr. Callahan. Possibly.
    Mr. Rogers. Thank you. The gentleman's time has expired.
    Mr. Callahan. Thank you.
    Mr. Rogers. The Chair recognizes the gentleman from 
Washington, Mr. Reichert.
    Mr. Reichert. Thank you, Mr. Chairman.
    I think everyone in this room and on the panel and on the 
committee recognizes we have got to get this right. We 
absolutely have to get this right. And I want to thank all of 
you for being here today, and I especially want to thank all 
the men and women who serve out there today protecting our 
country.
    I want to let you know that I have had the opportunity of 
working with all the agencies that we have talked about today 
on a professional level, along with the FBI and Secret Service 
and ATF and DEA and all those others. And it seems to me that 
on the street level the work usually gets done. I mean, the 
people on the street get it done. They are working together 
usually, and they are cooperating.
    But what I hear today is that in fact what has really 
happened is it has even collapsed in that arena; that the 
people who are working--and correct me if I am wrong--but the 
people who are working day to day even are having difficulty 
communicating, sharing information, and deciding whose job is 
whose. And when that happens, we have got a serious, serious 
problem.
    You have laid out the problem very, very clearly. And just 
let me go over just some of the things that I heard today.
    Number one, there is no vision. There is no mission. There 
is no goals. There is no resources. There is no plan. And I 
would imagineSec.  I didn't hear this mentioned today, but I 
would bet you there is low morale. That was a good guess on my 
part.
    So my question is--and really today the purpose that we are 
here, and I was just looking at, does the current 
organizational structure best serve the U.S. homeland security 
interests? And what I am hearing today is no. And then we 
also--then adding onto that a second question. We are 
considering an additional reorganization.
    My question to you is, shouldn't we fix the current 
structure the way it exists today and then move on to a 
reorganization? Because I think that eventually we have to 
come--the cultural mindset from pre-9/11 has to change. We are 
in a different world today, and there has to be a cultural 
change in every agency that serves this country.
    So the first question is, reorganization now, an additional 
reorg, will it make it worse? And the second question is, I 
just want to hear maybe a one--or two-word or one- or two-
sentence comment on what you think, very briefly, your solution 
would be to making this system work.
    Two tough questions in a very short amount of time.
    Mr. Carafano. I will just address the second. I really 
think that the biggest problem is you have 400 secretaries who 
are responsible for kingdoms as opposed to 400 secretaries who 
should be used to provide integrative functions to make all 22 
agencies operate together. So, in my mind, that is the single 
thing that has got to be fixed first.
    Mr. Klug. I do believe that the agencies, the 
reorganization should happen now. I do believe that, in its 
current configuration, it cannot be fixed. I think it is on a 
downward slide. I think morale is on a downward slide. And, 
again, I ask Congress to act quickly in merging the two 
agencies.
    Mr. Callahan. Well, I think that the reorganization itself 
isn't enough. You have to have leadership in place that are 
going to focus on every aspect of the mission and not 
concentrate just on one area or another area.
    Mr. Bonner. I think that you are just rearranging the deck 
chairs on the Titanic if you try and work within the current 
system. You have to break down those barriers. Right now the 
successes we have are in spite of the system, not because of 
the system. And it has to be changed.
    Mr. Cutler. I think we need to have the political will to 
bring about the changes. I think that there has been a lack of 
political will to enforce the laws the way they need, and I 
think we have a lack of resources, and that is why you have no 
goal. I think we have to address all of it, but I don't think 
the current structure meets the needs. So you have to do all of 
those things and understand that our survival really is at 
stake.
    Mr. Venturella. Again, I think there needs to be 
reorganization, but not just ICE and CBP. Departmentwide, you 
need to take a fresh look. In the automobile industry, you 
would be in the process of a recall: You have a design flaw, 
you need to fix it because people could lose their lives. You 
need to fix it.
    Mr. Reichert. Thank you. Just let me make one comment. It 
takes a lot of courage, I know, for you to come and explain 
this so clearly and honestly as you did. And we appreciate it. 
That is the only way that we are going to be able to help. I 
agree with the committee chair, Chairman Cox's comments, that 
now you have a committee that is here to help you, and 
hopefully we can get this thing fixed. So thank you all for 
being here today.
    Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    We had a great morning, very productive. And you all have 
been very helpful, and the members clearly are interested and 
have a lot more questions than they have time. Even though we 
are running long, I would like, though, for the members who do 
have an additional question to have a brief opportunity to ask 
it, so we are going to go around one more time with members 
being given 2 minutes to ask any follow-up questions. And I 
would yield the first question to the Ranking Member, Mr. Meek 
from Florida.
    Mr. Meek. Thank you, Mr. Chairman.
    Hearing a lot about leadership, and I can tell you right 
now as it relates to this full committee--and I don't want to 
speak for the Chairman or the Ranking, but definitely for this 
subcommittee--we definitely have our work cut out. Leadership 
starts here in the Congress. And we have to 9 times out of 10 
do some very unpopular things as it relates to bureaucracies 
and what people are used to. But I can tell you the latter is 
another commission being pulled together like the 9/11 
Commission looking at the failures of which you shared with us 
today. Some of the information that you shared with us today is 
very alarming and disturbing. And I am glad that all of you are 
free to speak to that, and I want to commend all of you as 
Americans, and especially those of you that are either in a 
foundation or not in a foundation or pay for your own ticket, 
appreciate you coming here. It is going to make a better 
security situation for us.
    Mr. Chairman, I can tell you when we do have the Department 
come, I would definitely like to see attrition numbers of 
frontline men and women that are out there doing the hard work, 
what has actually happened prior to the transition and after. I 
think that will be revealing from what I am hearing here at 
this table. And I can tell you right now, in the future I can 
see more officers beingSec.  this Congress pushing for more 
officers out there doing good work. But if we don't have the 
leadership on the management level and the leadership here in 
the Congress to set an environment that they want to serve 
their country in that capacity, then it will be for naught.
    So I just wanted to make a statement. I know some other 
members are going to ask a question. I know that the time is 
running out, and I want to stick to it. I know you have a 
burning question, but if you could probably answer it in one of 
the future questions, I would appreciate it.
    Mr. Rogers. Thank you. And the Chair recognizes Chairman 
Cox.
    Mr. Cox. Thank you very much. I just want to take the 
opportunity once again to thank our panel. And as I was going 
over your testimony, in addition to the oral testimony that you 
provided, the written testimony as well, I was struck by Mr. 
Callahan's very clear statement of the way things stand right 
now. And you are in a good position, Mr. Callahan, to comment 
on this, since you are in the midst of all of it. I just want 
to ask you all to comment on what he has described to us.
    As it stands right now--I am reading from Mr. Callahan's 
testimony--there is a serious lack of cooperation between 
legacy components, INS and Customs, of the two bureaus. That, 
of course, is what we have got to eliminate. We can't have turf 
jealousy, competition, even the old structures, as a result of 
this merger of 22 legacy agencies into the new DHS.
    He goes on to say: The leadership of the former INS and 
Customs Service are, as we speak, locked in a heated battle for 
control of the purse strings. So at least in this description, 
we are being told that the competition exists even at the top. 
And, of course, the leadership of the former INS and Customs 
Service is literally that: people from those two former parts 
of government. So I would like to hear from each of you whether 
or not you see this as a current ongoing problem for the 
management of DHS.
    Mr. Carafano. If I could, just for an example. There was an 
enormous debate over whether to move air and marine 
interdiction from ICE to CBP, a debate which made actually no 
sense if you just looked at the operational needs and where the 
most efficiencies were. But yet they were debating over it 
because it was bodies and spaces and airplanes, and they both 
wanted them, because that is what bureaucracies do. But if 
somebody had looked at it holistically, you would have just 
said, well, this just makes perfect sense.
    Mr. Rogers. Thank you.
    The Chair recognizes the gentleman from Mississippi, Mr. 
Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. It appears that our 
retreat on Monday and Tuesday is paying off. I see very little 
disagreement, and I want to compliment the Chairman for 
providing leadership.
    A couple issues. Number one is I understand that OIG is 
looking into the problems between ICE and CBP, Mr. Chairman, at 
the request of Senator Collins. I need to get some agreement 
with you--I am told that some employees are reluctant to come 
before the committee because of potential retribution from the 
administration. And I would not want any citizen of this 
country to feel like they can't come before this committee and 
tell the truth. And however we need to communicate that, 
through the Secretary or whomever, I think we really need to do 
it. I am told that some individuals who are not in the union 
are reluctant to say things. And I just think we need to get to 
the bottom of it.
    The other thing I want to do--is, one, when the Secretary 
comes, I think he needs to explain to us from a budgetary 
standpoint why the administration didn't request full funding 
of the 9/11 bill. There are just too many things left out here 
that we all agree on, from Border Patrol agents to beds for 
detainees and other things, that we absolutely ought to be 
funding.
    Lastly if I could get someone to brief me on this notion, 
maybe after the hearing, on detainees who are released and 
turned loose never to be seen again. I am told there are 
several hundred thousand of these individuals walking around 
the country.
    Mr. Rogers. Thank you. The gentleman's time has expired.
    The gentleman from Connecticut, Mr. Shays.
    Mr. Shays. I would like to ask if anyone on the witness 
table believes this is not a solvable problem. So all of you 
concur that it is a solvable problem? That is the senseSec. 
    Mr. Cutler. It has to be.
    Mr. Shays. It does have to be. And it is so. I mean, this 
is not something--but I will take a little bit of time. You 
know, there will be a--I think, Mr. Chairman, thank you for 
having this hearing and thank you for the witnesses. I 
appreciate each and every one of your insights. I found in my 
National Security Subcommittee I learn the most, frankly, from 
those who aren't directly in government, because there is a 
candidness that I don't see elsewhere. I want to thank you, Mr. 
Venturella, for your candidness as well. All of you have been 
very helpful. Thank you.
    Mr. Rogers. Thank you.
    The Chair recognizes the gentlelady from the Virgin 
Islands, Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. I do think this 
is an important hearing as well. And just like my other 
colleagues, I feel that my district could be the poster child 
for the insecurities that exist at our border, and we need to 
fix the system.
    And I would also add that, taking away from some of the 
discussions I have had at home with my local and Federal law 
enforcement, it is clear that they would definitely welcome and 
support any fix, whether it is a merger or any other way of 
fixing it. And I find--I want to thank everyone for your 
testimony. It has been very, very helpful as we move forward.
    I probably would ask one question. Mr. Bonner, you and 
several others spoke about--to me--against the trend, when you 
spoke about the need for specialization in this one face at the 
border environment that they are in. Can't this be overcome? 
Can't we continue the one face at the border and overcome this 
need by just increased training?
    Mr. Bonner. I think you are asking an awful lot for one 
human being to be expert in all of these three very complex and 
arcane areas. I mean, if you stack the laws and the regulations 
and all of the other information up, each of them is over 6 
inches tall, and we are talking a lot of on-the-job training 
that is necessary to get to the level where I would feel 
comfortable that those inspectors on the front line are doing 
their job as it should be done, picking off those people who 
should not be entering our country.
    Mr. Carafano. It really depends. I mean, a small post at 
the Canadian border, which has very few people that cross every 
day, doesn't need the same kind of staffing and resources as 
LaGuardia and New York City. So one of the arguments I would 
make as well as you want a large robust agency, is you want to 
have the capability in your workforce to tailor it to meet the 
different needs in the different parts, both on the border and 
internally.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    Mr. Meek. Mr. Chairman, just before we adjourn.
    Mr. Rogers. Certainly.
    Mr. Meek. Ms. Jackson-Lee had to leave, but she wants to 
enter her statements and concerns for the record, if there is 
no objection.
    Mr. Rogers. There will be no objection.
    [The information follows:]
    Mr. Rogers. I do want to thank you all for your testimony, 
it has been very helpful, and thank the members for their 
questions. And if any members do have any additional statements 
or questions, they can submit them. And I would ask if there is 
a question, if you would submit a written response within 10 
days. We are going to keep our committee record open for 10 
days to accept those.
    And with that, I thank the panelists and committee members, 
and we are adjourned.
    [Whereupon, at 12:26 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ------------



                   Material Submitted for the Record

   Questions and Responses of T.J. Bonner Submitted by The Honorable 
                            Bennie Thompson

Question: 1. With all of the attention that was paid within both ICE 
and CBP to bringing their own INS and Customs components together as 
part of DHS's genesis, is it fair to say that not enough attention has 
been paid to inter-bureau coordination? No response has been received.

Question: 2. Absent issues which receive headquarters attention, namely 
anything connected to terrorism, minority staff field investigations 
over the last year found that the degree of local CBP and ICE 
coordination was heavily dependent on whether or not the supervisors 
had a good personal relationship. Given this dynamic, for a merger to 
be worthwhile wouldn't it have to affect more than just the 
headquarters components? No response has been received.

Question: 3. Even though the initial decision to split ICE and CBP may 
not have been ideal, would we be discussing a merger if BTS management 
had taken action to ensure proper coordination between the components? 
No response has been received.

Question: 4. Would you agree that many of the problems and concerns 
which lead you to the call for the merger of CBP and ICE arise from the 
only common supervisor being at the Undersecretary or even, if CIS is 
involved, the Deputy Secretary level? No response has been received.

Question: 5. With or without a merger, isn't the key issue making sure 
that policies and procedures are in place to encourage Border Patrol 
agents, CBP officers, and ICE agents to share information, coordinate 
operations and resolve procedural disagreements at the lowest possible 
level? No response has been received.

Question: 6. DHS has trumpeted the success of the Arizona Border 
Control (ABC) initiative in reducing the flow of migrants through the 
Arizona desert. Much of the success has been attributed to the command 
structure of the ABC initiative--a task force of CBP and ICE personnel 
headed by the Border Patrol sector chief. Do you believe that creating 
additional task forces under the direction of a local supervisor (an 
ICE agent-in-charge or a Border patrol chief) is a viable way to ensure 
that ICE and CBP coordinate their law enforcement efforts? No response 
has been received.

Question: 7. If task forces are a good idea for border control, 
wouldn't it also make sense to extend this model to other missions such 
as interior enforcement, alien and other smuggling through airports? No 
response has been received.

Question: 8. Would the problems we have discussed here today be 
lessened if the Administration decided to fully fund the border 
security enhancements called for in the 9/11 bill? No response has been 
received.

Question: 9. Who do you think is responsible for overall immigration 
policy within DHS? Is it one person? Would the Department be better off 
if one individual reporting in the Secretary could coordinate overall 
immigration policy? No response has been received.

Question: 10. What do you believe was the basis of the decision by the 
Administration to reconstitute the U.S. Customs Service and Bureau of 
Border Security into CBP and ICE? No response has been received.

Question: 11. Will you please address the One Face at the Border 
initiative? Do you think this program is this program working? Do you 
have concerns about the ability of inspectors to learn customs and 
immigration law? Can you please discuss your concerns in primary 
inspections and secondary inspections? No response has been received.

12. We are concerned that when ICE and CBP were created from Customs 
and legacy INS components that Customs inspectors lost their best 
source of intelligence and law enforcement information. Given that 
Customs inspectors are charged with assessing the risk of inbound cargo 
containers, and working with industry to secure these supply chains, I 
worry that CBP programs will not achieve their full potential because 
of the disconnect between ICE agents and CBP inspectors.

Questions:
a. What was the relationship between customs inspectors and 
investigators before the creation of DHS? No response has been 
received.
b. What is the existing relationship? What kinds of walls exist and how 
has CBP tried to compensate for the loss of Customs agents? No response 
has been received.
c. Are there any benefits to the current structure? No response has 
been received.
d. What is the impact on CBP's cargo security mission? No response has 
been received.

 Questions Submitted for the Record by The Honorable Kendrick B. Meek 
                            for T.J. Bonner

    Question: 1. What do you believe was the basis of the decision by 
the Administration to have CBP and ICE created as separate operational 
agencies? No response has been received.

Question: 2. If, for whatever reason, DDS ultimately decides not to 
merge ICE and CBP, what is the next most important action that could be 
taken to improve the effectiveness of CBP and ICE? No response has been 
received.

Question: 3. For a merger between COP and ICE to address the concerns 
you have raised, what additional steps beyond combining the 
headquarters operations would have to be part of the merger? No 
response has been received.

 Questions and Responses by James Jay Carafano, Ph.D. Submitted by The 
                       Honorable Bennie Thompson

Question: 1. With all of the attention that was paid within both ICE 
and CBP to bringing their own INS and Customs components together as 
part of DHS' genesis, is it fair to say that not enough attention has 
been paid to inter-bureau coordination?

Response: 1. Absolutely. There have been some instance of good 
coordination between CBP and ICE, particularly with regard to the 
Arizona Border Initiative, but in general it's a problem. In part, 
because there are new coordination requirements that did not exist 
before the creation of the department when border inspectors and 
investigators were in the same agency, and in part because ICE lacks 
resources. Freezing credit cards and eliminating TDY funds, for 
example, prevented agents from undertaking the travel needed to effect 
coordination.
    More fundamental to the coordination challenges is that the 
existing artificial seam between border and internal enforcement makes 
no sense. Distinguishing clear lines of responsibility between foreign, 
border, and internal enforcement security is a thing of the past. 
National security, economic growth, and the liberties of American 
citizens (as well as visitors and international business partners) can 
no longer be considered in isolation. The visa-issuing activities of 
the Department of State and the Customs and Border protection (CBP) and 
Immigration and Customs Enforcement agencies in the Department of 
Homeland Security (DHS) should be merged into a single border services 
agency under the DHS.

Question: 2. Absent issues which receive headquarters attention, namely 
anything connected to terrorism, minority staff field investigations 
over the last year found that the degree of local CBP and ICE 
coordination was heavily dependent on whether the supervisors had a 
good personal relationship. Given this dynamic, for a merger to be 
worthwhile wouldn't it have to affect more than just the headquarters 
components?
Response: 2. Merging CBP and ICE, even just at the headquarters' level, 
sends an important message that the Secretary expects these groups to 
work together and emphasizes as desired a cooperative culture. The 
merger ideally should be part of a much larger reorganization of DHS 
that would eliminate extraneous bureaucracy and consolidate policy and 
planning into a single office.
    I do, however, agree with, your point. DHS requires a sophisticated 
professional development program. We made an argument for such a 
program in The Heritage/CSIS report DHS Report 2.0: Rethinking the 
Department of Homeland Security.

Question: 3. Even though the initial decision to split ICE and CBP may 
not have been ideal, would we be discussing a merger if BTS management 
had taken action to ensure proper coordination between the components?
Response: 3. BTS does lack the staff to properly integrate the 
activities of the agencies, but that misses the point. If we had the 
right organization to begin with we would not have to create a 
bureaucracy to manage a problem that doesn't need to exist.

Question: 4. Would you agree that many of the problems and concerns 
which lead you to the call for the merger of CBP and ICE arise from the 
only common supervisor being at the Undersecretary or even, if CIS is 
involved, the Deputy Secretary level?
Response: 4. Again, I think problems and concerns arise from an 
artificial layer of coordination between inspectors and investigators 
that is unnecessary.

Question: 5. With or without a merger, isn't the key issue making sure 
that policies and procedures are in place to encourage Border Patrol 
agents, CBP officers, and ICE agents to share information, coordinate 
operations and resolve procedural disagreements at the lowest possible 
level?
Response: 5. Absolutely, the key to addressing border security is to 
deal with international, border, and internal enforcement as a single 
integrated mission. Addressing the challenge of illegal entry between 
the points of entry cannot be ignored, but Congress needs to establish 
clear priorities and invest in resources that create a system-of-
systems approach to security. Rather than trying to control the entire 
border, the United States requires a network of assets that direct the 
right capabilities to the right places at the right times to provide 
appropriate responses. This will require a combination of investments 
in high-speed and armed-airborne assets and in robust airborne sensor 
capabilities linked to an intelligence and early warning network. The 
network would provide knowledge of activities at sea and along the 
border, as well as the means to analyze and share that knowledge 
effectively. Modernizing the CBP's air and marine interdiction 
capabilities in concert with increasing funding for the Coast Guard's 
Deepwater acquisition program ought to take precedence.

Question: 6. DHS has trumpeted the success of the Arizona Border 
Control (ABC) initiative in reducing the flow of migrants through the 
Arizona desert. Much of the success has been attributed to the command 
structure of the ABC initiative--a task force of CBP and ICE personnel 
headed by the Border Patrol sector chief. Do you believe that creating 
additional task forces under the direction of a local supervisor (an 
ICE agent-in-charge or a Border patrol chief) is a viable way to ensure 
that ICE and CBP coordinate their law enforcement efforts? .
Response: 6. ABCI task forces would be much easier to initiate if it 
were done within a single agency. Even then, while the task forces make 
an important contribution, they are not the answer. They are an 
effective tactic, but not an adequate strategy. We need full 
integration of all ICE/CBP activities, not just cooperation in special 
task forces.

Question: 7. If task forces are a good idea for border control, 
wouldn't it also make sense to extend this model to other missions such 
as interior enforcement, alien and other smuggling through airports?
Response: 7. Yes, but again this could be mores effectively done under 
the leadership of a single agency.

Question: 8. Would the problems we have discussed here today be 
lessened if the Administration decided to fully fund the border 
security enhancements called for in the 9/11 bill?
Response: 8. No. Just hiring border guards is not the answer. A much 
more comprehensive solution is required.
    The Administration and Congress need to agree on a bipartisan 
approach to border security that gives precedence to the efforts that 
will make the nation significantly safer and more prosperous while 
protecting individual freedoms. Five steps should top the ``to do'' 
list.
    Step #1: The U.S. needs a single border services agency. The 
government's current organization reflects an outdated vision of how to 
protect America's borders. Responsibilities for visa issuance and 
monitoring, border security, and internal enforcement of customs and 
immigration are divided among three separate agencies in two 
departments on the erroneous assumption that threats and 
countermeasures can be neatly segmented in discrete activities. 
However, there are no frontiers in 21st century national security, nor 
are all border security issues best handled at the border.
    Protecting the United States against terrorist threats and 
significantly reducing transnational crime (e.g., drug, arms, and human 
trafficking); environmental dangers (e.g., contagious diseases and 
invasive species); and illegal entry and unlawful presence in the 
United States requires addressing these threats from their points of 
foreign origin through transiting the border to their U.S. 
destinations. Distinguishing clear lines of responsibility between 
foreign, border, and domestic security is a thing of the past. National 
security, economic growth, and the liberties of American citizens (as 
well as visitors and international business partners) can no longer be 
considered in isolation. The visa-issuing activities of the Department 
of State and the Customs and Border Protection (CBP) and Immigration 
and Customs Enforcement agencies in the Department of Homeland Security 
(DHS) should be merged into a single border services agency under the 
DHS.
    Step #2: Monitoring and servicing legal entry into the United 
States should be the highest priority. Improving the infrastructure and 
programs that oversee and support lawful means of trade and travel 
should be funded first. This includes upgrading immigration services 
and physical infrastructure at the busiest points of entry and fully 
funding programs like US-VISIT (tracking the entry and exit of visa 
holders); Smart Borders Initiatives (employing technology to speed the 
flow of people and goods); and Secure Flight (checking airline 
passengers against terrorist watch lists).
    Most goods, services, and people enter and exit the United States 
through legitimate means. These networks are the lifeblood of the U.S. 
economy and must be appropriately managed and protected. Likewise, 
virtually all known terrorists who have entered the United States came 
in through legal channels. In addition, as the United States improves 
its capacity to reduce illegal entry, illicit attempts to penetrate 
legal networks of trade and travel will likely increase. Effective 
border services must already be in place to meet this challenge if the 
United States hopes to improve its overall security.
    Step #3: Internal enforcement and international initiatives should 
take precedence over interdiction at the border. Too often, 
policymakers have assumed that the best place to reduce illegal and 
illicit activity is at the border. In practice, internal enforcement 
policies and programs, followed by working with point-of-origin and 
transit countries, probably offer a greater return on investment. For 
example, approximately 85 percent of illegal immigrants who receive 
final removal orders abscond.
    Focusing on deporting people already ordered removed from the 
country is a good starting point. In the long term, initiatives such as 
effective workplace enforcement to discourage employment of individuals 
unlawfully present in the United States, domestic counterterrorism 
investigations including means to track down criminal aliens, and the 
Millennium Challenge Account (foreign aid that encourages countries to 
adopt polices that promote economic growth, sound governance, and the 
rule of law) will have a greater impact on illegal entry and unlawful 
presence than will simply hiring additional border guards.
    Step #4: Border security must become a system of systems. 
Addressing the challenge of illegal entry between the points of entry 
cannot be ignored, but Congress needs to establish clear priorities and 
invest in resources that create a system-of-systems approach to 
security. Rather than trying to control the entire border, the United 
States requires a network of assets that direct the right capabilities 
to the right places at the right times to provide appropriate 
responses. This will require a combination of investments in high-speed 
and armed-airborne assets and in robust airborne sensor capabilities 
linked to an intelligence and early warning network. The network would 
provide knowledge of activities at sea and along the border, as well as 
the means to analyze and share that knowledge effectively. Modernizing 
the CBP's air and marine interdiction capabilities in concert with 
increasing funding for the Coast Guard's Deepwater acquisition program 
ought to take precedence.
    Step #5: The federal government should engage state and local 
governments and the private sector while respecting the principles of 
federalism and a free-market economy. Very little of this effort should 
rely on throwing money at the problem through federal grants or 
establishing unfunded Washington mandates. Rather, the federal 
government should take measured steps to strengthen the means of state 
and local law enforcement to conduct security and criminal-related 
immigration investigations, to maintain strong legal authorities for 
sharing law enforcement information, and to promote the development of 
effective national intelligence and early warning systems. Cooperative 
efforts with the private sector should focus on removing the barriers 
to effective information sharing between the government and non-
government entities--information that is essential for conducting risk 
assessments and implementing effective vulnerability reduction measures 
that promote economic growth and protect the privacy of citizens and 
proprietary information of companies.

Question: 9. Who do you think is responsible for overall immigration 
policy within DHS? Is it one person? Would the Department be better off 
if one individual reporting in the Secretary could coordinate overall 
immigration policy?
Response 9. The answer is simple. No one is in charge. Yes, I think it 
should be one person. That person should be within an Undersecretary 
for Policy and Planning. We discussed the scope of this position in The 
Heritage/CSIS report DHS Report 2.0: Rethinking the Department of 
Homeland Security.

Question: 10. What do you believe was the basis of the decision by the 
Administration to reconstitute the U.S. Customs Service and Bureau of 
Border Security into CBP and ICE?
(1) The intent to abolish legacy INS. (2) The notion that internal 
enforcement would be improved by integrating immigration and customs 
investigators into a single agency.

Question: 11. Will you please address the One Face at the Border 
Initiative? Do you think this program is working? Do you have concerns 
about the ability of inspectors to learn customs and immigration law? 
Can you please discuss your concerns in primary inspections and 
secondary inspections?
Response: 11. I think ``one face at the border'' should not mean that 
one agent is required to do everything, in all circumstances. I think 
it should reflect the intent to establish common practices, policies, 
and guidelines for handling people and things, simplifying charges and 
taxes into a single system, and eliminating unnecessary duplication of 
support assets. I think having inspectors cross-trained is good 
professional developments and there are some situations (such as a 
small crossing point) where a single inspector might make sense or for 
some primary inspection functions, but in general I would want 
secondary screening and major threat areas to be staffed by 
professionals trained with expertise in particular areas.

Question: 12. We are concerned that when ICE and CBP were created from 
Customs and legacy INS components that Custom inspectors lost their 
best source of intelligence and law enforcement information. Given that 
Customs inspectors are charged with assessing the risk of inbound cargo 
containers, and working with industry to secure these supply chains, I 
worry that CBP programs will not achieve their full potential because 
of the disconnect between ICE agents and CBP inspectors.

        a. What was the relationship between customs inspectors and 
        investigators before the creation of DHS?
        It is my understanding that there was a great deal of 
        cooperation. Furthermore, there were more career development 
        opportunities. It was not unusual for border inspector or 
        border patrol agent to become a customs investigator. Now, many 
        of the ICE investigators are hired straight out of college and 
        lack useful field experience.
        b. What is the existing relationship? What kinds of walls exist 
        and how has CBP tried to compensate for the loss of Customs 
        agents?
        CBP and ICE try to compensate by creating task forces.
        c. Are there any benefits to the current structure?
        The research and interviews conducted in support of the 
        Heritage/CSIS report DHS Report 2.0: Rethinking the Department 
        of Homeland Security did not find any compelling advantages to 
        the current structure.
        d. What is the impact on CBP's cargo security mission?
        CBP's cargo security mission has led to an inability to really 
        maximize the information that might be available from ICE that 
        might help with local targeting assessments.

Questions and Responses by James Jay Carafano, Ph.D. Submitted for the 
                 Record by The Honorable Kendrick Meek

Question: 1. What do you believe was the basis for the decision by the 
Administration to have CBP and ICE created as separate operational 
agencies?
Response: 1. The intent to abolish legacy INS. (2) The notion that 
internal enforcement would be improved by integrating immigration and 
customs investigators into a single agency.

Question: 2. If, for whatever reason, DHS ultimately decides not to 
merge ICE and CBP, what is the next most important action that could be 
taken to improve the effectiveness of CBP and ICE?
Response: 2. The next most important action would be to fix ICE's 
financial problems and ensure that the agency has adequate staff, 
resources and the authority to implement aggressive internal 
enforcement operations.

Question: 3. For a merger between CBP and ICE to address the concerns 
you have raised, what additional steps beyond combining the 
headquarters operations would have to be part of the merger?

Response: 3. Additions steps should include:
        1. A robust professional development and executive education 
        program.
        2. A long term investment strategy to give the agency adequate 
        resources and capabilities to perform its mission and invests 
        in critical infrastructure at major border crossings and points 
        of entry.
        3. An integrated border security strategy that addresses the 
        international dimension, the border, and internal enforcement.

 Questions and Responses of Michael Cutler Submitted for the Record by 
                     The Honorable Bennie Thompson

Question: 1. With all of the attention that was paid within both ICE 
and CBP to bringing their own INS and Customs components together as 
part of DUS's genesis, is it fair to say that not enough attention has 
been paid to inter-bureau coordination?
Response: 1. It is my belief that when you look at numerous issues 
concerning, the merging of the former Customs Service and the former 
INS into these two agencies, it becomes readily apparent that the 
result has left many employees from both former agencies frustrated and 
disappointed, although I believe that the former INS employees are in a 
worse position than are their counterparts from Customs. At present, 
most of the ICE field offices are headed by former Customs officials 
who lack a true understanding and appreciation, for the nature of the 
work that the former INS was responsible for. The immigration laws, 
both administrative as well as criminal, can be of great value in 
prosecuting the ``War on terror'' as well as the ``War on drugs.'' 
Moreover, these statutes provide real leverage in combating a wide 
variety of criminal activities and can also be instrumental in 
cultivating informants who can act as the eyes and ears of law 
enforcement agencies when used to best advantage. Because of the 
problems that are currently being faced in integrating these two very 
different agencies into both ICE and CBP many opportunities are being 
lost to maximize the potential that could otherwise be realized to 
great advantage.

Question: 2. Absent issues which receive headquarters attention, namely 
anything connected to terrorism, minority staff field investigations 
over the last year found that the degree of local CBP and ICE 
coordination was heavily dependent on whether or not the supervisors 
had a good personal relationship. Given this dynamic, for a merger to 
be worthwhile wouldn't it have to affect more than just the 
headquarters components?
Response: 2. I certainly believe that headquarters is essential for 
providing leadership and clearly defined goals, however, a head without 
a body won't go anywhere on its own. In order for any organization to 
be effective, leadership is essential at all level of the hierarchy to 
establish goals and to make certain that all members of the 
organization are contributing to the overall mission. The vast majority 
of field offices are headed by Special Agents-in-Charge who came from 
the former u.S. Customs Service. Perhaps, in part because of this, the 
immigration laws are being, in many instances, being neglected in the 
overall mission. Part of this problem stems from a lack of resources, 
both monetary as well as manpower, however, the fact foreign language 
training is no longer a part of the curriculum for new agents is a very 
telling omission as is the fact that to my understanding, there is no 
effort being made to provide in-service document training for special 
agents. These decisions were presumably made at the headquarters level. 
Until the merger of INS and Customs, all INS enforcement officers were 
mandated to successfully complete a Spanish language-training program 
because it is estimated that some 80% of the illegal alien population 
are individuals who are Spanish speaking. It is interesting to note 
that the United States military is now actively attempting to recruit 
both uniformed as well as civilian personnel who have foreign language 
skills or to train personnel in foreign languages including so-called 
strategic languages. It is hard for me to understand why special agents 
of ICE, the agency that is most likely to encounter individuals who do 
not speak English within our borders, are not being given appropriate 
language training. Additionally, for law enforcement officers in 
general and for immigration enforcement officers in particular, 
document training is vital because identity documents serve as the 
``lynchpin'' that holds any immigration law enforcement program 
together. It is especially important for those who are charged with 
enforcing the immigration laws to know precisely who they are dealing 
with to determine alienage and deportability of criminals and other 
individuals they come into contact with.
    These issues represent only a ``tip'' of the proverbial iceberg in 
illustrating how at present, the bureau of Immigration and Customs 
Enforcement at the headquarters level is failing to provide absolutely 
vital training to its law enforcement officers at a time when our 
nation's security hangs in the balance. On the local level, as I 
pointed out in response to the first question, the great majority of 
the field offices are being lead by former Customs officials. I have 
also been told that at some offices, there are problems in coordinating 
the activities of special agents of ICE and the CBP managers within 
whom they interact on a routine basis. Among these issues are the facts 
that ICE agents have been told to make prior notification before going 
to an airport on matters of official business and CBP inspectors have 
on various instances at various locations, notified agencies other than 
ICE about violations of laws that they encountered that are clearly 
within the purview of ICE. It is inefficient for CBP inspectors to call 
the FBI or DEA when the first call should have been to ICE. These 
failures in coordination and cooperation are demoralizing and 
counterproductive and are symptomatic of a breakdown in the 
professional relationship that these two agencies must have if they are 
to succeed in securing our nation's porous borders.

Question: 3. Even though the initial decision to split ICE and CBP may 
not have been ideal, would we be discussing a merger if BTS management 
had taken action to ensure proper coordination between components?
Response: 3. I believe that creating two agencies that have a common 
goal was flawed from the outset. Humans, like most creatures, are 
territorial and turf battles among agencies has historically plagued 
various efforts in our government. Additionally, I have often stated 
that immigration law enforcement needs to be thought of as an 
``Enforcement Tripod.'' Under this concept, the inspectors at ports of 
entry enforce the immigration laws at ports of entry, the Border Patrol 
enforces these laws between ports of entry and the special agents and 
deportation employees enforce the laws from within the United States 
and back up the other two components and constitute the third leg of 
the tripod. The interior enforcement component has always been the 
least funded and the one that has been nearly ignored for the past 
several decades, resulting in the collapse of the entire immigration 
effort that we are all too aware of today. In order for enforcement and 
administration of immigration laws to be effective, the three legs need 
to be of equal length and they also need to work in a coordinated 
fashion creating a virtually seamless operation. Creating a 
bureaucratic barrier between the components of what should be a single, 
coordinated agency hampers the essential mission of securing our 
nation's borders and endangers our security.

Question: 4. Would you agree that many of the problems and concerns 
which lead you to the call for the merger of CBP and ICE arise from the 
only common supervisor being at the Undersecretary or even, if CIS is 
involved, the Deputy Secretary level?
Response: 4. Certainly this is a problem, but I think that this problem 
needs more than a change in the way that the components are supervised. 
I believe that the structure of the agency is at the root of many ofthe 
problems. I also believe that while I would like to see ICE and CBP 
merged into one agency, I would like to see separate chains of command 
and separate funding and separate accountability for the immigration 
program. As I pointed out during the hearing, I believe that the merger 
of Customs and Immigration into one agency has created an unwieldy 
bureaucracy. The cultures and objectives of the former Customs and the 
former INS are very different from on another. Once you get past the 
point that they have both been traditionally involved with enforcing 
laws at the border, you find that they share little else in common. I 
believe that these two entities should coordinate their efforts to 
secure our border, but I am greatly concerned that the way that these 
efforts are currently being made, that too many gaps in the system 
threaten our security just as holes in a fence would fail to establish 
a secure perimeter around a parcel of land.
    I would not object to having the enforcement personnel who are 
primarily concerned with the enforcement of immigration laws from 
working side by side with those who are charged with enforcing the 
customs laws in one agency, I just want to make certain that neither 
side of the operation suffers because of the experience and orientation 
of the management at a particular office. Perhaps this would not be as 
critical had the attacks of September 11 not taken place, but inasmuch 
as we needed to be up to speed yesterday, we cannot afford a lengthy 
gestation period for this offspring to come into the world. I believe 
that what I am recommending would facilitate the effective enforcement 
of all of these critical laws in a much quicker pace, provided that the 
resources that are currently lacking are provided to accomplish these 
vital missions.

Question: 5. With or without a merger, isn't the key issue making sure 
that the policies and procedures are in place to encourage Border 
Patrol agents, CBP officers, and ICE agents to share information, 
coordinate operations and resolve procedural disagreements at the 
lowest possible level?
Response: 5. I absolutely agree that this is the destination that this 
process needs to take us, I just do not believe that the current 
structure of separate agencies (ICE and CBP) is the vehicle that will 
get us there. I believe that we need to rethink the structure of the 
agency that is charged with this most vital mission, securing our 
nation's borders and effectively enforcing the immigration laws that 
are supposed to protect our citizens from aliens who threaten our 
nation's security and our citizens' lives.

Question: 6. DHS has trumpeted the success of the Arizona Border 
Control (ABC) initiative in reducing the flow of migrants through the 
Arizona desert. Much of the success has been attributed to the command 
structure of the ABC initiative--a task force of CBP and ICE personnel 
headed by the Border Patrol sector chief. Do you believe that creating 
additional task forces under the direction of a local supervisor (an 
ICE agent-in-charge or a Border Patrol chief) is a viable way to insure 
that ICE and CBP coordinate their law enforcement efforts?
Response: 6. I believe in the effectiveness of task forces having 
worked on various task forces for a significant portion of my career. 
However, I also think that a single agency will do a better job of 
accomplishing a goal than by creating a task force. When I was assigned 
to the Organized Crime Drug Enforcement Task Force, I was supposed to 
provide my insight, expertise, law enforcement authority and access to 
immigration resources to aid in the investigation of aliens who were 
involved in major drug trafficking organizations with the ultimate goal 
being the arrest, successful prosecution of the individuals involved in 
drug trafficking and related crimes.Additionally, I was also involved 
in the forfeiture of their assets, the deportation of aliens involved 
in drug trafficking after they served out their sentences, if 
applicable and the dismantling of drug trafficking organizations. There 
were, however, instances when the goals of my agency, the INS were not 
the same as the goals of the other agencies such as the DEA, the FBI 
the A TF or local or state police. In these instances I was often 
caught in the middle between the goals of the INS and the goals of the 
other agencies. However, task forces certainly operate more effectively 
than do individual agencies that are not participating in a task force 
that can help to facilitate the coordination of their operations.

Question: 7. If task forces are a good idea for border control, 
wouldn't it also make sense to extend this model to other missions such 
as interior enforcement, alien and other smuggling through airports?
Response: 7. I certainly think that such task forces would be a 
beneficial development, but I also think that where such crimes as 
alien smuggling is concerned, it would be easier to create a seamless 
effort ifCBP and ICE were merged to track the movement of the aliens 
and the smugglers from outside the United States, to our border or port 
of entry all the way to the ultimate destination within the United 
States, whether it be a safe house or the destination to which the 
smuggled alien was ultimately destined to enable the enforcement 
program to track down and arrest and prosecute all of the defendants 
involved in the case. There would be fewer problems and a greatly 
reduced likelihood that the two agencies would ``trip'' over each 
other. If task forces are good, a single agency would be better.

Question: 8. Would the problems we have discussed here today be 
lessened if the Administration decided to fully fund the border 
security enhancements called for in the 9/11 bill?
Response: 8. Certainly I was outraged that the Administration did not 
fully fund the border security enhancements called for in the 9/11 
bill. In fact, on March 10, the day after the hearing that I testified 
before the Committee on Homeland Security, I testified before the House 
Subcommittee on Immigration, Border Security and Claims about a 
component of this very issue, the fact that the Administration only 
requested funding to hire some 143 special agents for ICE as compared 
with the 800 that was authorized by Congress. Having said this, I 
nevertheless have to respond to this question by saying, ``No.'' I am 
certain that this answer will surprise you but I think you will quickly 
understand my reasoning.
    I think that we need to be mindful of the sound of the ticking 
clock. Weare well into the fourth year on this ``War on terror'' and 
our borders are, to my thinking, nearly as porous as they were on 
September 10, 2001. That our nation has not suffered an attack on our 
soil in the time since September 11,2001 gives me little comfort 
inasmuch as the terrorists who set off the bomb at the World Trade 
Center on February 26. 1993 waited more than 8 years to attack that 
facility again without significant interference from our government. 
Vice President Cheney compared the attacks of September 11, 2001 with 
the attack on Pearl Harbor committed on December 7, 1941. While the 
comparison was apt, our reaction to these two attacks could not have 
been more different. In short order, after December 7, our nation 
created fleets of cutting edge aircraft, battleships, submarines and 
aircraft carriers. We even created and successfully deployed nuclear 
weapons with brand new technology and less than four years after that 
day that, as President Roosevelt declared, would live in infamy, our 
nation, with the backing of our allies ended that war.
    Today we still have virtually no control over our borders. We still 
have a visa waiver program. We are still not requiring biometric 
passports from countries that participate in this program. We still 
have only 2,000 special agents to enforce the immigration laws from 
within the interior of the United States. Recently, I saw a video clip 
in which Vice President Cheney publicly declared that our nation has 
millions of illegal aliens. He went on to say that we didn't know who 
they are, that we didn't know where they are and they we didn't know 
what they are up to. The enforcement of the immigration laws is the 
solution to that problem. Not the continuing debate about amnesty for 
illegal aliens or the sanctuary policy of many cities and local 
communities. I know that I am going a bit off the question, but I 
believe it is essential to make the point that indeed we need to have 
much better coordination among all components of the elements of the 
agencies and bureaucracies that are charged with securing our nation's 
borders, however all of the coordination in the world will not secure 
the borders when you simply do not provide the funding or the resources 
and leadership to make certain that the job get done. To think that 
2,000 special agents who work in proper coordination with the Border 
Patrol can get the job done is absolutely outrageous!
    New York City has been found to be the safest big city in the 
United States based on the crime statistics compiled by the FBI. New 
York has approximately 8 million residents who all are confined to the 
relatively small space that makes up the 5 boroughs of the city of New 
York.The New York City Police Department (NYPD) has nearly 40,000 
police officers. It has been estimated that there may well be more than 
twice as many illegal aliens in the United States than there are 
residents in New York City. These aliens are scattered across a third 
of the North American Continent that comprises the United States. They 
are policed by some 2,000 special agents. What would happen to New 
York's crime rate if the number of police officers of the NYPD was 
reduced to 2,000?
    Three years ago the GAO issued a report on the issue of immigration 
fraud. The report made it clear that fraud was a pervasive problem. In 
short, our nation has given many thousands of aliens resident alien 
status and even United States citizenship to which they would not have 
been entitled had all of the relevant facts been known. The way to 
combat such fraud is to have sufficient numbers of special agents who 
can do the appropriate field investigations to determine the bona fides 
of applications for immigration benefits. Such investigations are 
rarely if ever done today. Simply put, there are not enough agents to 
do this most basic job. Because of this, many more aliens are 
emboldened to file fraudulent applications, confident that their 
application will most likely not be investigated or even given the sort 
of scrutiny that is critical. Additionally, even if by some quirk, it 
is determined that their application is fraudulent, the lack of special 
agents, coupled with the lack of jail space will mean that even if the 
application is denied, there is almost no chance that an agent will be 
assigned to track that alien down to either seek his prosecution or his 
removal from the United States. Consequently, we have a vicious cycle 
where more aliens file more applications further exacerbating the 
problem.
    With an estimated illegal alien population that may well exceed 15 
million, with 30% of the federal inmate population in federal 
penitentiaries being identified as being foreign born, with a backlog 
of millions of applications for immigration benefits now pending 
adjudication, how does anyone even suggest that 2,000 special agents or 
even 10,000 special agents can even begin to make a dent in this 
critical situation? I haven't even mentioned the involvement of aliens 
in crime that is dealt with on the local level. Nor does this include 
the crisis in health care and education. It also does not include the 
fact that it has been estimated that last year more than 16 billion 
dollars was electronically transferred from the United States to Mexico 
by illegal aliens working in our country and sending money to their 
home country. Finally, I have read that illegal aliens from Mexico 
represents less than one third of the illegal alien population in the 
United States. Consequently, even more money is being sent from the 
United States to the respective nations from which these other aliens 
come, further draining money from our economy.
    It may be costly to hire an adequate number of special agents to 
constitute a deterrent to aliens who would come to this country in 
violation of our immigration laws, or who legally enter our country 
with the intention of ultimately violating our laws, either by 
accepting unlawful employment or by engaging in criminal activities 
such as membership in violent gangs, drug trafficking or terrorism. It 
is, however, far costlier for our nation to not address this problem 
which has been growing exponentially, spurred on by the knowledge that 
aliens who are present in our country in violation of our laws have 
little, if anything to fear.
    I would like to insert a quote that I referred to when I testified 
before the House Subcommittee on Immigration, Border Security and 
Claims on March 10,2005. This quote is from page 49 of a report 
entitled, ``9/11 and Terrorist Travel, A Staff Report of the National 
Commission on Terrorist Attacks Upon the United States''.
    ``Thus abuse of the immigration system and a lack of interior 
immigration enforcement were unwittingly working together to support 
terrorist activity.''
    I am therefore compelled to ask what it will take to change the way 
that we deal with this issue that has a direct bearing on the future of 
our nation? Can we afford to not secure our nation's borders especially 
as our government focuses on securing the borders of Iraq as we attempt 
to secure that nation against terrorists and insurgents? Should the 
American people expect a smaller effort from the government of the 
United States to secure their borders than the citizens of Iraq are 
currently enjoying where their borders are concerned?
    I recall that when I testified at a hearing before the House 
Immigration Subcommittee on Immigration and Border Security that 
focused on the Administration's proposed budget for immigration 
enforcement, on February 25 of last year, that Representative Lamar 
Smith, the former chairman of the House Subcommittee on Immigration and 
Claims and currently a member of that subcommittee, stated, ``And while 
it's a step in the right direction that we're increasing the amount of 
money--as I recall, it was something like from $20 million to $40 
million, roughly--for worksite inspections, that's a little bit like 
having two candles instead of one candle in a blackout. It's a step in 
the right direction, but it's not doing near what we should.''
    I would make the same point about the staffing levels authorized by 
Congress for this fiscal year. I am afraid we don't need a couple of 
more candles, given the seriousness of the situation; we need to break 
out the floodlights!

Question: 9. Who do you think is responsible for the overall 
immigration policy within DDS? Is it one person? Would the Department 
be better off if one individual reporting to the Secretary could 
coordinate overall immigration policy?
Response: 9. I believe that this is a difficult question to answer. 
Immigration policy needs to be fair, consistent and ultimately, 
effective. Immigration policy is one of the most critical issues that 
the federal government needs to address. It has been said that you only 
get one opportunity to make a first impression. The way our nation 
enforces and administers the immigration laws serves as that critical 
first impression for people throughout the world. We need to balance 
fairness and compassion with justice and integrity. America is and 
hopefully will always be seen as the ``Land of opportunity.'' We must, 
however, not permit it to become the land of opportunity to those who 
would harm us. We must deprive the criminals and the terrorists the 
opportunity to victimize our citizens and attack our nation. At present 
several individuals head up components of the immigration mission. 
Eduardo Aguirre is the head of Citizenship and Immigration Services, 
Mike Garcia headed ICE and Robert Bonner has headed CPB. I do not 
believe that a triumvirate is the best way to go. The concern I do have 
is that if the person who is ultimately responsible for the immigration 
system is a person who favors the service side, as was clearly the case 
with former INS Commissioner Meisner, that the enforcement program will 
suffer. It might make sense to have two distinct chains of command, one 
reporting to the person in charge of CIS and the other to what I hope 
will become a combination of ICE and CBP. The person charged with 
running the enforcement mission should be someone with extensive law 
enforcement experience, who thoroughly understands law enforcement. I 
would further suggest that they would then report to a person who would 
be in the position of balancing and coordinating both missions. The 
critical issue here is that we need to make certain that CIS be given 
clear marching orders that while the efficient processing of 
applications is important the backlog of applications should never get 
more attention than the integrity of the process. National security has 
to be the primary consideration for both sides of the operation. Having 
stated my misgivings about the situation that existed under the former 
INS, I also think that by putting a single person in charge of both 
sides of the operation, that individual will feel truly accountable. 
Sometimes people feel that there is safety in numbers. When a person 
can hide in a committee or a bureaucracy, it may become easier to not 
feel quite as accountable as a person who is ultimately the one person 
who bears ultimate responsibility. I recall that President Truman had a 
sign on his desk that said, ``The buck stops here.'' Perhaps that sense 
of accountability should exist for the person who will take charge of 
the immigration system. (Indeed immigration needs to be thought of as a 
system and not as a collection of loosely assembled components if it is 
to be successfully managed and lead.)

Question: 10. What do you believe was the basis of the decision by the 
Administration to reconstitute the U.S. Customs Service and Bureau of 
Border Security into CBP and ICE?
Response: 10. I have no idea and, in fact, I have often asked myself 
that very same question.

Question: 11. Will you please address the One Face at the Border 
initiative? Do you think this program is working? Do you have concerns 
about the ability of inspectors to learn customs and immigration laws? 
Can you please discuss your concerns in primary and secondary 
inspections?
Response: 11. I do not have an extensive background in customs law, 
however, I do have an extensive background in immigration law 
enforcement. Immigration laws are complex and are constantly evolving. 
The decisions that the inspectors at airports and other ports of entry 
have to make, especially in secondary where arriving aliens may make 
claims concerning political asylum and credible fear are conceivably 
life and death decisions. On the other hand, we have also seen that 
mistakes that err on the side of permitting aliens into the United 
States who are involved with crime and terrorism. Several times these 
sorts of decisions inadvertently facilitated the actions of the 
terrorists of September 11. It is absolutely critical that the 
inspectors who stand watch on our nation's borders have extensive and 
effective training in laws, in procedures and in terms of intelligence 
including developments in document fraud. I am most concerned with the 
training given to inspectors who handle secondary inspections, since 
the primary inspector does not need quite as much background as does 
the secondary inspector.
    I have also been told that the senior immigration inspectors at 
many ports of entry are no longer as involved as they had been in 
seeking criminal prosecutions against aliens who seek to enter the 
United States in violation of law. This issue has been a development 
since the implementation of ``One Face on the Border.''
    As I stated during the hearing, this is the age of the specialist. 
I believe that our security would be enhanced by making certain that 
the inspectors, especially in secondary, have the specialized training 
that they need. In view of these extremely critical and sensitive 
issues our nation would be better served by having separate customs and 
immigration inspectors handle secondary inspections.

Question: 12. We are concerned that when ICE and CBP were created from 
Customs and legacy INS components that Customs inspectors lost their 
best source of intelligence and law enforcement information. Given that 
Customs inspectors are charged with assessing the risk of inbound cargo 
containers, and working with industry to secure these supply chains, I 
worry that CBP programs will not achieve their full potential because 
of the disconnect between ICE agents and CBP inspectors.
        a. What was the relationship between customs inspectors and 
        investigators before the creation ofDHS?
        b. What is the existing relationship? What kinds of wall exist 
        and how has CBP tried to compensate for the loss of Customs 
        agents?
        c. Are there any benefits to the current structure?
        d. What is the impact on CBP's cargo security mission?
Response: 12. As I have stated previously, my knowledge about customs 
is extremely limited. I have heard anecdotal instances where CBP 
inspectors called other agencies when they encountered law violations 
that were under the purview of ICE such as drug seizes and the like. 
Clearly this is not helpful or in anyone's best interests. I regret I 
cannot provide answers or insight on the other issues that relate to 
customs enforcement issues you raise in this question.
Please note:
If I can be of further assistance to you or other members of the 
Committee or members of your respective staffs, please do not hesitate 
to contact me. I welcome the opportunity to contribute to efforts 
intended to enhance the security of our nation.

 Questions and Responses by Michael Cutler Submitted for the Record by 
                     The Honorable Kendrick B. Meek

    Question: 1. What do you believe was the basis of the decision by 
the Administration to have CBP and ICE created as separate operational 
agencies?
Response: 1. I can only speculate on the motivation to go in this 
direction inasmuch as I was not contacted when this decision was made, 
nor have I spoken with anyone who may have been involved in that 
decision making process. It may be that the thought was that the border 
was seen as an entity apart from the interior of the United States. If 
indeed that was the reason, it was, in my estimation, flawed because 
the two are truly an extension of each other. In fact, what is often is 
overlooked is the fact that an airport located in the heart of the 
United States is as much a part of the border as would be a land border 
port. Airports provide direct access into the United States which is 
why the enforcement of the immigration laws from within the interior of 
the United States is as critical to the success of the immigration 
enforcement mission as are enforcement efforts conducted by the Border 
Patrol operating in proximity to our nation's land borders.

Question: 2. If, for whatever reason, DDS ultimately decides not to 
merge ICE and CBP, what is the next most important action that could be 
taken to improve the effectiveness of CBP and ICE?
Response: 2. It is my belief that we need to place as much emphasis on 
the enforcement of the immigration and customs laws from within the 
interior of the United States as we do on the border. (I will focus on 
the issue of immigration law enforcement rather than customs law 
enforcement only because of my own background as a former INS law 
enforcement officer.)
    Interior enforcement efforts need to be greatly ramped up because 
we need to think of immigration law enforcement as a system rather than 
as a collection of separate and unrelated parts. You cannot control the 
flow of illegal aliens into the United States purely at the border for 
a host of reasons. First of all, nearly 50% of the illegal aliens 
currently in the United States did not evade the inspections process 
but did, in fact, enter the United States through a port of entry and 
then, in one way or another went on to violate the terms of their 
admission into our country.They may have simply stayed in the United 
States for a longer period oftime than they were given when they were 
admitted, they may have accepted unauthorized employment, or they may 
have committed felonies. In any event, these aliens fall squarely 
within the scope of the interior enforcement program that has been 
historically ignored, under-funded and understaffed.
    It is also worth remembering the controversial ``Catch and 
Release'' program of the Border Patrol where illegal aliens arrested by 
Border Patrol agents are permitted to head for the interior of he 
United States supposedly to turn themselves over to the immigration 
authorities for removal hearings. Not surprisingly, only a very small 
percentage of these illegal aliens do this. They simply head to their 
intended destinations and blend into the huge alien communities 
throughout our nation. They are welcomed by communities that have 
implemented ``sanctuary policies'' they are even able to apply for 
loans to conduct business as usual as our country ever increases 
efforts to blur the distinction between resident alien and illegal 
alien. Securing work is not difficult. Last year no company paid a 
single fine for knowingly employing illegal aliens, although the law 
clearly states that such companies are supposed to be fined under the 
auspices of the Employer Sanctions Program. An effective interior 
enforcement program would deter many would be illegal aliens from 
coming to our country. Conversely, the lack of meaningful interior 
enforcement encourages many aliens to come to this country in violation 
of law and when members of the political establishment publicly 
speculate about a guest worker program or other such amnesty program 
for illegal aliens, still more aliens are emboldened to run our borders 
and otherwise violate the immigration laws of this country.
    To quote John F. Shaw, the former Assistant Commissioner for 
Investigations of the Immigration and Naturalization Service when he 
testified before the House Subcommittee on Immigration and Claims on 
March 4, 1999:
    ``In its determined efforts to establish control of the border by 
tightening security on the perimeter, Congress has seemingly ignored 
the critical, complementary roles and responsibilities of Interior 
Enforcement. . . and these fall mainly on the shoulders of 
Investigations. I believe that the concept of Interior Enforcement, 
supported by a well articulated strategy document, ought to be as 
familiar in the nomenclature of immigration enforcement as the concept, 
or term, Border Control. Although, I must admit that even in-house at 
INS, the Commissioner has said that Interior Enforcement is a term of 
usage invented by Investigations and devoid of meaning.''
    That, according to the former head of the investigations program 
for the former INS would state that his boss, Commissioner Doris 
Meisner would indicate her disdain for the interior enforcement program 
of the INS after the first attack on the World Trade Center on February 
26, 1993 shows how great the problem is where dedicating adequate 
resources to this critical mission is concerned.
    If we do nothing else, I would urge that the interior enforcement 
of the immigration laws be given at least as much emphasis as we are 
giving the Border Patrol. When FBI Director Robert Mueller testified 
before the Senate Intelligence Committee in February of this year, he 
spoke of his concerns about possible terrorist sleeper cells operating 
within our nation. As I stated during the testimony that I provided 
when I testified before the House Subcommittee on Immigration, Border 
Security and Claims on March 10, 2005:
    ``Sleeper agents are not like cicadas; they do not simply slip into 
our country and then burrow into a hole for months or years awaiting 
their instructions to emerge to carry out a deadly terrorist attack. 
Sleepers are, in fact, aliens who, upon entering our country, manage to 
hide in plain sight by finding a job, attending a school or doing other 
such ``ordinary things'' that do not call attention to them. Someone 
once said that an effective spy is someone who could not attract the 
attention of a waitress at a greasy spoon diner. The same can be said 
of an effective terrorist. It is vital that we regain control of our 
borders and the entire immigration bureaucracy and enforcement program 
if we are to protect our nation against terrorists and criminals. This 
requires that we have an adequate number of law enforcement officers 
who are dedicated to this critical mission.''
    I believe it absolutely imperative that we do not seek a false 
economy of not fully funding a robust interior enforcement program if 
we are to secure our borders against terrorists, drug traffickers, 
members of violent gangs and others who would threaten our nation and 
our citizens. I also want you to know that my concept of fully funding 
this program does not coincide with what has been authorized by 
Congress. Our nation needs many for special agents, they need adequate 
resources including jail space and operating funds and need effective 
training including foreign language training, intelligence training, 
document training and true leadership to operate effectively. Our 
agents who enforce the immigration laws are in the best position to 
defend our nation from terrorists and other criminals by cultivating 
informants and by being the people who are most likely to spot trends 
as they develop. Admittedly this is not a cheap proposition, but when 
you consider the costs that accrued since 9/11, without even getting 
into the massive, horrific loss of human life on that horrendous day, 
our nation would be wise to find the money and protect our citizens. 
When I spoke with the investigators who were involved in the 
investigation conducted in the aftermath of the first attack on the 
World Trade Center, some of them told me that they were actually 
surprised that the bomb did not bring down the tower that was struck, 
sideways. There would have been no escape from that tower had that 
occurred. Other building would have undoubtedly been hit. It is 
virtually impossible to know what that carnage would have been, 
however, it would have been many, many times greater than the level of 
loss of life that we experienced on September 11. We have been hearing 
constant warning about terrorists seeking to obtain and deploy weapons 
of mass destruction. The cost in terms of dollar amounts and more 
importantly, human lives, has the potential to eclipse the horror this 
nation experienced on 9/11.
    I would also remind you that 30% of the federal inmate population 
incarcerated in federal correctional facilities are identified as being 
foreign born. It is therefore safe to say that many more people die in 
our country each and every year because of crimes committed by alien 
criminals than were killed as a result of the terror attacks of 
September 11. Alien criminals are involved in everything from drug 
trafficking (an activity that has, in many instances, been linked to 
terrorist organizations) ethnic organized crime groups, including 
violent gangs and whitecollar criminal activities which again, have 
been shown, in some instances, to have links to terrorist 
organizations.
    I know that you have asked me a relatively short question, and that 
I have responded with a rather lengthy response. I have done this 
because of how certain I am as to the rightness of my response and I 
want to make it abundantly clear that there are definite reasons that I 
hold these beliefs.

Question: 3. For a merger between COP and ICE to address the concerns 
you have raised, what additional steps beyond combining the 
headquarters operations would have to be part of the merger?
Response: 3. I believe that beyond adequate funding for both the 
enforcement of the border components of the program and the interior 
enforcement efforts, we need to have coordination of both elements at 
the field office level and also need to coordinate these efforts with 
the benefits program to address the concerns of the GAO when that 
agency prepared a report on a study on the issue of immigration benefit 
fraud in February 2002, that stated that fraud was a pervasive problem 
throughout the immigration benefit program. The 9/11 Staff Report on 
Terrorist Travel made it clear that in preparing to attack our nation, 
these enemies of our nation traveled frequently and extensively and 
probably could not have attacked us had they been unable to travel in 
that fashion. A United States passport would go a long way to 
facilitate the travel of a terrorist not only to easily cross our 
nation's borders, but to enter into many other countries inasmuch as 
the United States passport is considered the ``gold standard'' of 
passports throughout much of the world. Immigration benefit fraud can 
put an alien on the road to that highly coveted United States passport. 
While we are on the topic of the United States passport, we also need 
to seek simple solutions to problems as well. When an alien 
naturalizes, the law states that the new citizen may take any name that 
he or she desires at the time of naturalization. When a naturalized 
citizen applies for a United States passport, the only name that the 
passport generally reflects is the name that is on the naturalization 
certificate. I believe that it would make sense to make certain that 
the United States passport should also contain the name that the alien 
used prior to being naturalized so that if such a person was wanted in 
a foreign country under his/her original name, they wouldn't be able to 
circumvent a name-based watch list in another country. This would 
enhance the security of that other country and may also help our nation 
keep better track of those who may pose a threat. This would not cost 
anything and may make us a bit safer. There are other such things that 
can be done at little or no cost to improve security.
    The 9/11 Staff Report on Terrorist Travel noted the many identity 
documents that the terrorists used. I believe that the issuance of 
driver's licenses to illegal aliens must stop immediately. I have heard 
many people who favor open borders voice concerns about the use of 
driver's licenses as national identity documents. Frankly, they are too 
late. We have been using these documents in that fashion for quite some 
time. Any significant purchase in a store will most times trigger a 
request to see a driver's license whether you pay by check or credit 
card. Entry into sensitive buildings in the private sector as well as 
government often requires the display of a driver's license. Boarding 
an airplane or train also triggers that request. The only problem is, 
driver's licenses are not secure identity documents, we only pretend 
that they are. I have often said that the only thing worse than no 
security is false security. The demand of a driver's license at present 
is the equivalent of whistling past a graveyard. It may give us 
comfort, but it changes nothing. Only criminals and undercover agents 
would lie about their true identities. Undercover agents who work for 
our government are no threat to our well-being. Criminals and 
terrorists are. The argument that illegal aliens will drive with or 
without driver's licenses shows the level of contempt that currently 
exists for our laws. We currently take away driving privileges from 
motorists who are arrested for drunk driving to protect the rest of the 
population. We often hear about a drunk driver who drives a car without 
a license, gets into an accident and kills someone. I wonder if those 
who argue that illegal aliens will drive whether or not they have a 
license would argue against taking licenses from convicted drunk 
drivers on the same grounds--``That they will drive anyway.''
    It is crucial that we deter illegal immigration and not by simply 
posting more Border Patrol agents along our nation's borders. We need 
to create an effective immigration system that is fair, consistent, and 
effective and prevents illegal aliens who get past the Border Patrol or 
the inspector at the port of entry from conducting business as usual. 
This would deprive an alien who has no lawful right to be in the United 
States the reasons to come here in the first place. A prudent homeowner 
would not allow a stranger in without looking though the peephole to 
make certain that the person knocking on the door is of no danger 
should he be allowed in. This country should do no less. Our nation's 
military is currently attempting to secure the borders of Iraq to stop 
terrorists and insurgents. It appears to be working. We should do no 
less for our nation and our citizens. An effective, coordinated effort, 
aimed at the enforcement and administration of the immigration laws 
would go a long way to protect our homeland.
Please note:
    If I can be of further assistance to you or other members of the 
Subcommittee or members of your respective staffs, please do not 
hesitate to contact me. I welcome the opportunity to contribute to 
efforts intended to enhance the security of our nation.

Questions and Responses by Kenneth C. Klug Submitted for the Record by 
                     The Honorable Bennie Thompson

Question: 1. With all of the attention that was paid within both ICE 
and CBP to bringing their own INS and Customs components together as 
part of DHS's genesis, is it fair to say that not enough attention has 
been paid to inter-bureau coordination?
Response: 1. It is clear that much could be done in the area of inter-
agency coordination. First and foremost the agency heads should be held 
accountable for maintaining effective working relationships. By all 
accounts there is a rift between CBP and ICE at the highest levels.

Question: 2. Absent issues which receive headquarters attention, namely 
anything connected to terrorism, minority staff field investigations 
over the last year found that the degree of local CBP and ICE 
coordination was heavily dependent on whether or not the supervisors 
had a good personal relationship. Given this dynamic, for a merger to 
be worthwhile wouldn't it have to affect more than just the 
headquarters components?
Response: 2. Absolutely, the entire organization needs to report 
through their respective chains of command to Headquarters and 
Headquarters needs to hold principal field officers accountable for 
maintaining effective and complimentary working relationships. This is 
analogous to nothing more than establishing a detective division within 
the existing CBP structure.

Question: 3. Even though the initial decision to split ICE and CBP may 
not have been ideal, would we be discussing a merger if BTS management 
had taken action to ensure proper coordination between the components?
Response: 3. Perhaps, but it's difficult to speculate. Clear leadership 
would have offset some if not many of the difficulties encountered. BTS 
could have required the components to establish clear cut mission 
statements, communicate expectations, provided resources, and held 
agency heads accountable for maintaining effective working 
relationships. BTS has also treated ICE in a disparate fashion with 
regard to resources. TSA held a widely publicized award ceremony and 
the Under Secretary for BTS participated in the CBP awards ceremony. 
Conversely ICE inadequate funding levels resulted in no awards for 
personnel. This added to the already debilitated morale of employees.

Question: 4. Would you agree that many of the problems and concerns 
which lead you to the call for the merger of CBP and ICE arise from the 
only common supervisor being at the Undersecretary or even, if CIS is 
involved, the Deputy Secretary level?
Response: 4. I would agree. Furthermore, due to the size of the 
organization and their responsibilities the Undersecretary and/or 
Deputy Secretary are too far removed from the day-to-day operations of 
the respective organizations.

Question: 5. With or without a merger, isn't the key issue making sure 
that policies and procedures are in place to encourage Border Patrol 
agents, CBP officers, and ICE agents to share information, coordinate 
operations and resolve procedural disagreements at the lowest possible 
level?
Response: 5. These are important issues but the separation has also 
caused duplication of effort, duplicative administrative processes and 
the inefficient utilization of resources.

Question: 6. DHS has trumpeted the success of the Arizona Border 
Control (ABC) initiative in reducing the flow of migrants through the 
Arizona desert. Much of the success has been attributed to the command 
structure of the ABC initiative--a task force of CBP and ICE personnel 
headed by the Border Patrol sector chief Do you believe that creating 
additional task forces under the direction of a local supervisor (an 
ICE agent-in-charge or a Border Patrol chief) is a viable way to insure 
that ICE and CBP coordinate their law enforcement efforts?
Response: 6. Many question the success of the ABC. Personally I feel 
that the flood of migrants should have been monitored more closely from 
the onset. Had enough attention been paid to the slowly rising pattern 
more effected action could have been taken earlier, negating the need 
for the task force and consequently the tax dollars spent on it. 
Although task force initiatives may be worthwhile in some instances, 
agencies should not be relying solely on the efforts of principal field 
officers. Direction and leadership need to come from Washington and not 
negotiated in the field.

Question: 7. If task forces are a good idea for border control, 
wouldn't it also make sense to extend this model to other missions such 
as interior enforcement, alien and other smuggling through airports?
Response: 7. Again this is the underpinning of the fallacy. There is no 
``interior enforcement strategy'' and you cannot separate the 
functions. They are both border related. If carried to the logical 
conclusion under the ``interior enforcement strategy'', are the 
functions at inland international airports and seaports interior 
enforcement? Certainly not, their duties are border related. ICE does 
not have jurisdiction unless people or merchandise cross a b-o-r-d-e-r.

Question: 8. Would the problems we have discussed here today be 
lessened if the Administration decided to fully fund the border 
security enhancements called for in the 9/11 bill?
Response: 8. I am not well versed enough in this arena to answer this 
question but will restate that ICE has experienced significant 
financial hardship and operations have been adversely impacted.

Question: 9. Who do you think is responsible for overall immigration 
policy within DHS? IS it one person? Would the Department be better off 
if one individual reporting in the Secretary could coordinate overall 
immigration policy?
Response: 9. I would suggest along with many others, that a 
comprehensive review of the nations immigration policy is in order. A 
bipartisan approach similar the 9-11 Commission should be taken. To 
illustrate the problem of dealing with the problem without a 
comprehensive plan, many suggest that we continue to hire additional BP 
officers in order to control the border. This approach has not and will 
not work. This will do little good if we do not have the funding or the 
facilities to house apprehended aliens. They are literally ``caught and 
released''. It does little good to issue appearance notices when the 
vast majority fail to appear.

Question: 10. What do you believe was the basis of the decision by the 
Administration to reconstitute the U.S. Customs Service and Bureau of 
Border Security into CBP and ICE?
Response: 10. As I stated in my March 9th, 2005 written testimony to 
the subcommittee ``It is the belief of many of my colleagues in the 
Office of Investigations, that the concept of ICE and the subsequent 
division of the Customs Service was fatally flawed from its inception. 
Frankly, the creation of ICE was tantamount to building a house without 
a foundation.Many in the law enforcement community found it quizzical 
as to why all other agencies that were incorporated into DHS, such as 
Secret Service, FEMA, Coast Guard, etc. maintained their identity in 
the transition. The logic behind the concept of ice became even more 
arcane when the Federal Protective Service (F.P.S.), an agency 
responsible for guarding government buildings, was taken from under the 
General Services Administration and placed within ICE. To date, not a 
single individual I have spoken with in the federal government can 
supply any reason for incorporating F.P.S. into this border protection 
agency. Furthermore, the administration did not conduct a comprehensive 
review or issue a written report relative to the complexity or 
feasibility of combining these diverse agencies. Apparently no study, 
cursory or in depth, was requested or produced in anticipation of the 
proposed separation. I am certain that if an independent group such as 
the G.A.O. had conducted a study, the separation would have never been 
recommended and consequently not have occurred. Many of my coworkers 
believed then and continue to feel that the proposed division of 
Customs and INS was a result of the lack of specific knowledge on the 
part of those individuals in the administration who proposed it. They 
certainly had to be unaware of the precise missions of the two 
agencies. The months following the creation of ICE proved to 
substantiate that belief.''

Question: 11. Will you please address the One Face at the Border 
initiative? Do you think this program is this program working? Do you 
have concerns about the ability of inspectors to learn customs and 
immigration law? Can you please discuss your concerns in primary 
inspections and secondary inspections?
Response: 11. Inspectional (CBP) personnel would best address this 
question.

Question: 12. We are concerned that when ICE and CBP were created from 
Customs and legacy INS components that Customs inspectors lost their 
best source of intelligence and law enforcement information. Given that 
Customs inspectors are charged with assessing the risk of inbound cargo 
containers, and working with industry to secure these supply chains, I 
worry that CBP programs will not achieve their full potential because 
of the disconnect between ICE agents and CBP inspectors.
        a. What was the relationship between customs inspectors and 
        investigators before the creation of DHS?
        Customs Agents and Inspectors were closely aligned, roles 
        clearly established and programs were integrated. That does not 
        appear to be the case with INS Inspectors and Agents.
        b. What is the existing relationship? What kinds of walls exist 
        and how has CBP tried to compensate for the loss of Customs 
        agents?
                The relationships vary by location. In many instances 
                legacy relationships exist and are working. 
                Unfortunately, these will deteriorate over time due to 
                attrition. In other location the entities do not 
                interact.
                Many walls have surfaced. As an example CBP has decided 
                that the release of a passenger baggage declaration or 
                a customs entry for imported merchandise is subject to 
                the ``third agency rule''. In some instances agents 
                have been escorted from Inspectional areas and CBP has 
                pulled back from joint intelligence operations such as 
                ICAT and the EXODUS command center.
                CBP has compensated for the loss of the agents by 
                establishing their own intelligence division, foreign 
                offices and investigators referred to as 1895-Es.
        There is much duplication of effort.
        c. Are there any benefits to the current structure?
                Any perceived benefit is clearly outweighed by the 
                negatives.
        d. What is the impact on CBP's cargo security mission?
                Inspectional personnel would best address this 
                question, however, many of the functions that were 
                performed by the agents are now being performed by the 
                inspectors.

 Questions and Responses by Kenneth C. Klug Submitte for the Record by 
                     The Honorable Kendrick B. Meek

Question: 1. What do you believe was the basis of the decision by the 
Administration to have CPB and ICE created as separate operational 
agencies?
Response: 1. As I stated in my March 9th, 2005 written testimony to the 
subcommittee ``It is the belief of many of my colleagues in the Office 
of Investigations, that the concept of ICE and the subsequent division 
of the Customs Service was fatally flawed from its inception. Frankly, 
the creation of ICE was tantamount to building a house without a 
foundation. Many in the law enforcement community found it quizzical as 
to why all other agencies that were incorporated into DHS, such as 
Secret Service, FEMA, Coast Guard, etc. maintained their identity in 
the transition. The logic behind the concept of ICE became even more 
arcane when the Federal Protective Service (F.P.S.), an agency 
responsible for guarding government buildings, was taken from under the 
General Services Administration and placed within ICE. To date, not a 
single individual I have spoken with in the federal government can 
supply any reason for incorporating F.P .S. into this border protection 
agency. Furthermore, the administration did not conduct a comprehensive 
review or issue a written report relative to the complexity or 
feasibility of combining these diverse agencies. Apparently no study, 
cursory or in depth, was requested or produced in anticipation of the 
proposed separation. I am certain that if an independent group such as 
the G.A.O. had conducted a study, the separation would have never been 
recommended and consequently not have occurred. Many of my coworkers 
believed then and continue to feel that the proposed division of 
Customs and INS was a result of the lack of specific knowledge on the 
part of those individuals in the administration who proposed it. They 
certainly had to be unaware of the precise missions of the two 
agencies. The months following the creation of ICE proved to 
substantiate that belief.''

Question: 2. If, for whatever reason, DHS ultimately decides not to 
merge ICE and CBP, what is the next most important action that could be 
taken to improve the effectiveness of CBP and ICE?
Response: 2. Not to merge the agencies would be a grave mistake. What 
has been need and should be instituted immediately is to identify clear 
mission statements, priorities and roles and responsibilities for the 
respective entities. Currently the impacted elements have been required 
to negotiate Memorandums of Agreement. This is no substitute for 
leadership. There are redundant systems and the entities are ``mission 
creeping''. The Border Patrol has reestablished it's prosecutions units 
that conduct investigations and OFO is contemplating expanding their 
investigative functions as well. Should the current organizational 
structure continue the Department and BTS needs to clarify missions and 
expectations.

Question: 3. For a merger between CBP and ICE to address the concerns 
you have raised, what additional steps beyond combining the 
headquarters operations would have to be part of the merger?
Response: 3. We will not realize the goals of ``one face at the 
border'' until all entities with a responsibility for border 
enforcement are under one roof, pursuing the same priorities and 
reporting to one management structure. Although there may be separate 
functions within the component parts the efficiencies of Government 
will not be addressed unless they are marching in the same direction.

Questions and Responses by David J. Venturalla Submitted for the Record 
                    by The Honorable Bennie Thompson

Question 1. With all of the attention that was paid within both ICE and 
CBP to bringing their own INS and Customs components together as part 
of DHS's genesis, is it fair to say that not enough attention has been 
paid to inter-bureau coordination?
Response: 1. It is my opinion that very little has been done to 
coordinate the strengths and capabilities of ICE and CBP in an effort 
to protect our homeland. With the lone exception of the ABC initiative, 
DHS, in particular has not provided the direction and leadership 
necessary to capitalize on this opportunity.

Question 2. Absent issues which receive headquarters attention, namely 
anything connected to terrorism, minority staff field investigations 
over the last year found that the degree of local CBP and ICE 
coordination was heavily dependent on whether or not the supervisors 
had a good personal relationship. Given this dynamic, for a merger to 
be worthwhile wouldn't it have to affect more than just the 
headquarters components?
Response: 2. Coordination must start at the top. DHS and the 
headquarter components of ICE and CBP must develop the culture and 
structure that will facilitate coordination and communication at all 
levels. ICE has done little to foster communication and coordination 
within its own organization and even less with CBP. The leadership at 
ICE has failed to recognize the important elements that make an 
organization successful.

Question: 3. Even though the initial decision to split ICE and CBP may 
not have been ideal, would we be discussing a merger if BTS management 
had taken action to ensure proper coordination between the components?
Response: 3. I agree with your assessment. BTS and the Department 
should have taken a more active role.

Question: 4. Would you agree that many of the problems and concerns 
which lead you to the call for the merger of CBP and ICE arise from the 
only common supervisor being at the Undersecretary or even, if CIS is 
involved, the Deputy Secretary level?
Response: 4. I do not agree with that assessment. The problems that 
exist today are the result of weak leadership, poor planning and poor 
organizational decisions made early on by the Department. For example, 
the ``shared service'' concept was well intended but the lack of 
oversight by the Department has only served to widen the rift between 
ICE, CBP and CIS.

Question: 5. With or without a merger, isn't the key issue making sure 
that policies and procedures are in place to encourage Border Patrol 
agents, CBP officers, and ICE agents to share information, coordinate 
operations and resolve procedural disagreements at the lowest possible 
level?
Response: 5.

Question: 6. DHS has trumpeted the success of the Arizona Border 
Control (ABC) initiative in reducing the flow of migrants through the 
Arizona desert. Much of the success has been attributed to the command 
structure of the ABC initiative--a task force of CBP and ICE personnel 
headed by the Border Patrol sector chief. Do you believe that creating 
additional task forces under the direction of a local supervisor (an 
ICE agent-in-charge or a Border Patrol chief) is a viable way to insure 
that ICE and CBP coordinate their law enforcement efforts?

Question: 7. If task forces are a good idea for border control, 
wouldn't it also make sense to extend this model to other missions such 
as interior enforcement, alien and other smuggling through airports?
DHS and BTS operational policy and procedural guidance on many 
important issues have not been forthcoming. In the two years the 
Department has been in existence, only a handful of instructions have 
been generated. As a result, ICE and CBP are allowed to act independent 
of one another thereby creating redundant operations and processes. 
This lack of direction only exacerbates the problems that exist between 
ICE and CBP.
Response: 6 and 7. Task forces are one way of executing an operation; 
however, the impact of task force operations is very short in duration 
and does little to sustain the positive results achieved when the task 
force is dissolved.
    What is lacking in the Department is a long-range strategy that is 
supported by initiatives which compliment on another. Without a 
comprehensive border and interior enforcement strategy, initiatives 
such as ABC are only marginally successful as it relates to securing 
the border.

Question: 8. Would the problems we have discussed here today be 
lessened if the Administration decided to fully fund the border 
security enhancements called for in the 9/11 bill?
Response: 8. With or without the enhancements, the vulnerabilities we 
have in border security and interior enforcement would still occur 
because there is a lack of a common mission and strategic focus. 
Throwing money at the problem will not solve the problem.

Question: 9. Who do you think is responsible for overall immigration 
policy within DHS? IS it one person? Would the Department be better off 
if one individual reporting in the Secretary could coordinate overall 
immigration policy?
Response: 9. Prior to the creation of the Department of Homeland 
Security, the responsibility of immigration policy was located under 
one person and one organization. As we all recall, this didn't work 
well either. The structure of the organization did not contribute to 
this failure; rather, it was the lack of leadership and vision that 
failed this country. I do support the creation of a directorate for 
policy and planning that would report to the Secretary with the Deputy 
Secretary having responsibility for policy implementation and 
operational execution.

Question: 10. What do you believe was the basis of the decision by the 
Administration to reconstitute the U.S. Customs Service and Bureau of 
Border Security into CBP and ICE?
Response: 10. I believe the Administration saw a logical break--border 
(CBP) versus interior (ICE) when it started to realign and distribute 
functions. I also believe they envisioned a new tool to secure the 
borders and improve overall enforcement that could potentially occur as 
a result of the merger of custom statutory authorities and assets with 
immigration authorities and assets. Because of the lack of leadership 
and vision, the development of these powerful tools has not come to 
fruition.
Question: 11. Will you please address the One Face at the Border 
initiative? Do you think this program is this program working? Do you 
have concerns about the ability of inspectors to learn customs and 
immigration law? Can you please discuss your concerns in primary 
inspections and secondary inspections?
Response: 11. It is my opinion that ``The One Face at the Border'' 
initiative only addresses operational efficiencies and morale issues. 
It is not a strategy to improve security at our ports of entry and at 
our borders. In fact, without the inclusion of the U.S. Coast Guard, 
this initiative is incomplete.
    I do not have any concerns about the ability of inspectors to learn 
both customs and immigration law. When I was attending my basic 
training at the Federal Law Enforcement Training Academy as a 
deportation officer, I had to learn basic customs law. I believe 
inspectors from the former Customs Service and Immigration and 
Naturalization Service have been provided a basic foundation in both 
sets of statutes and learning the nuance of the laws would not pose a 
concern.
    I have no specific concerns regarding inspectors performing their 
duties during the primary and secondary process. I remain concerned 
about the information an inspector, in particular at a land border port 
of entry, has available to make their decisions.

12. We are concerned that when ICE and CBP were created from Customs 
and legacy INS components that Customs inspectors lost their best 
source of intelligence and law enforcement information. Given that 
Customs inspectors are charged with assessing the risk of inbound cargo 
containers, and working with industry to secure these supply chains, I 
worry that CBP programs will not achieve their full potential because 
of the disconnect between ICE agents and CBP inspectors.

Questions:
a. What was the relationship between customs inspectors and 
investigators before the creation of DHS?
b. What is the existing relationship? What kinds of walls exist and how 
has CBP tried to compensate for the loss of Customs agents?
c. Are there any benefits to the current structure?
d. What is the impact on CBP's cargo security mission?
Response: 12. I cannot to respond to these specific questions regarding 
the relationship of Customs Inspectors and former Custom Agents.

Questions and Responses by David J. Venturella Submitted for the Record 
                   by The Honorable Kendrick B. Meek

Question: 1. What do you believe was the basis of the decision by the 
Administration to have CPB and ICE created as separate operational 
agencies?
Response: 1. I believe the Administration saw a logical break--border 
(CBP) versus interior (ICE) when it started to realign and distribute 
functions. I also believe they envisioned a new tool to secure the 
borders and improve overall enforcement that could potentially occur as 
a result of the merger of custom statutory authorities and assets with 
immigration authorities and assets. Because of the lack of leadership 
and vision, the development of these powerful tools has not come to 
fruition.

Question: 2. If, for whatever reason, DHS ultimately decides not to 
merge ICE and CBP, what is the next most important action that could be 
taken to improve the effectiveness of CBP and ICE?
Response: 2. As I stated in my testimony, I would recommend a thorough 
examination of the components of each bureau and redistributing 
programs to provide a logical alignment of operations, assets as well 
as the integration of appropriate resources. In that vein, I would 
recommend placing customs, immigration and agriculture port assets 
under CBP and immigration enforcement assets under ICE. The Federal 
Protective Service and the Federal Air Marshals Service should be moved 
elsewhere in the department. The mismatch of functions and overlapping 
areas of responsibilities has served merely to diminish DHS's focus on 
enforcement.

Question: 3. For a merger between CBP and ICE to address the concerns 
you have raised, what additional steps beyond combining the 
headquarters operations would have to be part of the merger?
Response: 3. While I do not support the merger of the two bureaus, for 
this organization to be successful, someone with a sense of vision 
needs to lead the new bureau. This leader must be able to see down the 
road, examine the threats to our country and develop a plan on how take 
the current organization beyond in current capabilities to an 
organization that can overcome the threats of the future.

       Prepared Statement of The Honorable Sheila Jackson-Lee, a 
           Representative in Congress From the State of Texas

    Chairman Rogers and Ranking Member Meek, I appreciate your effort 
in holding this very important hearing to analyze the proposed 
efficiencies of the new consolidated bureaus of the Border and 
Transportation Security. The purpose of establishing the Department of 
Homeland Security was to facilitate greater communication and 
coordination. According to a report from the General Accounting Office 
(GAO), DHS has had mixed results in this regard. While many of the 
field officials with whom GAO spoke were pleased with the communication 
and coordination they had with other DHS immigration programs, problems 
still exist. The purpose of the hearing today is to learn about the 
communication problems within DHS between the bureaus of Customs and 
Boarder Patrol (CBP) and Immigration and Customs Enforcement (ICE).
    I am particularly interested in the way the cooperation between CBP 
and ICE has affected the government's efforts to deal with commercial 
alien smuggling operations. CBP and ICE issued general guidelines on 
each bureau's roles and responsibilities regarding how they would 
transfer the assets of anti-smuggling investigators from the Border 
Patrol to ICE, and how they would handle anti-smuggling investigations 
after the transfer of these investigators to ICE. A memorandum jointly 
issued by CBP and ICE in April 2004 for SACs and Border Patrol sector 
chiefs in field locations outlined each program's basic 
responsibilities. ICE would assume responsibility for administrative 
support; funding of the anti-smuggling investigators; and all 
investigations and complex cases such as international in nature or 
related to organizations or national security. The Border Patrol would 
have lead responsibility for cross-border and border related 
interdiction activities, such as surveillance to interdict illegal 
border crossings.
    According to the GAO report, these efforts have not been fully 
successful. Visits to the field and conversations with DHS employees 
suggest the reason for this is that alien smuggling cases traditionally 
arose from inspectors, border patrol agents or adjudicators noticing 
patterns or trends. The dissolution of INS has cut the connections 
between the agents who investigate alien smuggling and frontline 
personnel. In the same vein, fewer Customs investigations were 
generated based on leads from inspectors.
    Mr. Chairman and Ranking Member, I would hope that the questions 
that this body will pose to the witnesses will bring us closer to 
initiating action to address the problems and areas of vulnerability 
that exist in our border security program.

                                 <all>

</pre></body></html>
